<html>
<title> - PUTTING AMERICA'S VETERANS BACK TO WORK</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                PUTTING AMERICA'S VETERANS BACK TO WORK

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________


                              JUNE 1, 2011

                               __________

                           Serial No. 112-14

                               __________

       Printed for the use of the Committee on Veterans' Affairs






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-189                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON VETERANS' AFFAIRS

                     Jeff Miller, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                              June 1, 2011

                                                                   Page
Putting America's Veterans Back to Work..........................     1
                               __________

                           OPENING STATEMENTS

Chairman Jeff Miller.............................................     1
    Prepared statement of Chairman Miller........................    50
Hon. Bob Filner, Ranking Democratic Member.......................     3
    Prepared statement of Congressman Filner.....................    51
Hon. Gus M. Bilirakis, prepared statement of.....................    51
Hon. John Barrow, prepared statement of..........................    52
Hon. Russ Carnahan, prepared statement of........................    52
                               __________

                               WITNESSES

U.S. Department of Veterans, Ruth A. Fanning, Director, 
  Vocational Rehabilitation and Employment Service, Veterans 
  Benefits Administration........................................    34
    Prepared statement of Ms. Fanning............................    96
U.S. Department of Labor, Hon. Raymond M. Jefferson, Assistant 
  Secretary, Veterans' Employment and Training Service...........    37
    Prepared statement of Mr. Jefferson..........................   100
                               __________

American Veterans (AMVETS), George Ondick, Executive Director, 
  Department of Ohio.............................................    25
    Prepared statement of Mr. Ondick.............................    76
Consortium for Citizens with Disabilities, Heather L. Ansley, 
  Esq., MSW, Co-Chair, Veterans Task Force.......................    28
    Prepared statement of Ms. Ansley.............................    86
DirectEmployers Association, Jolene Jefferies, Vice President, 
  Strategic Initiatives..........................................     6
    Prepared statement of Ms. Jefferies..........................    61
Florida Army National Guard, Major General James D. Tyre, ARNG, 
  Assistant Adjutant General.....................................    33
    Prepared statement of General Tyre...........................    93
National Association of State Workforce Agencies, Richard A. 
  Hobbie, Executive Director.....................................     4
    Prepared statement of Mr. Hobbie.............................    52
Reserve Officers Association of the United States, Captain 
  Marshall Hanson, USNR (Ret.), Director, Legislative and 
  Military Policy, and also on behalf of Reserve Enlisted 
  Association....................................................    26
    Prepared statement of Captain Hanson.........................    79
Society for Human Resource Management, Henry Jackson, Interim 
  President and Chief Executive Officer..........................     9
    Prepared statement of Mr. Jackson............................    71
U.S. Chamber of Commerce, Kevin M. Schmiegel, Vice President, 
  Veterans Employment Programs...................................     8
    Prepared statement of Mr. Schmiegel..........................    67
                               __________

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to Richard A. Hobbie, Executive Director, 
      National Association of State Workforce Agencies, letter 
      dated June 22, 2011, and response letter, dated August 3, 
      2011.......................................................   103
    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to Jolene Jefferies, Vice President, 
      Strategic Initiatives, DirectEmployers Association, letter 
      dated June 22, 2011, and response, memorandum dated June 
      29, 2011...................................................   105
    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to Kevin M. Schmiegel, Vice President, 
      Veterans Employment Program, U.S. Chamber of Commerce, 
      letter dated June 22, 2011, and Mr. Schmiegel's responses..   112
    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to George Ondick, Executive Director, 
      Department of Ohio, AMVETS, letter dated June 22, 2011, and 
      Mr. Ondick's responses.....................................   113
    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to Captain Marshall Hanson, USNR (Ret.), 
      Director, Legislative and Military Policy, Reserve Officers 
      Association, letter dated June 22, 2011, and Captain 
      Hanson's responses.........................................   114
    Hon. Bob Filner, Ranking Democratic Member, Committee on 
      Veterans' Affairs to Hon. Raymond M. Jefferson, Assistant 
      Secretary, Veterans' Employment and Training Service, U.S. 
      Department of Labor, letter dated June 22, 2011, and DoL's 
      responses..................................................   115

 
                       PUTTING AMERICA'S VETERANS
                              BACK TO WORK

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                            Washington, DC.

    The Committee met, pursuant to notice, at 10:02 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[Chairman of the Committee] presiding.
    Present: Representatives Miller, Stutzman, Benishek, Huelska
mp, Filner, Michaud, Braley, McNerney, Donnelly, and Barrow.

              OPENING STATEMENT OF CHAIRMAN MILLER

    The Chairman. Good morning, everybody. Welcome to our 
Committee meeting this morning: Putting America's Veterans Back 
to Work. I think we all can agree that this is one of the most 
important hearings that we will have in this Congress. That is 
why we have decided to proceed with this hearing even though 
many of the Members on the majority side are at a meeting at 
the invitation of the President at the White House.
    Just last week, I and other Committee Members met with 
dozens of veteran organizations who were nearly unanimous in 
making jobs for veterans their number one priority. I couldn't 
agree more.
    Lengthy unemployment can cause an unbelievable amount of 
strain. Bills don't get paid, savings can be exhausted, and 
family needs have to be put on hold. The financial strain of 
not having meaningful employment has a cascading effect for 
many: family problems, declining health, homelessness. We have 
just got to get the economy going again to put Americans back 
to work, especially those who have protected our freedom to 
work in the first place.
    Growing the economy starts with the fundamentals of keeping 
taxes on small businesses low, which necessarily means holding 
Federal spending down, reducing burdensome and unnecessary 
regulations, and ensuring that we have a trained, skilled 
workforce ready for the 21st Century jobs.
    It is this third area, ensuring a trained, skilled 
workforce, that the Veterans' Affairs Committee is primed to 
lead. There are a number of programs run by the U.S. Department 
of Veterans Affairs (VA) and the U.S. Department of Labor (DoL) 
that have the potential to help, but our task is to see if 
those programs, as designed, are doing the job as intended. Our 
responsibility is to modernize them to respond to the specific 
needs that exist for unemployed or under-employed veterans in 
our economy. So let me take a moment to highlight a few areas 
where I think we need improvement.
    First, the unemployment rate among all veterans of the 
Global War on Terror has been reported to be as high as 13.1 
percent. This high rate exists despite the fact that Transition 
Assistance Programs (TAPs) for separating servicemembers 
looking for work are available, as are federally funded 
veterans employment specialists within every State. We need to 
look at these programs anew to see how they can be improved.
    Second, training and the education benefits through the new 
Post-9/11 GI Bill and other programs are valuable tools, I 
think we will all agree, for our veterans. However, as 
currently designed, they do little good for middle-aged 
veterans far removed from military service who may need new 
skills to break out of unemployment.
    To highlight the point I am making, on the 2nd of May the 
Conference Board released its data showing there are nearly 4.5 
million jobs advertised on the Internet. The Board's data also 
show the top 10 career fields with a heavy presence of jobs 
requiring hard skills. To me, this shows that good jobs are out 
there. We just need to retool the programs we have to help our 
veterans compete for those very jobs.
    Finally, there are legal protections for Guardsmen and 
Reservists who left work to fight for our country. By law, they 
are entitled to have or go back to their jobs when they come 
home; and we need to be aggressive in enforcement of this law.
    Just one more thing. We need to have a better understanding 
of the demographics of unemployed veterans, things like 
education levels, lengths of unemployment, skills learned in 
the military, to name a few; and we will hear some of that from 
our witness from the Bureau of Labor Statistics (BLS). But I 
believe it is time to expand the facts that we know about 
unemployed veterans.
    As a beginning, I hope today's witnesses can provide some 
insight into what we can do to help veterans get the jobs they 
want and they deserve. I have some ideas of my own. So let's 
get the ball rolling.
    I will soon introduce a new jobs bill for veterans, and the 
principles of my bill are simple. We need to provide a 
meaningful retraining program for our older veterans, who make 
up two-thirds of all unemployed veterans. We need to ensure 
that the Transition Assistance Programs--TAP--for our younger 
veterans is effective and, just as important, utilized when 
they separate from the military. We need to add flexibility and 
accountability to federally-funded job training programs, and 
we need to ensure that we have updated legal protections for 
veterans who want their jobs back on their return from service 
active duty. And we must do a better job of enforcing these 
protections.
    I know Members will have other ideas as we go forward, but, 
keeping in line with the theme of this hearing, I am anxious to 
roll up my sleeves and get to work. As with any work, we need 
to set goals; and let me tell you what my goal is. I believe 
that an unemployment rate between 4 and 5 percent is generally 
accepted to be full employment in this country. So I want to 
begin today's hearing by setting a goal to reduce unemployment 
among veterans from its current level of 7.7 percent to about 
4.5 percent. That means, using the Bureau of Labor Statistics 
April data, we need to reduce the number of unemployed veterans 
from April's number of 873,000 to 470,000, or a reduction of 
about 400,000 veterans. I think we can do that, and I invite 
every Member of this Committee to join me in achieving this 
goal--not just overnight--but over the next year or 2, at the 
outside.
    I now recognize our Ranking Member, Mr. Filner, for his 
opening remarks.
    [The prepared statement of Chairman Miller appears on p. 
50.]

              OPENING STATEMENT OF HON. BOB FILNER

    Mr. Filner. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    I ask that my opening statement be made part of the record.
    The Chairman. Without objection.
    Mr. Filner. I would associate myself with your comments, 
except for one statement. You start off with the mantra that we 
have to reduce taxes on small business, which I would agree 
with, and cut spending. Then you go on to say how much we need 
more training. It seems to me we have to increase spending in 
these areas, and I am not afraid to come out and say it. We 
have to increase our spending in these areas. If we are going 
to put people back to work, it is going to take some 
investment; and maybe we can do another hearing on this, Mr. 
Chairman.
    The VA has hired thousands and thousands of employees to 
deal with disability payments and other issues. I suspect that 
they need to meet some percentage goals in terms of hiring 
veterans. But this is the VA. It ought to go much further. We 
could use those jobs as a training vehicle for people. Why 
aren't we hiring all veterans for these jobs? Veterans in 
charge of the disability payment situation would probably bring 
a whole new level of concern for those who are applying. But 
the VA ought to not just hire thousands of veterans. If it 
doesn't find qualified veterans then it should train them.
    Second, as you know, we have major construction projects in 
the VA and, of course, around this whole government. I would 
find it hard to believe--and I would like to have a hearing on 
it--that these construction projects meet some minimal 
guidelines for hiring veterans. It should be a requirement for 
our VA construction projects but also for construction projects 
across the government. We are spending billions and billions of 
dollars, not only in VA, but the DoD. If the agencies say they 
can't find qualified people, then let's train the veterans 
right on the job.
    It seems to me we can meet your goal. I thank you for 
setting it, not just in the public sector, but we should also 
be encouraging and having everybody understand what they should 
do for our Nation's veterans.
    I think we have to take what we have already and look at 
whether we are hiring and meeting goals in these areas. I don't 
know the statistics, but I bet we are not anywhere near what we 
ought to be if we are going to meet the goals that you properly 
set, Mr. Chairman. So I hope that we not only encourage the 
private sector by whatever we can do through the Congress and 
the White House to encourage that amongst our citizens, but we 
ought to have a hearing on what the public sector is doing in 
terms of meeting these goals.
    Again, everybody says, well, I wish I could find qualified 
people. If you really mean that, then you are obligated to 
train them and not just say they are not qualified. I think we 
can meet these goals, but I think we have to make sure our own 
hiring practices and our own contracting regulations are also 
in furtherance of that goal.
    I yield back, Mr. Chairman.
    [The prepared statement of Congressman Filner appears on
p. 51.]
    The Chairman. I thank my colleague for his remarks.
    I would remind him, although there is a little bit of 
difference in the way we think we need to raise the money, what 
I will propose will be within current spending levels. We will 
have an offset that I believe he will probably most readily 
agree with, that we can do that. So it is not a matter of 
spending more. It is definitely spending it more efficiently.
    Mr. Filner. We're going to cut your staff?
    The Chairman. And title 38 of section 4212--I heard you--
requires all Federal contractors to report jobs that are 
available and how many veterans that they employ. So I will be 
happy to help you get the information that is out there, and I 
appreciate your comments and your willingness to work together, 
as we have done so since the first of the year.
    I would like to ask the first panel, if they would, to come 
forward. As you come forward, I will go ahead and make the 
introductions.
    The first panel: Richard Hobbie, Executive Director of the 
National Association of State Workforce Agencies (NASWA); 
followed by Ms. Jolene Jefferies, Vice President of Strategic 
Initiatives of the DirectEmployers Association (DEA); and Kevin 
Schmiegel, who is the Vice President of Employment Programs for 
the United States Chamber of Commerce. And, finally, we have 
Henry Jackson, who is the Interim President and Chief Executive 
Officer of the Society for Human Resources Management (SHRM).
    Thank you for being here today. We appreciate your 
willingness to testify. We apologize for having to have already 
postponed this hearing once. Thank you for making adjustments 
to your schedule.
    We would like to begin with Mr. Hobbie. You are recognized.

 STATEMENTS OF RICHARD A. HOBBIE, EXECUTIVE DIRECTOR, NATIONAL 
ASSOCIATION OF STATE WORKFORCE AGENCIES; JOLENE JEFFERIES, VICE 
PRESIDENT, STRATEGIC INITIATIVES, DIRECTEMPLOYERS ASSOCIATION; 
    KEVIN M. SCHMIEGEL, VICE PRESIDENT, VETERANS EMPLOYMENT 
PROGRAMS, U.S. CHAMBER OF COMMERCE; AND HENRY JACKSON, INTERIM 
   PRESIDENT AND CHIEF EXECUTIVE OFFICER, SOCIETY FOR HUMAN 
                      RESOURCE MANAGEMENT

                 STATEMENT OF RICHARD A. HOBBIE

    Mr. Hobbie. Chairman Miller, Ranking Member Filner, and 
Members of the Committee, on behalf of the National Association 
of State Workforce Agencies, or NASWA, thank you for the 
opportunity to discuss employment of veterans.
    I am Rich Hobbie, Executive Director of NASWA. The members 
of NASWA are State leaders of the publicly funded workforce 
system and are committed to providing the highest quality of 
service to our Nation's veterans, National Guard members, and 
Reservists.
    As unemployment remains high, helping veterans transition 
from their military to civilian careers remains a significant 
challenge. The Bureau of Labor Statistics, or BLS, reported in 
March 2011, the jobless rate among the Nation's 22 million 
veterans ages 18 and older was 8.7 percent in 2010, compared to 
9.4 percent for nonveterans. However, the 2.2 million veterans 
who served in the military since September, 2001, had an 
unemployment rate of 11.5 percent in 2010. For these same 
veterans ages 18 to 24, the unemployment rate was 21 percent, 
but this was not statistically different from nonveterans of 
the same age.
    NASWA members administer veterans programs funded through 
the U.S. Department of Labor, or DoL. These programs are 
offered to veterans through the Nation's nearly 3,000 One-Stop 
Career Centers. State workforce agencies provide a wide range 
of services for veterans, including the Disabled Veterans' 
Outreach program, or DVOP, and Local Veterans' Employment 
Representatives, or LVERs. However, veterans receive many more 
services through programs such as unemployment compensation for 
ex-servicemembers, the UCX program; labor market information; 
labor exchange services; assessment of skill levels; and job 
search assistance. All of these services are offered to 
veterans under priority of service authorized by the Jobs for 
Veterans Act, or JVA, enacted in 2002. It requires the 
workforce system to make veterans a priority. States 
implemented JVA under guidance from DoL.
    There are three fundamental challenges to employing 
veterans.
    First, the economy. There are not enough jobs available for 
all job seekers. Currently, the ratio of unemployed workers to 
job openings is about four to one.
    Second, funding. Funding for employment services is barely 
half of what it was 30 years ago; and other workforce program 
funding, excluding unemployment benefits, has remained 
relatively constant for the past 20 years.
    Third, difficulty connecting veterans to the workforce 
system. Because of funding cuts and efforts to improve, the 
workforce system has automated many of its services. While this 
allows States to serve workers and employers, it has reduced 
in-person consultation. While nearly all claimants, including 
veterans, file for unemployment insurance via telephone or 
Internet, there is often limited in-person contacts with One-
Stop Career Centers. NASWA is working with DoL to improve this 
connection. With about 36,000 veterans collecting UCX per week, 
this should be a high priority for veterans on UCX.
    An additional way State workforce agencies have responded 
to these challenges was the creation of the National Labor 
Exchange, or NLX. The NLX aims to capture the greatest number 
of valid job openings. Some 49 States are participating in the 
NLX. Since 2007, the NLX has provided over 9 million jobs to 
State workforce agencies and is operated in partnership with 
DirectEmployers Association, a trade association of over 600 
Fortune 1,000 companies.
    More specific challenges unique to veterans include, first, 
veterans are often unable to obtain civilian credentials 
despite gaining related experience or training while in the 
military. Second, many veterans have difficulty translating 
military skills and experiences into civilian jobs. Third, 
employers have difficulty identifying the location of veterans 
with certain skills. And, fourth, the Office of Federal 
Contract Compliance, or OFCCP, has proposed regulations that 
would needlessly burden Federal contractors and State workforce 
agencies by imposing unrealistic recordkeeping and reporting 
requirements.
    Mr. Chairman, NASWA looks forward to working with you and 
the Committee on these challenges. Thank you.
    [The prepared statement of Mr. Hobbie appears on p. 52.]
    The Chairman. Thank you.
    Ms. Jefferies.

                 STATEMENT OF JOLENE JEFFERIES

    Ms. Jefferies. Chairman Miller, Ranking Member Filner, and 
Members of the Committee, on behalf of DirectEmployers 
Association thank you for the opportunity to discuss our 
Association's veteran outreach programs for employers.
    My name is Jolene Jefferies, and I am Vice President of 
Strategic Initiatives for DirectEmployers. Founded in 2001 and 
headquartered in Indianapolis, DirectEmployers is a 501(c)(6) 
trade association owned and managed by over 600 Fortune 1,000 
human resource or H.R. executives. Our mission is to provide 
employers an employment network that is cost-effective, 
improves labor market efficiency, and reaches an ethnically 
diverse national and international workforce.
    Consistent with our mission, DirectEmployers partnered with 
the National Association of State Workforce Agencies, or NASWA, 
in 2007 to create the JobCentral National Labor Exchange, or 
the NLX. The NLX replaced the previously federally funded 
America's Job Bank and is a free job search engine to all 
employers, regardless of size, in all industries. The NLX 
relies on no Federal funds but instead this unique public/
private partnership leverages nonprofit-owned technology with 
existing State workforce agency resources to enhance offerings 
to veterans.
    Through VetCentral, a feature of the NLX, employers' job 
openings are automatically indexed or scraped directly from 
their corporate career sites. These job openings are then 
provided to the appropriate employment service delivery system 
nationwide via e-mails to the disabled veteran outreach program 
coordinators and local veteran employment representatives and 
in many cases are also electronically fed directly into the 
State job banks. DirectEmployers goes above and beyond minimum 
regulatory compliance mandates and also feeds members' job 
openings to many other related military related and government 
Web sites.
    Announced in April, the .Jobs universe military network is 
also free to all employers and provides military personnel and 
their dependents access to more than 880,000 employment 
opportunities per month from over 90,000 employers nationwide. 
Over 5,800 .Jobs domains serve all branches of the Armed Forces 
and utilize the military occupational classification, or MOC, 
to link military occupations to matching civilian occupations 
such as www.42F.jobs. The .Jobs military family feature helps 
military families and caregivers search for employment at their 
assigned base, such as www.CampPendleton.jobs.
    DirectEmployers also established a Recruitment Regulatory 
Compliance Committee, or RRCC, to provide consultation and 
guidance to employers on issues related to veterans employment.
    In a recent survey, employers identified five barriers in 
employing veterans.
    One, just-in-time hiring process. Because employers utilize 
a just-in-time time hiring process, employers would benefit 
from Federal and State employment services that support this 
model. Turnover in H.R. departments is dynamic, and utilization 
of the Internet, social media platforms, and related 
technologies are commonplace. Companies seek to leverage cost- 
and time-effective resources that provide more immediate 
recruiting solutions.
    Two, skills and education translation. The military 
workforce is challenged with the translation and transference 
of their education and skills.
    Three, military to civilian certification. Several 
professions require special licenses or accreditations. 
Transitioning military personnel are at a disadvantage without 
such credentials. All levels of government need to implement 
solutions that effectively balance current challenges with 
educational system gaps, the accreditation of job seekers, and 
the fiscal demands and resources of civilian employers.
    Four, lack of data. There is no reliable data source that 
takes into account the available pool of the military 
workforce, making it difficult for employers to find qualified 
veterans.
    Five, OFCCP consistency. Federal contractors have 
experienced challenges from the OFCCP, especially during 
compliance evaluations that hampers collaboration. First, their 
knowledge and appreciation of how State workforce agencies 
operate is outdated; and, second, their standards and 
procedures across national, regional, and district offices is 
inconsistent.
    To help all employers more effectively employ veterans, 
DirectEmployers continues to work with NASWA to offer an 
outstanding hiring and retaining veterans Webinar education and 
training series for both employers and State workforce 
agencies. This 16-module series and its resources help 
employers expedite the learning curve in developing, sharing, 
and implementing best practices and success strategies to 
attract military candidates.
    Mr. Chairman, we appreciate the opportunity to discuss the 
employers' perspective and our initiatives to improve the 
employment outcomes of veterans. We are happy to provide you 
with any additional information. Thank you.
    [The prepared statement of Ms. Jefferies appears on p. 61.]
    The Chairman. Thank you, Ms. Jefferies.
    Mr. Schmiegel.

                STATEMENT OF KEVIN M. SCHMIEGEL

    Mr. Schmiegel. Chairman Miller, Ranking Member Filner, and 
Members of the Committee, my name is Kevin Schmiegel; and I am 
the Vice President of Veterans Employment Programs at the U.S. 
Chamber of Commerce. Thank you for the opportunity to appear as 
a witness before the Committee and to speak to you about what 
the Chamber is doing to help our Nation's heroes find 
meaningful employment in the private sector.
    The reason the Chamber is focused on this issue is simple. 
Many of our members want to hire veterans. Even with high 
unemployment, we have a huge skills gap in America that is 
hindering our recovery and undermining our global 
competitiveness. Veterans can help fill that gap. They have 
leadership experience and technical expertise. They are problem 
solvers. And they are extremely reliable. Ninety percent of 
military occupations are directly transferable to jobs in the 
private sector. The Chamber's veterans programs will help raise 
awareness across the business community of this great pool of 
talented workers.
    As a veteran myself, it is an honor and privilege to be 
here. Two years ago today, I retired from the United States 
Marine Corps as a lieutenant colonel after 20 years of service. 
My own transition from the military was full of good fortune. I 
was lucky to have a mentor like former National Security 
Advisor Jim Jones. I was lucky to be at the right place at the 
right time. And I was lucky to be hired by an organization like 
the Chamber that understands and appreciates the values of 
hiring a veteran.
    Not every veteran is that lucky. Of the 12 million veterans 
in the civilian workforce last year, over 1 million of them 
were unemployed. While the jobless rate for veterans in 2010 
was comparable to the national average, there are some alarming 
trends that may result in higher unemployment for veterans in 
the near term.
    For example, the average unemployment rate for Post-9/11-
era veterans last year was 11.5 percent, and nearly 27 percent 
of veterans between the ages of 18 and 24 are currently without 
work. Members of the Guard and Reserve are experiencing 
significantly higher unemployment rates at 14 percent.
    With the potential drawdown of our Armed Forces and higher 
rates of unemployment for returning Iraq and Afghanistan 
veterans, the Chamber initiated several programs that will 
enhance private-sector job opportunities.
    In March, we started a year-long nationwide campaign called 
Hiring Our Heroes. This initiative was launched in partnership 
with Mr. Ray Jefferson, the Assistant Secretary for the 
Department of Labor VETS, and Mr. Ron Young, Executive Director 
of the Employer Support of the Guard and Reserve.
    There are four pillars to Hiring Our Heroes. While our main 
focus is on conducting 100 hiring fairs in local communities 
across America, we have also created strategic partnerships in 
three other areas to deal with specific populations of veterans 
and their unique challenges. They include wounded warriors, 
student veterans, and women veterans and military spouses.
    Our aggressive agenda focuses is on one measure of success: 
jobs for the 1 million unemployed veterans in America. In the 
post-training year, we will host 100 hiring fairs with the help 
of local Chambers of Commerce in all 50 States. The first of 
100 took place in Chicago on March 24, and it was a huge 
success, with 127 employers and 1,200 veterans and their 
spouses participating. Roughly 150 of them are likely to get 
jobs. Through this campaign we hope to connect 100,000 veterans 
and spouses with over 1,000 different employers over the next 
12 months.
    Our program for wounded warriors is tailored to meet their 
unique challenges and demands. In partnership with the USO and 
Hire Heroes USA, we are hosting quarterly transition workshops 
and career opportunity days in Fort Carson, Colorado, and Fort 
Belvoir, Virginia.
    The Chamber is working with student veterans of America on 
a jobs and internship program to help our Nation's youngest 
generation of veterans. It will be launched this month at over 
350 colleges and universities and will be available to over 
40,000 student veterans seeking internships and job 
opportunities across the 
Nation.
    Finally, we are partnering with Business and Professional 
Women's Foundation and the Department of Defense to help women 
veterans and military spouses find private-sector jobs at home 
and abroad. The goal of the program is to significantly 
decrease women veteran and military spouse unemployment by 
establishing a network of 10,000 women mentors in the business 
community by the end of 2012.
    There are four principles that are critical to success: 
First, local communities must be the cornerstone of any 
national program to reduce veterans' unemployment. Second, we 
must do a better job of coordinating public and private-sector 
efforts. Third, we must look for innovative ways to assist 
transitioning veterans. And, fourth, all programs, existing and 
new, should be measured against clear objectives and 
established metrics so we can focus on what is working and stop 
funding programs that are not producing results.
    Chairman Miller, Ranking Member Filner, and distinguished 
Members of the Committee, the Chamber is committed to helping 
veterans and their spouses find and keep good jobs. Thank you 
for this Committee's unwavering commitment and support of 
veterans and their families. I appreciate this opportunity.
    [The prepared statement of Mr. Schmiegel appears on p. 67.]
    The Chairman. Thank you very much.
    Mr. Jackson, thank you for being with us today. You are 
recognized.

                   STATEMENT OF HENRY JACKSON

    Mr. Jackson. Thank you. Chairman Miller, Ranking Member 
Filner, Members of the Committee, I am Henry Jackson, Interim 
President and Chief Executive Officer of the Society for Human 
Resource Management, or SHRM, as we are known. I thank you for 
the opportunity to address an issue of great importance to the 
human resource profession. We consider this one of our major 
focuses: easing the transition of military veterans into the 
civilian workforce.
    First, as the world's largest association dedicated to 
human resource management, our members appreciate that almost 
half of our Nation's military strength resides in the National 
Guard and Reserve. For this reason, SHRM formed a partnership 
with the Department of Defense's Employer Support of the Guard 
and Reserve (ESGR) early last year. Through this partnership, 
SHRM is linking all 600 SHRM State councils and chapters with 
their local ESGR offices. As of today, more than 300 SHRM 
chapters and 31 SHRM State councils have signed a statement of 
support for this program.
    Soon after forging our partnership with ESGR, we 
inaugurated a military hiring program as part of our 2010 
annual conference. Building on the enthusiastic response we 
received for last year's program, we are holding another 
veterans workshop at our conference next month, offering it at 
no charge to more than 12,000 H.R. professionals.
    SHRM has also developed a deeper relationship with the 
Department of Labor Veterans' Employment and Training Service, 
or VETS. The core of our work with VETS is in helping the 
agency to inform employers across the Nation about the 
resources that are available to them to hire and engage 
veterans.
    In a related effort, the White House invited SHRM to 
participate in Joining Forces, an initiative focused on the 
needs of military families. SHRM is developing resources on 
effective practices for recruiting and retaining military 
spouses, maximizing workplace flexibility, and other policies 
to support military families.
    Through these efforts we have identified opportunities to 
make these programs more effective for both the veterans and 
the employers alike.
    First, 71 percent of H.R. professionals are unaware of or 
somewhat unsatisfied with the programs to help them find and 
assimilate veterans into their workforces. Part of this problem 
may lie in the number of Federal, as well as State, programs 
devoted to veterans employment as well as the coordination of 
those programs.
    Second, it is clear that there are some misunderstandings 
about how to address the workplace needs of veterans with 
combat-related disabilities as well as the availability of 
assistance.
    Third, retention of veterans is also an issue. Last year, 
Mymilitarytransition.com surveyed veterans and H.R. managers on 
why job retention beyond 18 months is often difficult. Veterans 
cited lack of cultural fit as the leading reason, while H.R. 
managers described it as an inability to let go of the military 
way of doing things.
    Finally, many returning veterans face a unique challenge in 
translating their specialized skills into a civilian job. Last 
spring, a SHRM poll found that 60 percent of respondents said 
translating military skills was the biggest hurdle for veterans 
in the job search process.
    At SHRM, we are committed to facing these challenges head 
on to successfully bring together employers and veterans in a 
manner that truly serves our heroes as well as the business 
community. Mr. Chairman and Members of the Committee, SHRM and 
its members will continue efforts to assist employers in 
finding, recruiting, and retaining military veterans.
    As we work together to improve employment outcomes for 
transitioning servicemembers, we suggest the following to 
foster greater employment opportunities and more effective 
programs:

    First, encourage continued partnerships between the 
employer community and the relevant agencies.
    Second, clarify and educate employers about the role of the 
Federal agencies. Employers would greatly benefit from having a 
more streamlined set of resources that they can consult to find 
veteran talent, post their job openings, and find information 
about hiring veterans and other transitioning servicemembers.

    Finally, improve and increase uniformity in transition 
assistance for servicemembers. As noted in our testimony, 
guidance provided to individuals leaving the military should 
prepare them for what employers need to hire, including 
translation of military skills, interviewing techniques, and 
job search advice. Having a more uniform system understood by 
both employers and transitioning servicemembers would greatly 
benefit both.
    Thank you for this opportunity to come before you, and we 
look forward to partnering with you in achieving a smooth 
transition for every returning veteran. I welcome your 
questions.
    [The prepared statement of Mr. Jackson appears on p. 71.]
    The Chairman. Thank you very much, Mr. Jackson.
    Thanks to each of you for your testimony.
    I think we have heard a common thread among a lot of what 
you have had to say. There are a lot of programs out there and 
a lot of information out there, a lot of ways that people can 
get to it, but nobody knows it is there. How do we do it? We 
already have the programs in place. The Web sites are out 
there. VA has it. SHRM has it.
    Who wants to start? I would be glad to hear from any one of 
you on a simple way to fix the problem.
    Mr. Jackson. I will take that, simply because SHRM, as a 
human resource association, sort of takes this on as one of our 
responsibilities.
    I truly believe that education is what is sorely lacking. 
When we go to our members--we surveyed our members last year--
53 percent of our members indicated that they were actually 
attempting to hire veterans but were not sure about how to go 
about it, how to target veterans.
    We believe that through the programs with the Department of 
Labor VETS that we are developing a toolkit for veterans and 
employers that we hope to roll out sometime before the end of 
the year in conjunction with the Department of Labor. We 
believe that our members are truly committed to this cause. It 
is a matter of giving them a succinct place to go to identify 
how to address this issue.
    Mr. Hobbie. Mr. Chairman, I agree that partnerships with 
employers and Federal and State and local agencies is extremely 
important. Of course, we have made great progress on that the 
last 4 years with our partnership with DirectEmployers 
Association, and we continue to make progress.
    Ms. Jefferies. I can just say I kicked off--we did a 
DirectEmployers Association hiring and retaining veterans 
Webinar education series, and it has been keeping me incredibly 
busy. There is definitely a strong interest in this.
    To Mr. Jackson's point, there is a lot of turnover in these 
human resource departments, and it does require continuous 
education and communication. And we just can't stop that 
effort. It has to be an ongoing initiative.
    And so, in that spirit, we are providing this education 
series, recording it, and it is open to the public, does not 
cost anything. We have had State workforce agencies, DVOPs, 
LVERs, the VA, the OFCCP, employers, all demanding this 
training. And so there is a huge need for that.
    The Chairman. Finally, Mr. Schmiegel.
    Mr. Schmiegel. Thank you, sir.
    I would like to make two points. The first point, which is 
one of the principles we talked about, is that the effort has 
to be focused on the local community.
    In my last assignment as a Marine, I was the head of 
enlisted assignment monitors. I managed 60 human resource 
specialists in the Marine Corps that assigned 170,000 Marines 
worldwide. One of our other primary responsibilities was to 
retain Marines. We only retain about one out of every four 
first-term Marines. So when we were doing our interviews to 
talk to those Marines about their decision to leave, we often 
asked them what they were going to do next. They never talked 
about what they were going to do next. They always talked about 
where they were going. The fact is veterans and their families 
are returning to local communities every day.
    So the second point, which talks to the local community, is 
efforts have to be better coordinated between the public and 
private sector in those local communities. Our approach is 
simple. We are going to do 100 events, 100 hiring fairs in 
those local communities, using the local Chambers of Commerce 
and the relationships that we have formed nationally with the 
Department of Labor VETS and with the Employer Support of the 
Guard and Reserve. And Ray Jefferson's State Directors and Ron 
Young's team of State Directors in the Guard and Reserve are 
going to get together in those local communities and execute 
events. If we focus on local communities and we better 
coordinate public and private-sector efforts, we will be more 
successful.
    The Chairman. I salute the Chamber on the 100 job fairs 
that you are talking about holding, but I think you just hit on 
part of your problem. If they are all returning to their home 
communities, you have tens of thousands of communities, which 
we need to be penetrating and be able to communicate with them. 
So how do we solve that problem? They all want to go home. I 
certainly understand that. We have small cities of several 
thousands to large cities of millions.
    Mr. Schmiegel. I think there has to be several different 
models, several different approaches to this. So we conducted 
what Ray and I refer to as mega hiring fairs in cities like 
Chicago, in cities like New York, in cities like Los Angeles. 
That model may have over 100, 150 employers and a couple 
thousand veterans and their spouses attend. We generally have 
high-level speakers. We have transitional workshops to offer in 
conjunction with that.
    When we go to small areas--we will be in Great Falls, 
Montana, on August 13--the model is different. You have to 
focus on fewer number of employees, and you have to also take 
into account that neighboring States from Montana may have 
significantly lower rates of unemployment than Great Falls. So 
you may ask a big employer like Halliburton, who has a 
significant number of jobs in the eastern portion of the State 
and in the neighboring State, to offer jobs to veterans and 
their families to relocate either in Montana or to a 
neighboring State.
    So I think the answer to the question is the model is 
different. You have to start somewhere. A hundred is a very 
aggressive number. The U.S. Chamber of Commerce has over 1,700 
local Chambers of Commerce affiliated with us. Next year, if 
this campaign is successful, we hope that the 100 becomes 500; 
and the year after that we hope the 500 becomes 1,000.
    Thank you.
    The Chairman. Thank you.
    Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    I thank you all for your testimony and for your efforts.
    This is, obviously, a Congressional hearing and we have 
oversight of the VA. I haven't heard any suggestions on what we 
ought to be doing or what the VA ought to be doing. It looks 
like the only guy doing anything in government is Mr. Jefferson 
over here, from the testimony. I know you have false modesty.
    What are we all doing here? This ought to be a top priority 
for everybody. I can imagine--and you guys are the experts--but 
if I just thought about it for a few seconds I could think of 
what the VA could be doing.
    Why isn't every regional office, for example, putting out a 
list of veterans and their specialties and what jobs they are 
seeking? You guys all said that we have trouble linking up with 
the veterans. Well, the VA knows every veteran. Let's just put 
out a list of everybody who is looking for a job. It just 
doesn't seem difficult.
    We hear about the transition of skills in the military and 
how they are hard to translate. We could deem anybody who is in 
electronics or a medic or a truck driver and give them a 
certificate that says, for the purposes of hiring, this serves 
as qualifications for entry-level employment. People can then 
be trained further.
    These servicemembers have incredible skills. We have been 
working on this civilian certification for decades. Nobody can 
seem to solve it. We have guys driving trucks all over Iraq and 
Afghanistan. They come home and find out they have to take a 6-
month course to get a commercial driver's license. What do they 
need that for? They get discouraged because they know how to do 
it. They do it under the most difficult conditions you can 
imagine. Let them have a certificate that starts with a job. 
The same idea for our electronics people or medics.
    I have watched these medics. They do things that no 
civilian would ever think of doing, and yet they have to go 
through some other certification, masters program and go to 
this college or that college. They have the training. We could 
just do it.
    I would like you to give us some suggestions either in law, 
or regulation, or Executive Order, that we can help you do the 
kind of things you are doing every day. You are out there. We 
ought to be helping you in every way we can. The VA's job is to 
do that. Give us one thing we can do, if each of you could do 
that?
    Ms. Jefferies. I think, for starters, what would really 
help employers--and we don't need a list of names necessarily--
but even just a simple heat map, for instance, that shows what 
the talent pools of the veterans are, what their skills are, 
and where in terms of geography where can we find certain 
veterans with specific skills. That way we can at least hone 
down our recruiting strategy.
    Mr. Filner. Done. Let's do it.
    Anybody from the VA here? Where is Ms. Fanning?
    Heat map? Whatever a heat map is, let's do it. I can 
imagine what it is, but I am sure it is easy.
    Mr. Jackson. I would just like to follow on what Mr. 
Schmiegel said, is that it is getting into the individual 
communities. Although we have just started this project last 
March, we have 600 chapters around the country. We are in small 
towns, big towns. We are in towns where the veterans are going 
back to. But what we are trying to do is make sure that we 
connect all of the agencies, including the Labor Department, 
including the Veterans Department, with the individuals. And 
our members are the individuals that actually do the hiring.
    Mr. Filner. Mr. Jackson, I understand what you are saying. 
You gave us three very general ideas. Give me something 
specific to do. You are talking about connections but what do 
you need the VA to do, or DoL to do, or this Committee to do, 
to provide you with that? Do you want a list of names of people 
coming back to those communities? If so, let's just do it. Give 
us something that apparently all our bureaucrats, hundreds of 
thousands of them, aren't thinking of. Because this stuff isn't 
difficult. We have all the information and resources as a VA to 
do this. Just give us something specific.
    Mr. Jackson. I think the one specific thing that I think we 
are working on that I think will make a difference is bringing 
the agencies together and having a single portal for people to 
go through. Right now, it is up to an organization like SHRM to 
go to DoL, to go to VA, to go to ESGR. If we had some single 
point of contact--I think that is the biggest frustration with 
our members, is they do not have that single point of contact 
to go to. I think that would address 50 percent of it.
    Mr. Filner. Mr. Jefferson is going to turn around to Ms. 
Fanning, and we are going to do that tomorrow.
    See, we got it done.
    The Chairman. Mr. Schmiegel, real quickly.
    Mr. Schmiegel. Firstly, I think we are doing it already. I 
think if you look at this initiative to do the hundred hiring 
fairs--it is in its nascent stages--we will see progress over 
time.
    If you could help in one area, it would be to measure. I 
don't think we do a very good job of measuring whether or not 
the programs are working. I think we need to look--the Chamber 
is trying to do this, and it is extremely frustrating. After 
the hiring fair for Chicago, we set up a survey for employers 
and veterans, and you get a 20 percent reply rate. So if there 
is a way for the government to figure out how to measure 
whether or not the programs that we have in place are working, 
i.e., when a veteran is placed we know that it was the result 
of a specific program, that would be of the greatest benefit. 
And that is how we will make a difference.
    Mr. Filner. Thank you very much.
    Mr. Hobbie. Mr. Filner, one of the suggestions we have is 
to focus on the veterans that have recently left the military 
and are claiming unemployment compensation for ex-
servicemembers. If we made a greater attempt to translate their 
military occupations into civilian occupations and then 
assessed their skills and determined whether they needed some 
additional training or certification, which the system could 
provide to them so that they can move from unemployment into a 
suitable job faster than they might otherwise, we think that 
would have a significant impact.
    Now it is a small portion of the total program. We only 
have about 36,000 veterans on unemployment compensation for ex-
servicemembers now. But it could have a significant impact for 
those individuals.
    Mr. Filner. Thank you.
    The Chairman. Dr. Benishek.
    Mr. Benishek. Thank you, Mr. Chairman and Mr. Filner. I 
thank the panel.
    It seems interesting here to hear statements. Mr. Schmiegel 
said like 90 percent of military jobs are directly transferable 
to jobs in the private sector. Mr. Jackson didn't quite agree 
with that. There are some questions about how your military 
experience is translatable into a civilian job. That is 
something I noticed here in the testimony.
    The other thing I noticed is there seems to be a lack of a 
clearinghouse of veterans that are available for jobs. It seems 
to me to be something that the VA could provide, as Mr. Filner 
has suggested. Do you have any advice as to how we might do 
that or how that might work, Ms. Jefferies?
    Ms. Jefferies. Yes. We have an MOC translator with the 
.Jobs network that I mentioned as well as with the National 
Labor Exchange site so that a candidate, a military job seeker, 
can type in their MOC and it renders back matches to civilian 
occupations. So it does do that work.
    What we see, though, when we are reviewing resumes is the 
military candidates themselves are not doing a good job 
presenting their own skills and credentials. There is a big, 
big issue with this issue of accreditation and licenses. And 
that is an education issue in each of these States where there 
is variances in what qualifies an EMT to have a State license 
in State A versus State B. So there is inconsistencies across 
the States.
    So if we could at least have a consistent standard of a 
military occupation and apply that to all the States, a huge 
problem would be solved where we have that consistent standard 
for, say, the top 10 occupations, top 25 occupations. And that 
would be a really big start for employers in just cutting 
through that barrier, and it would get these veterans back to 
work much more quickly because they wouldn't be required to go 
get reeducated in some areas that they already know very well.
    Mr. Benishek. Well, it does seem surprising that the VA 
doesn't offer some sort of Web site to go to for veterans as 
sort of a clearinghouse so job seekers and potential employers 
could go to at least get acquainted on the Internet.
    Ms. Jefferies. There are several Web sites. You have 
VetSuccess, which primarily focuses through the VR&E, the 
vocational and rehabilitation needs of disabled veterans. And 
that is a very good service.
    And then you have services with all the States, for 
example.
    And to Mr. Schmiegel's point, doing this at the local level 
is really important because that is where the rubber hits the 
road. That is where the H.R. person is meeting with that 
candidate, is in that local area. So it is very important to 
establish partnerships locally, even when you have Web sites. 
Web sites are just one component of a recruiting strategy, but 
at some point you need that personal contact, and that comes 
through developing partnerships at the local level.
    Mr. Benishek. I agree. I applaud the Chamber's effort. It 
seems like you are really doing something. But to try to 
coordinate what you are doing with the population as a whole, 
it seems maybe that is something that the VA could do better.
    Is there any other advice you might want to give to me 
here?
    Ms. Jefferies. I do think those job fairs are especially 
helpful. But, again, it is touching just a fraction of the 
communities out there. So if you are hiring in Rawlins, 
Wyoming, in the middle of Timbuktu, some of that is not going 
to reach those pockets where a lot of employment happens in 
smaller communities.
    And so, again, that is one of the reasons why we have 
implemented veteran outreach education program for employers to 
bring them to those sources. There are some 8,000 Web sites 
alone that are used for veterans employment, and it is 
overwhelming for employers to sort through all of that. And so 
we are trying to provide resources to kind of cut through that 
and save them that research time. And that includes the NVTI 
directory of DVOPs and LVERs. It includes the VA directory of 
the regional managers, those kind of information.
    Because to sit down and do a Google search, you get 
overwhelmed; and right away it is just daunting to try to 
figure that out on your own. So I think the education and 
communication and training of employers is especially critical 
and would definitely be very helpful.
    Mr. Benishek. Mr. Schmiegel, did you have a comment?
    Mr. Schmiegel. I would just like to add, I think as someone 
who separated from the military 2 years ago and saw the vast 
resources that were out there in the public and private sector 
for veterans, I think it is a little bit confusing for them. 
There are hundreds and hundreds of programs. So I am a huge 
advocate of a single national portal that the public sector is 
working on right now.
    If you ask me as a veteran leaving the service if you could 
do one thing, it would be to cut down on duplicative efforts, 
to cut down on conflicting efforts, and to make things less 
confusing for veterans and their families. So the notion of a 
single national portal that all veterans and families can go to 
look for jobs, to look at what is going on in local communities 
to see what they have to do when they are reassimilating into 
their hometowns after service, that makes the greatest sense.
    We also have to focus on the issue of retention. I think 
that Mr. Jackson's comments were spot on. But the only way to 
keep veterans is for the business community to have more 
internship opportunities and more mentoring opportunities. So 
we have to build that network. Because, again--and it is not 
because I am a product of the military myself--it isn't a 
function of the inability of the servicemember to let go of the 
military way of doing things. It is clearly the lack of 
cultural fit that is affecting their transition. So the 
government and the private sector need to work together to 
improve internships, to improve apprenticeships, and to improve 
our mentoring network in the business community.
    Mr. Benishek. Yes, sir.
    Mr. Hobbie. I would just like to add that States are also 
innovating in this area. And the Chairman's own State of 
Florida, for example, implemented a veterans portal similar to 
what you are suggesting. I know the Federal Government is 
working on that, too. So there is a good example at the State 
level.
    And, in addition, the State of Texas has a College Credit 
for Heroes program which helps individuals who have left the 
military gain some credit for their military training and 
experience at the college level.
    Mr. Benishek. Thank you, gentlemen.
    I yield back.
    The Chairman. Thank you, Doctor.
    Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman, Mr. Ranking 
Member, for having this hearing. I just have a few questions.
    I listened to some of the answers. I think everyone pretty 
much agrees that you have to have a central focus. With all the 
different training programs out there, it is extremely 
difficult, number one.
    Number two, I think part of the problem, whether it is the 
Department of Labor VETS program, or the One-Stop Career 
Centers, they have been inadequately funded and the staff is 
not there to actually help out the veterans that need their 
jobs. So there is that issue that is problematic. Then it 
becomes a problem.
    If you look at our servicemembers, I heard several 
discussions about large metropolitan areas doing these 
programs. However, 40 percent of the servicemembers coming back 
live in rural areas; and there is no way I can see where, 
regardless of what effort might be out there, for the Chamber 
to get the Chambers to focus in real rural areas. It is just 
not going to happen.
    So the question is: How are you going to be able to do 
this? I am just wondering, for any of the panels, have you 
focused on--and I will give you an example. For instance, when 
they closed the mills down in my hometown, both Senator Snowe 
and I knew the big issue was going to be health care. We also 
knew the drug companies offer different programs for either 
low- or no-cost prescription drugs. What we didn't know is 
there are over 375 different programs. You have to fill out 
about 14 pages of paperwork. And if you are unemployed, you are 
not going to do it. I see the same problem with veterans.
    However, we were able to get them to actually narrow that 
down to four questions that they would answer and then that 
would actually let them know what was available as far as 
prescription drugs.
    And I don't see where this is any different, when you look 
at trying to find a program, if you can actually have a program 
that is very simplistic for them to answer that actually might 
pair them up--I would like to have you comment on that.
    The second issue I would like to have you comment on is, if 
you look at one of the problems with soldiers leaving the 
military, whether it is active duty or National Guard or 
Reserves, they are anxious to get home and they are not going 
to take time to look at a lot of different issues. Do you think 
it actually might be wise for the Department of Defense 
actually in preparing them while they are still in service to 
fill out these questionnaires as far as jobs so at least they 
will be able to have that ready so when they leave service they 
will actually have opportunities?
    Because once they leave, they are going to get into other 
issues, whether it is back in the community, whether it is 
family problems, or what have you. So I think the time to 
really focus on the bulk of it is while they are currently in 
the military.
    So I don't know if anyone wants to comment on those two 
different areas.
    Mr. Jackson. I would say that you have to have both. Our 
experience has been that it can't be a single contact, it can't 
be a 30-day contact, it has to be an ongoing contact with the 
veterans and with the Veterans Affairs and with the vets. And 
part of our program is to set up a facility for Veterans 
Affairs or the VETS program to have constant contact with the 
individuals, the 600 chapters that we have across the Nation in 
the U.S.
    The challenge I still think is that, and with my 
colleague's comments, is that there has to be some guidance, 
some more guidance. And I think a single toolkit, which is what 
we are working on, a single toolkit to say--to essentially say 
these are the options that you have, this is the information 
you need, we think that is a first step. We think the bigger 
step is for the private sector and the government to come 
together and have that single toolkit. But, right now, we 
believe that, as SHRM, we are going to develop that single 
toolkit for the individuals.
    Mr. Hobbie. The State workforce agencies are working 
closely with the Department of Labor on this particular issue 
in the area of attempting to help re-employ unemployment 
insurance claimants in particular. It is called the 
Connectivity Project, and one of the aspects of that project is 
to create an integrated application system that would be 
available on the Internet so that when an individual applies 
for programs the information would be entered once and then 
could be used for these other programs that might be available 
to the individual. Also in that effort are concerted attempts 
to try to assess the skills of the personnel leaving the 
military and to try to match them with jobs. And, also, we are 
looking at the various social media to try to facilitate 
communication among job seekers and also employers.
    Ms. Jefferies. The Marines is the only service branch that 
requires TAP, and I think that if all of the branches could 
require that at a minimum at least veterans transitioning out 
of the military would be aware of the employment services 
offered through the public workforce system and would have a 
better opportunity in establishing these linkages and learning 
what their local employment office can do to help them.
    The other thing is that employers more and more utilize the 
Just-in-Time Hiring process. When I was human resources 
director of employment for Union Pacific we often had 
candidates contact us ahead of time and apply for jobs as they 
were transitioning out. They are coached through TAP to do that 
about 3 to 6 months before they actually completed their 
service. And what we ran into were conflicts that we wanted to 
offer them a job but we needed them to start now, and so that 
they almost started too early in the process.
    So there is some education that is required with the 
veterans and job seekers coming out of the military regarding 
how employers hire and the fact that when we make that job 
offer it is immediate. And so we implemented a program that was 
a delayed entry program and extended job offers further out. 
But that is not always easy for employers to manage, either. 
But I really think that that education on the front end is very 
critical, and it is all about the timing.
    Mr. Schmiegel. Can I just add one comment?
    I think you have to look at this in phases. I think the 
whole notion of hiring fairs in every community across America 
is not realistic. I understand that. But, again, I think in 
order to create a movement across the United States that you 
have to start with something.
    When Ray Jefferson and I first started talking about this, 
we broke it down into phases. This is a high-touch approach. 
But as the high-tech approach comes online and you have a 
portal, the high touch does not go away. You still have to 
welcome veterans and their families home.
    So if you look at this in phases and you focus on creating 
this national portal, you continue to create this movement 
across America with these hiring fairs in local communities, I 
think you will have the infrastructure in place, you will also 
have the spirit and the momentum in place to really make a 
difference in this space.
    In regards to reaching out to rural areas, there is a focus 
on rural areas. It is just that when you look at 100 cities, 
you want to have the biggest impact in the first year so you 
can show other communities that you are having that impact.
    In Iowa, there are 3,200 Guard and Reservists coming back 
in September. We have nine local chambers of commerce in nine 
separate cities in Iowa ready to do hiring fairs a month after 
those Guard and Reservists get back. That is how you create a 
movement Statewide. And those are all rural cities right in the 
heart of 
America.
    Thanks.
    The Chairman. Thank you.
    Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman. I appreciate the 
comments and the folks appearing here before the Committee.
    I have a follow-up question for Mr. Schmiegel, if I might.
    You had mentioned the single national portal. Can you 
describe that in a little more detail what you are envisioning 
and where it is at in the process? Is that something being put 
in place now? If you could describe it a little further, I 
would appreciate it.
    Mr. Schmiegel. This is a public-sector initiative for all 
the government agencies. They are working together to create a 
national portal for veterans and their families to use as they 
are transitioning from the military to civilian workforce.
    Mr. Huelskamp. Any other folks here, can they describe that 
a little bit more?
    Mr. Jackson. We are participating in the development effort 
of that portal. And, again, it is mainly to have a one-stop 
shop for veterans and employers to come. And although every 
answer may not be at that portal, there will be links to other 
sites. For instance, there may be a job posting site at SHRM 
that links off of that portal that will help veterans find jobs 
as well as employers find veterans.
    Mr. Huelskamp. Mr. Schmiegel, you think this works for the 
employers as well as--I mean, we have talked a lot about, 
obviously, the potential employer-employees. My question is on 
the employer side. And you think this works in that the 
employers actually would use this particular system in a manner 
that would be helpful to them?
    Mr. Schmiegel. I have talked to several big companies in 
America. I think that Ray has also spoken to several big 
employers that are waiting for the portal to come online and 
they would use it.
    I mean, right now we have band-aid fixes throughout the 
private sector to do this. You have private-sector companies 
that do this. The private sector will continue to adapt and 
continue to come up with its own means to hire veterans. The 
fact is, if you talk to employers across the country, they want 
to hire veterans. So I think a national portal will be widely 
used by small business, by medium-size business and by big 
business.
    Mr. Huelskamp. I appreciate that.
    In visiting with employers in my district they have never 
mentioned a portal. What they have mentioned is we would like 
to hire more veterans; we would like to hire more folks. If we 
could actually just improve the job climate, it would solve a 
lot of our problems. And I am sure you hear that at Chamber.
    Would you have three top things you all would suggest 
broadly so we could just improve the job climate so there are 
actually jobs out there for veterans to apply for.
    Mr. Schmiegel. I think a reasonable tax structure would be 
one thing that needs to be addressed. I think the regulatory 
environment in terms of businesses being able to hire in an 
environment where it makes sense to hire. And then there is an 
overriding issue of uncertainty.
    So if you look at taxes and regulations, if business 
owners, small, medium, and large, have certainty in those two 
main areas, they will start to hire.
    Mr. Huelskamp. Thank you. I yield back the balance of my 
time, Mr. Chairman.
    The Chairman. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    We all want the same thing here. We want to figure out how 
to hook up the veterans that are out there with the jobs that 
are out there.
    Ms. Jefferies, I would like to ask you a little bit more on 
the other side of this, rather than encouraging all these 
agencies and all these contractors, have there been any 
penalties assessed lately against contractors that have not met 
Federal regulations in terms of hiring veterans?
    Ms. Jefferies. In our survey that we did, there were a 
handful of companies that did report they are under some 
conciliation agreements to improve the hiring of veterans in 
their organizations. So, yes, there have been some cases where 
employers could do a better job.
    And at the end of the day it boils down to those H.R. 
people being so new they are just not aware of many of the 
programs that exist and how to go about doing this. And so, 
again, this education is, to me, a number one priority. And 
employers are hungry for it. And I think if we can just keep in 
mind that companies have a lot of turnover, we can't just go 
once and be done, it is a constant effort that needs to be a 
constant initiative that will never, ever be done.
    Mr. McNerney. But, I mean, as long as they just get their 
little wrists slapped they are going to say, well, we will get 
to it when we get to it. If there are assessments made, then 
they will be more likely to think about that as a priority.
    Ms. Jefferies. Absolutely. I mean, when you are audited by 
the OFCCP that is always a very challenging process to get 
through. But if you end up with a conciliation agreement, that 
can be serious. And so if they want to maintain their Federal 
contracts they will respond to that. And I still say at the end 
of the day it all ties back to communication and education.
    Mr. McNerney. Thank you.
    Mr. Hobbie, one of the things you said kind of struck me in 
your testimony, is that there is one-half the funding for local 
and State employment agencies as there was 30 years ago, I 
think you said.
    Mr. Hobbie. Right.
    Mr. McNerney. What is the source of that funding that has 
been diminished by 50 percent?
    Mr. Hobbie. The source for appropriations for Wagner-Peyser 
Act labor exchange services is the Federal unemployment tax 
paid by employers into the Federal-State unemployment insurance 

system.
    Mr. McNerney. So what you are saying then is there is a 50 
percent reduction in Federal contribution to these agencies 
that could make a difference in terms of hiring veterans?
    Mr. Hobbie. That is right.
    Mr. McNerney. Okay. All right. Thank you.
    Mr. Schmiegel--and I am going to follow up on a comment 
from Mr. Benishek--you said that there were 90 percent skills 
that are transferrable from veterans to civilian employees. In 
an ideal world where the veterans had qualifications and the 
employers knew what those qualifications meant and so on, do 
you think that we could employ 90 percent? Could you explain 
that number a little bit better?
    Mr. Schmiegel. I don't think we could employ 90 percent. 
Maybe that is a little bit misleading, that figure, because 
some occupational specialties in the military have huge 
numbers.
    So let's just take infantrymen. Some would argue that that 
is not a skill set that is directly transferrable to the 
civilian workforce. If you look at the Army and the Marine 
Corps, there are a large number of infantrymen serving. So that 
90 percent does not directly translate into 90 percent of 
veterans being able to transition into the workforce.
    I think you need programs to help other occupational 
specialties in the military transfer to the civilian workforce. 
I mean, we are firm proponents of that. You can easily do that 
with better certification and licensing. You can do that with 
apprenticeship programs. You can do that with mentoring.
    I think some of these young men and women that don't have 
occupations in the military that are directly transferrable are 
good leaders and can easily transfer to the civilian workforce.
    Mr. McNerney. Does the VA have a Web site that veterans can 
go to and put their resumes on that are accessible? That sounds 
like something that is easy--would be easy to implement in the 
VA.
    Okay, I guess that is all I have, and I am just about out 
of time. I yield back.
    The Chairman. I think one of the things we probably also 
need to--while we are focusing on trying to make sure that 
whatever skill set that they have while they are in the 
military is important to bring it forward, but the other thing 
that we need to focus on as well is I was speaking with a home 
builder the other day. He said, I can teach somebody to frame a 
house, I can teach somebody to put a roof on, but these men and 
women that are coming out of the service have skill sets that 
other people don't have, honesty, integrity, the ability to get 
up and work many, many hours at a time. So let's not lose that 
focus as well.
    Mr. Schmiegel.
    Mr. Schmiegel. Just a little anecdote for that. When we 
were in Chicago the day of the hiring fair, a small local 
builder hired six veterans on the spot because he has seen that 
in practice. It is as simple as that.
    The Chairman. Mr. Barrow.
    Now Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    And, Mr. Schmiegel, I understand before I was able to 
arrive you spoke about the Iowa National Guard, specifically 
the fact that 3,200 of them will be demobilizing soon and that 
that will create an enormous challenge in our State, given the 
size of our State and the fact that, even though we have been 
fortunate our unemployment rate State-wide has been below the 
national average, it is still a tight job market.
    When 60 Minutes featured Medal of Honor winner Sal Giunta 
Sunday night from Hiawatha, Iowa, you know, somebody like that 
has the type of notoriety that he is probably going to have a 
lot of potential job offers. But the sad reality for the 3,200 
members of the Iowa National Guard is they went, they did their 
job, and now they are coming home to a dramatically different 
workplace environment than when they left a year ago.
    One of the frustrating challenges often in dealing with the 
Guard and Reserve is they don't have some of the same 
institutional support that you get when you are on active-duty 
service and there are a lot of base-related assistance 
available to you. They go off into their home communities. Many 
of them are from smaller towns in rural areas, and the 
availability of assistance close at hand isn't what it is in a 
larger urban area.
    So could you just talk a little bit about what the game 
plan is at these different--I can't remember what specifically 
you describe them as--these nine centers that are going to be 
set up and how that is going to work.
    Mr. Schmiegel. Yes, sir. One of the strengths of the 
program that the Chamber is implementing is, again, at the 
local community level. Local Chambers of Commerce generally 
don't have big companies as members. They have small companies. 
So the strength of a program in Iowa specifically that we 
address in those nine communities, the local Chambers of 
Commerce will reach out to their individual business 
communities and ask them to support this demobilization.
    We are working with the employer support of the Guard and 
Reserve who also has a network of employers, medium--mostly 
medium and large businesses.
    So, again, if you look at the Chamber as a private-sector 
organization and the businesses affiliated with us, the 3 
million across America through our local chambers, and you look 
at the employer support of the Guard and Reserve and our access 
to National Guard and Reserve units, we can easily look at the 
Yellow Ribbon events that they have going on throughout the 
country in small communities across America and coordinate our 
efforts. It is as simple as that.
    If you have a unit coming back in September, you plan for a 
hiring fair with the local Chamber of Commerce in October or 
November. I guarantee you if you go back to some local 
communities, some cities across the country, you will see 
hiring fairs right now or events in August and you have a Guard 
and Reserve unit coming back in September.
    So the very essence of coordinating is looking at when you 
have those folks coming back and trying to do something that 
will help them find employment a month or two after they do get 
back.
    Mr. Braley. One of the big challenges and frustrations is 
the obstacles that the DoD sometimes presents in terms of 
making sure that these demobilizing soldiers are getting the 
type of benefits that they are entitled to under the GI Bill. 
We ran into this when the Iowa Guard came home from Iraq after 
the longest combat deployment of any unit several years ago and 
were denied additional GI Bill benefits, which many of them use 
in order to increase their employability by getting further 
education or job skills.
    So I would just encourage you to take that message back to 
the Chamber and encourage them to maintain open lines of 
communication at the DoD. Even though it is not directly 
related to what you are talking about, it can sometimes serve 
as an impediment to young people trying to restart their 
careers when they come home.
    But I do want to thank you for the Chamber's efforts, and I 
yield back.
    The Chairman. Mr. Filner.
    Mr. Filner. Just briefly.
    We have talked a lot about connections and communicating 
information. How about incentives? Have the tax credits worked? 
What if we paid a year's salary or 5 years' salary for 
businesses that hire veterans? We bailed out everybody in the 
country. Why don't we bail out our veterans? We talk about 
trying to hook up the veterans with employers. What if an 
employer knew that the salary was going to be paid? They would 
seek out the veterans. What is your sense of if that will work?
    Mr. Hobbie. Well, I am not an expert on the research 
evidence. But what I am aware of on employment tax credits is 
that they are not particularly effective. However, such 
programs, not only tax expenditures or tax credits or direct 
spending to subsidize employment, can work better if the 
programs are targeted on those who are unlikely to find jobs 
otherwise. Now, that is easy to say and hard to do.
    Mr. Filner. So like the 18- to 24-year-olds who came out of 
special--like infantry, you could target those, right?
    Mr. Hobbie. Correct.
    Mr. Filner. Any other comment?
    Yes, sir.
    Mr. Schmiegel. I think that if the tax credits are focused 
on skills training for individuals, I think it will be much 
more successful. And I think it goes to Ms. Jefferies' points 
about educating employers.
    I think if you look at what we are trying to do with the 
Chamber, with DoL VETS, with ESGR, part of this is education. 
So we are working on, prior to the hiring fairs, to talk to 
employers about why it makes sense for their business to hire a 
veteran.
    I think you need to go one step further and really have an 
education campaign for employers on the tax credits that are 
out there. But, again, they must be targeted, and I think they 
should be focused on individuals that may be lacking specific 
skill sets to make the transition to the civilian workforce.
    Mr. Jackson. And I would agree that tax credits would add 
some incentive. But I would caution that what is available now 
is not being used because people just are not aware of many of 
the benefits that are available for engaging in hiring 
veterans. So I think a tax credit would require an information 
project along with it to make sure that everyone is aware of it 
as well.
    The Chairman. Thank you very much for your comments today.
    If any other Members have comments, they can submit them 
for the record.
    I also ask unanimous consent that all Members would have 5 
legislative days to revise and extend their remarks.
    Thank you very much for being here.
    And while they are leaving the table I would ask the second 
panel to come forward.
    The panel consists of Mr. George Ondick, the Executive 
Director of AMVETS for the Department of Ohio; followed by 
Captain Marshall Hanson, the Director of Legislative and 
Military Policy at the Reserve Officers Association (ROA); and, 
finally, Ms. Heather Ansley, the Co-Chair, Veterans Task Force 
of the Consortium for Citizens with Disabilities (CCD).
    Thank you all for being here, and we will begin with Mr. 
Ondick. You are recognized.

STATEMENTS OF GEORGE ONDICK, EXECUTIVE DIRECTOR, DEPARTMENT OF 
OHIO, AMERICAN VETERANS (AMVETS); CAPTAIN MARSHALL HANSON, USNR 
  (RET.), DIRECTOR, LEGISLATIVE AND MILITARY POLICY, RESERVE 
 OFFICERS ASSOCIATION OF THE UNITED STATES, AND ALSO ON BEHALF 
 OF RESERVE ENLISTED ASSOCIATION; AND HEATHER L. ANSLEY, ESQ., 
  MSW, CO-CHAIR, VETERANS TASK FORCE, CONSORTIUM FOR CITIZENS 
                       WITH DISABILITIES

                   STATEMENT OF GEORGE ONDICK

    Mr. Ondick. Chairman Miller, Ranking Member Filner, and 
distinguished Members of the Committee, on behalf of the AMVETS 
Department of Ohio I would like to thank you for inviting me 
here today to share with you our views and recommendations 
regarding employment within the veterans community.
    AMVETS was founded in order to enhance and safeguard the 
entitlements of all American veterans who have served 
honorably, as well as to improve their quality of life and that 
of their families and the communities in which they live in. We 
do this through leadership, advocacy, and service.
    Today, I will be discussing one of the services AMVETS has 
to offer, the AMVETS Career Center. The first AMVETS Career 
Center opened in 2000, and subsequently in 2003 AMVETS Career 
Centers became an IRS-approved 501(c)(3) nonprofit charitable 
corporation incorporated in Ohio to provide career training 
employment-related services to Ohio's veterans.
    AMVETS Career Center was initially funded by a $100,000 
grant from the State of Ohio. The grant was used to establish 
the first AMVETS Career Center at Department of Ohio AMVETS 
headquarters in Columbus. Further funding for the Ohio AMVETS 
Career Center has been provided through the sale of Charitable 
Instant Bingo. These tickets under State law requires that a 
portion of the sales be donated to a 501(c)(3) organization, 
and in this instance the AMVETS Career Center. So far, we have 
been self-sustaining and have not yet received any Federal 
funding to run our program.
    The initial concept for the AMVETS Career Center was to 
provide training and assistance to returning veterans as they 
applied for their license and/or certification for the training 
that they had received in the military. We soon discovered that 
our veterans also needed stopgap training, resume development, 
interviewing skills, basic computer skills, and assistance in 
other vital areas of the overall employment process.
    Moreover, the AMVETS Career Center originally provided this 
training through the use of CD-based programs which quickly 
proved to be cumbersome and inefficient. We then entered into 
an agreement with Mindleaders, then the largest provider of 
online courses in the United States, to provide AMVETS Career 
Center with the necessary courses to assist our veterans. The 
AMVETS Career Center paid Mindleaders for their online service 
platform, thus resulting in our veterans having offsite 
Internet access to their desired courses through a Web-based 
log-in and password to receive their desired course of study.
    Currently, the veterans utilizing the AMVETS Career Center 
have access to over 300 online Mindleaders courses. Once 
registered, students may study at a local career center or any 
other place that broadband Internet service is available, 
including the comfort of their own homes. Veterans pay no out-
of-pocket expense for the courses we offer, since the AMVETS 
Career Centers feel 
that the veteran has already paid the price in service to his co
untry.
    The AMVETS Career Center not only provides career services 
to veterans but also provides free services to the spouses and 
children of military personnel who are deployed outside of 
Ohio.
    We also recognize a very high unemployment rate among the 
National Guard and Reserve. So, in response, the AMVETS Career 
Center chose to initiate the Ohio Veterans Career Assistance 
Network, or Vets CAN.
    The Ohio Vets CAN is a partnership between the AMVETS 
Department of Ohio and the Ohio National Guard. Ohio Vets CAN 
was created as an online jobs bank where veterans and members 
of the National Guard and Reserve can link up with employers 
who value and support military service to America.
    The average cost to the State of Ohio to provide similar 
services through the DoL grant is about $1,500 per veteran. 
This is a sharp contrast to the cost of services AMVETS Career 
Centers can deliver for only $250. We believe this is due to 
the broad network of volunteers and the partnership and 
resources uniquely available to the veteran service community.
    And although we have been successful, we do not advertise 
our program. If we did, our current funding stream would end 
very quickly. It would be depleted.
    With all of the recent discussion of fiscal responsibility 
and the large success rate of our participating veterans, the 
AMVETS Career Center just makes sense.
    Chairman Miller, distinguished Members of the Committee, 
this concludes my testimony. I would like to again thank you 
for inviting me to participate in this very important hearing, 
and I stand ready to answer any questions you may have. Thank 
you.
    [The prepared statement of Mr. Ondick appears on p. 76.]
    The Chairman. Thank you, Mr. Ondick.
    Captain Hanson, you are next; and thank you very much for 
attending our roundtable discussion last week. We appreciate 
your comments.

       STATEMENT OF CAPTAIN MARSHALL HANSON, USNR (RET.)

    Captain Hanson. Mr. Chairman, Mr. Filner, Members of the 
Committee, thank you for the opportunity to testify on 
employment challenges facing today's veterans.
    While April brought improvement to veteran unemployment 
rates, the 18- to 24-year-old bracket remains high at 26.8 
percent, which is about 10 percent higher than that population 
as a whole. This group is first-tour veterans returning from 
active duty. Many remain in the Reserve components rather than 
leave the military. These are unique veterans who can be 
ordered back to active duty.
    Three surveys show that between 60 and 70 percent of 
employers won't hire new employees who are affiliated with the 
Guard and Reserve, which is an upward trend. The risk of a 
future 1-year call-up discourages many potential employers. 
This is a violation of the Uniformed Services Employment and 
Reemployment Rights Act, but it can be difficult to prove.
    Unemployment rates are even higher for returning units in 
the Army National Guard, with the Guard Bureau reporting rates 
as high as 35 to 45 percent. Florida is a case study of 
corrections taken by proactive leadership.
    The Guard numbers are high because many returning veterans 
don't want to go back to the type of work that they did prior 
to deployment. Newly acquired skills and combat experiences can 
change career ambitions. The Post-9/11 GI Bill provides an 
opportunity for veterans to seek new employment paths.
    Even though the United States will be winding down its 
overseas contingency operations, the Reserve Officers 
Association sees a trend of veteran unemployment as an ongoing 
problem. With plans to keep the Guard and Reserve as an 
operational force, employers will continue to be hesitant to 
lose key employees without positive incentives.
    Employers view USERRA as a negative incentive and would 
like to see positive encouragement to hire veterans. As 
employers look to the bottom line, tax credits or financial 
grants for hiring veterans are just examples of incentives. 
Small businesses are more likely to hire Guard and Reserve 
veterans if they can afford to hire temporary replacements 
during deployments.
    The Reserve Officers Association established the Service 
Members Law Center with Navy Captain Sam Wright as its 
Director. This service is provided to all members of the 
uniformed services, including active, Reserve, and separated 
veterans. Sam receives 500 calls a month from veterans facing 
legal problems, 80 percent of which are about employment or 
reemployment rights. This calculates to about 4,800 calls a 
year on USERRA issues.
    There is no fee service charged to the veteran and demand 
is growing, but Captain Wright has reached his personal 
capacity. ROA would like to expand the law center, but ROA can 
only do so much because self-funding is what is maintaining 
this endeavor.
    Even the Employer Support for the Guard and Reserve 
Committee and the Department of Labor can't handle the number 
of requests they receive as cases. So most reemployment cases 
are being handled by private lawsuit. ROA finds that many 
veteran employers do not know their rights of what the law is, 
as illustrated by the number of calls that ROA receives. Many 
veterans do not even know what resources are available through 
the ESGR or DoL. So they quietly surrender, simply seeking work 
elsewhere.
    ROA would like to thank the Committee and its staff for its 
attention to this critical issue and looks forward to working 
with this Committee on improving USERRA and helping veterans 
with employment challenges.
    I am ready for questions. Thank you.
    [The prepared statement of Captain Hanson appears on p. 
79.]
    The Chairman. Thank you.
    Ms. Ansley.

           STATEMENT OF HEATHER L. ANSLEY, ESQ., MSW

    Ms. Ansley. Chairman Miller, Ranking Member Filner, and 
distinguished Members of the Committee, thank you for inviting 
the Consortium for Citizens with Disabilities, or CCD, Veterans 
Task Force to share our views regarding ways to improve 
employment opportunities for veterans who are severely 
disabled.
    CCD is a coalition of over 100 national consumer service 
provider and professional organizations, which advocates on 
behalf of people with disabilities and chronic conditions and 
their families. The CCD Veterans Task Force works to bring 
together the disability and veterans' communities to address 
the issues that affect veterans with disabilities as people 
with disabilities.
    Because of the intersection of the disability and veterans' 
communities that occurs when a veteran acquires a significant 
disability, the CCD Veterans Task Force is uniquely suited to 
bring both perspectives to issues that cut across programmatic 
and policy lines.
    The CCD Veterans Task Force believes that meaningful 
employment represents one of the best opportunities for 
veterans with significant disabilities to reintegrate 
successfully into their communities. In the most recent study 
by the U.S. Bureau of Labor Statistics on employment for 
veterans with service-connected disabilities, 114,000 veterans 
of the wars in Iraq and Afghanistan reported having a service-
connected disability rated at 60 percent or higher. 
Unfortunately, 41,000 of these veterans are not participating 
in the labor force. Among veterans of all eras with a service-
connected disability rated at least 60 percent, workforce 
participation was 27.9 percent.
    Typically, discussions about veterans' employment center on 
veteran-specific programs operated by the Department of 
Veterans Affairs, Small Business Administration, or Department 
of Labor. Veterans with disabilities as people with 
disabilities who need employment assistance are also able to 
turn to programs authorized under the Workforce Investment Act 
or, in the case of veterans with significant disabilities, 
State vocational rehabilitation agencies and Ticket to Work 
under Social Security.
    Veterans with the highest service-connected disability 
ratings and veterans on VA disability pension will likely 
qualify for State vocational rehabilitation services. 
Strengthening the connection between VA's Vocational 
Rehabilitation and Employment (VR&E) program and State vocation 
rehabilitation services through the Department of Education's 
Rehabilitation Services Administration is critical to ensuring 
that veterans with disabilities receive the services that they 
need in order to remain in or return to the workforce.
    Veterans with significant disabilities are often 
beneficiaries of Social Security disability insurance. As 
Social Security disability beneficiaries, veterans are able to 
participate in Social Security employment programs such as 
Ticket to Work, which allows beneficiaries to purchase 
vocational rehabilitation services from an array of providers. 
Some veterans are dually eligible for Social Security 
disability benefits and VA pensions. If these individuals 
attempt to use Social Security's work incentives to increase 
their income, however, not only will their Social Security 
disability benefits be terminated but their VA pension benefits 
are reduced dollar for dollar.
    The CCD Veterans Task Force believes that work incentives 
for the VA pension program should be reexamined.
    The Workforce Investment Act covers most of the Nation's 
major employment and training programs operated through the 
Department of Labor. Several sections of the Workforce 
Investment Act incorporate veterans' employment into its 
overall mission. The Workforce Investment Act has been slated 
for reauthorization since 2003. While progress has been made, 
additional changes, as outlined in our written testimony, are 
needed to focus on the performance of the entire system.
    Although many veterans with disabilities have the skills 
needed to qualify for employment opportunities and advance in 
their careers, barriers to employment continue to prevent these 
veterans from receiving opportunities. Veterans with 
disabilities, like other people with disabilities, face 
barriers to employment that include misinformation about 
disability and misperceptions about required accommodations. 
These barriers must addressed. Otherwise, training 
opportunities alone will not address the needs of those 
veterans who have the most significant disabilities to allow 
them to reintegrate into the workforce and contribute to their 
communities.
    Again, thank you for the opportunity to share the CCD 
Veterans Task Force's views on improving employment 
opportunities for severely disabled veterans. This concludes my 
testimony, and I would be pleased to answer any questions you 
may have.
    [The prepared statement of Ms. Ansley appears on p. 86.]
    The Chairman. Thank you all for your testimony this 
morning.
    Mr. Hanson, you mentioned that the Reserve Officers 
Association established the Service Members Law Centers whose 
goals are generally to improve understanding of the law as it 
relates to veterans and USERRA and the Servicemembers Civil 
Relief Act. Would you agree that the need for a center is an 
indication of a shortage of attorneys qualified in veterans' 
law and the need for law schools to provide courses--more 
courses in veteran law?
    Captain Hanson. Most definitely, sir. What we are finding 
out there is the community as a whole is very hungry to learn 
more about the USERRA law and the Servicemembers Civil Relief 
Act. There is basically a lack of proper education out there.
    According to Captain Sam Wright, who has helped write some 
of this legislation, the demand is growing. He is actually 
going to seminars, oftentimes being sponsored by the American 
or State Bar Associations, and teaching more about this to the 
lawyers directly. And this is one of the purposes of the Law 
Center, is to help educate, as well as provide information to 
the servicemembers themselves.
    The Chairman. Mr. Ondick, you had said that the Career 
center system had expanded to several other States. I am 
interested in knowing what major impediments may be there to 
further expansion beyond those States that have already 
expanded.
    Mr. Ondick. Mr. Chairman, the AMVETS Career Centers, as you 
mentioned, are in New York, Tennessee, and Illinois at this 
time. Some of the impediments are dollars. We provide courses 
at no cost to our veterans. However, we have to pay for those 
courses. We set up a program through Mindleaders, and it can be 
quite expensive. So some of the determinants are the cost that 
is involved with providing the courses.
    The Chairman. Mr. Filner.
    Mr. Filner. Can I yield to Mr. McNerney?
    The Chairman. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    You know, first, I just want to make a plug for a bill that 
we dropped last week, Hire a Hero Act. I think Mr. Filner is a 
co-author. And it has several provisions. One of them is that 
it is a pilot project to help between the Veterans 
Administration, the DoD, and the Department of Labor to 
identify the barriers to veterans' employment. It does several 
other things as well. So I would ask the Chairman to consider 
becoming co-sponsor of that.
    Speaking of barriers to employment, Captain Hanson and Ms. 
Ansley, what do you think are the biggest barriers that our 
veterans are facing out there in terms of getting a job after 
they get released?
    Captain Hanson. Well, I think one thing that this hearing, 
Congressman, is demonstrating is the fact that there are a lot 
of people out there trying to help, which in the process I 
think is almost providing an overload of information. And I 
notice the Chamber of Commerce in the recommendation for job 
fairs said they wanted to do it 30 days after the individuals 
return from deployment. The challenge here is that a lot of 
Guard and Reserve members are not ready to think about future 
careers at 30 days after returning from overseas.
    Mr. McNerney. So even 30 days is not enough? I mean, he was 
saying 30 days after, as opposed to 30 days before they get 
back?
    Captain Hanson. Well, if you look at the Yellow Ribbon 
Reintegration Program that a lot of States have set up--and I 
give credit to the National Guard for starting the programs--
they actually bring the people in on 30, 60, and 90-day 
schedules and also include the families to participate in these 
programs. And I think you can't afford the information 
overload.
    So if an individual is coming back, as was pointed out 
earlier, they want to get home quickly. So, oftentimes, they 
are fatigued, they are not perceptive to a lot of the 
information that is being provided. In fact, that is one of the 
complaints about TAPS, is that there is almost too much 
information in too short a time that is there.
    So I think partnering locally in groups is the advisable 
thing to do but to also do it at such a time when the member is 
more receptive to this information.
    Mr. McNerney. Would veteran service organizations (VSOs) be 
qualified or the right contact, do you think, for that?
    Captain Hanson. Well, I think you will find it varies from 
location to location. In Ohio, obviously, you see the advantage 
of AMVETS and what they are working on. If you go to 
California, you might find other groups that are the resources 
to go to. And it varies depending on membership and who the 
spark plugs are in informal leadership within those groups. 
Many States have an informal military veteran coalition that 
meets Statewide, and that is perhaps a level to work at.
    But I think it is a partnership between the Department of 
Veterans Affairs, the VSOs, the military service organizations, 
the local offices for Department of Labor that should all get 
together and kind of coordinate and optimize rather than 
duplicate the efforts.
    Ms. Ansley. Thank you for the question.
    I think one of the biggest barriers that we see 
specifically looking at veterans with significant disabilities 
is not only do they have everything that all other veterans are 
dealing with when they come back, but they have now acquired 
perhaps a significant disability, which is quite a paradigm 
shift as now you are beginning to learn what it is like to live 
with a disability and to look at yourself possibly as a person 
with a disability.
    People with disabilities in general have very low 
employment rates. And some of those barriers do relate to 
employers not knowing what type of accommodations they need to 
provide, would this person be gone a lot because of medical 
appointments. There is a whole new layer of issues that have to 
be dealt with.
    We also see the need for more connections between the 
programs within VA and making sure we are connecting to 
programs that are set up for people with disabilities to make 
those connections. Because a lot of people do want to reach out 
to the veteran who now has a disability, and we have to make 
that connection easy.
    Mr. McNerney. So it is probably a matter of education and 
training for the employers?
    Ms. Ansley. Right. That is always something that comes up 
with employers, is that?
    Mr. McNerney. That is the thing we are hearing a lot this 
morning.
    Ms. Ansley. Yes. Helping the veteran to know what his or 
her rights are now as a person with a disability. Because they 
also have the ADA, the Americans with Disabilities Act, they 
have other services that are available to them, and to making 
sure that they are able to benefit from all of those services 
and that people are working together.
    Mr. McNerney. Thank you.
    One more question. Captain Hanson, you mentioned that 
USERRA employers view USERRA as a negative incentive. How would 
we turn that around and make it into a positive incentive?
    Captain Hanson. Well, from our discussions with employers, 
I think it is a balancing act. The structure of USERRA 
basically says, if you fail to do this, you will be penalized. 
And, unfortunately, one thing we are also seeing with USERRA is 
the fact that in industry the violation of USERRA is most 
oftentimes not overt but more subtle, which is one of the 
things that through the Law Center we are trying to teach some 
of the differences to the people out there and advise the 
veterans themselves on when appropriate action can be taken and 
when something is perhaps not documented well enough on their 
side.
    But it should also be remembered that the employers have 
rights as well as the employee and that this can be one area 
you can work on and help educate. Because, as mentioned in our 
testimony, more times than not it is ignorance that we are 
facing on both the part of the employer and the employee, 
rather than intentional violation of it. But at the same time 
they would just like to see some type of incentives that can be 
put in place.
    I saw last night in your activities, for example, a bill 
was passed to present an award to employers who hire veterans. 
And I think this is a good move because, like the employers, 
the part of the Guard and Reserve that have similar awards for 
employers that support the Guard and Reserve if you do the 
positive for the behavior that is improving it as well as 
having that negative incentive.
    Mr. McNerney. Well, the bill that I was plugging earlier 
does that. So just thank you for the plug--additional plug on 
that.
    I am going to yield back.
    The Chairman. Mr. Filner.
    Mr. Filner. Thank you very much for being here today. We 
appreciate your testimony.
    Mr. Ondick, did you have a comment?
    Mr. Ondick. Yes, I do.
    One of the problems that we have is with the United States 
Department of Labor Veterans' Employment and Training, the 
DVOPs/LVER program, where they are tasked for intensive 
services only. And in Ohio that meant they serviced about 5,000 
veterans. Back in 2009--we have the figures from 2009--they 
serviced 5,000 veterans. What happened to the other 100,000 
veterans that were unemployed? So that is where we step in as 
veterans' organizations.
    And in an earlier comment by Ranking Member Filner when he 
talked about the truck driving, we can get an individual that 
comes out of the military, we can get him into--get a CD out 
and get him a job in 5 days. If we can do it, why can't others? 
Five days. We did it in 1 day for an individual, but Jupiter 
had to align with Mars for that to happen.
    There are avenues out there, and we can make things happen 
with the veterans organizations that are grassroots. In Ohio, 
in the AMVETS alone, we have 140 veterans, AMVETS post in that 
State.
    If you are looking for a network, I think that utilization 
of the veterans service organizations that are all over this 
country in every community, big and small, would probably be 
the best way to tackle something and to get to every part of a 
State across this country.
    The Chairman. Thank you very much. We appreciate your 
testimony. You are excused. Thank you.
    I want to welcome our third and final panel this morning to 
the table.
    Major General James Tyre is the Assistant Adjutant General 
for the Army National Guard in my home State of Florida. 
General Tyre has a long, distinguished career in the National 
Guard and served 10 years as a noncommissioned officer. Next, 
we have Ms. Ruth Fanning, the Director of the Vocational 
Rehabilitation and Employment Service of the Department of 
Veterans Affairs; and, finally, the Honorable Raymond 
Jefferson, the Assistant Secretary of the Veterans' Employment 
and Training Service of the U.S. Department of Labor.
    Thank you all for being here. Thank you for your patience.
    General Tyre, we will begin with you. You are recognized.

  STATEMENTS OF MAJOR GENERAL JAMES D. TYRE, ARNG, ASSISTANT 
ADJUTANT GENERAL, FLORIDA ARMY NATIONAL GUARD; RUTH A. FANNING, 
  DIRECTOR, VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE, 
VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS; 
 AND HON. RAYMOND M. JEFFERSON, ASSISTANT SECRETARY, VETERANS' 
   EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF LABOR

         STATEMENT OF MAJOR GENERAL JAMES D. TYRE, ARNG

    General Tyre. Good morning, sir.
    Chairman Miller, Ranking Member Filner, distinguished 
Members of the Committee, I am honored to appear before you 
today on behalf of the Adjutant General of Florida, Major 
General Emmett Titshaw, and the 12,000 members of the Florida 
National Guard. I welcome the opportunity to illustrate through 
our story a picture that is common across most of our States 
and territories.
    Our units are continuing to return home after some of the 
largest mobilizations since World War II. These Guardsmen have 
proudly answered the call but have returned home to face a 
different threat, unemployment. Closing businesses, fewer jobs, 
and an overall economic decline have contributed to the 
struggles associated with redeployment of our forces.
    A number of great Federal, State, and private programs 
exist to assist Guardsmen transitioning back to civilian life. 
However, the challenge that remains is finding or creating a 
link that joins our unemployed Guardsmen with existing 
resources and programs that will result in a viable career.
    Unemployment in the Florida National Guard ranges from 
roughly 14 to 38 percent across redeploying units. Our surveys 
have identified over 1,700 soldiers who are unemployed. This 
represents 17 percent of the Army National Guard force which 
largely redeployed since July of 2010.
    One example is the 53rd Infantry Brigade Combat Team, our 
largest redeploying unit, with locations from Miami to 
Pensacola that redeployed from Iraq and from Kuwait this past 
December with more than 30 percent expressing civilian 
employment challenges.
    We have also learned that the greatest challenges to 
employment emerge months or years after the servicemember 
returns home. Currently, there is no enduring program at the 
local level to address this need.
    The Florida National Guard has partnered for many years 
with large corporations as well as public and private 
organizations and programs to address employment issues. In the 
fall of 2010, the Adjutant General established the Florida 
National Guard Family Career Connection, which joined with 
Employer Partnership for Armed Services and Florida's Agency 
for Workforce Innovation to assist our soldiers and our airmen. 
Together, we have registered over 450 redeploying soldiers with 
these agencies and provided classes on job search, techniques, 
resume development, and interview preparation. However, despite 
these efforts, our Guardsmen continue to experience employment 
challenges, and we anticipate more to materialize as we move 
into the 6- to 24-month post-deployment window.
    While we are proud of the progress that we have made in 
linking our soldiers and airmen to employers, there are still 
some measures that can be taken to improve our current 
programs. Developing incentives for employers to seek out and 
hire Guardsmen would be an effective enabler for business that 
currently support the National Guard as well as those that 
would like to support but cannot afford to during these tough 
economic times. Individual State programs in Texas and 
Washington State have demonstrated value but may be at risk for 
future funding and not available to all States, including 
Florida.
    We are doing everything we can with other online sources 
which are available to assist with translating military 
experience into civilian skills in connecting our soldiers and 
airmen to employers. However, without sustained resourcing, 
simple centralized planning, decentralized delivery, and an 
individually tailored plan, servicemembers may miss 
opportunities just for the lack of knowing where to go.
    In Florida, we believe a one-stop shop is needed for our 
soldiers and airmen, one that integrates these complementary 
systems and locally ties them to employers. This one-stop shop 
would offer transition services to Guardsmen in an environment 
that eases the navigation through the numerous resources that 
already exist. Our facilities are well suited to house this 
type of enterprise because of their local ties to the 
communities.
    Now what I have described all requires resourcing but in 
the end will pay dividends through other matrixes. Reserve 
component servicemembers who are employed are easier to retain 
in their respective units and services. We are at the peak of 
our readiness, and the cost to replace and train even one 
servicemember is immeasurable, particularly because of the 
institutional knowledge and the experience gained through a 
decade of conflict.
    As servicemembers redeploy and transition back to civilian 
life, we want to embrace them and provide support for full 
simulation. Addressing the issues of unemployment is just one 
means to tackle what has become an issue of resiliency not just 
for the National Guard but also for other components and 
services. A locally embedded resource that is postured to 
integrate employers, Guardsmen, and available resources to 
eliminate unemployment amongst the servicemembers is critical.
    Mr. Chairman, I appreciate the opportunity to be here today 
to tell our story; and I look forward to your questions.
    [The prepared statement of General Tyre appears on p. 93.]
    The Chairman. Thank you very much, General.
    Ms. Fanning, you are recognized.

                  STATEMENT OF RUTH A. FANNING

    Ms. Fanning. Thank you, Mr. Chairman.
    Chairman Miller, Ranking Member Filner, and distinguished 
Members of the Committee, thank you for inviting me here today 
to discuss the Department of Veterans Affairs Vocational 
Rehabilitation and Employment, or VetSuccess, program. I am 
pleased to appear before you to discuss the vitally important 
topic of veterans' employment.
    I also want to note that I appreciated the opportunity to 
hear the dialogue from the other panels with many of our 
partners. We are partnering with everyone who has spoken thus 
far, except for two associations; and I will be getting in 
touch with them right after this hearing.
    I wanted to give you an overview of the vocational 
rehabilitation and employment program. Over the past 2 years, 
we have worked to rebrand and market our services as VetSuccess 
and to stand up tools for veterans that lead to career success.
    The primary mission of our program is to assist veterans 
with service-connected disabilities to prepare for and obtain 
suitable and sustainable careers through the provision of 
services that are individually tailored to each veteran's 
needs. But, as you will hear throughout my testimony, we have 
greatly expanded our services; and we are now providing 
benefits to veterans who are not disabled who are utilizing 
Post-9/11 GI Bill benefits.
    The services that we provide are broad in range and include 
a comprehensive Web site designed to connect veterans with 
employers and to provide that one-stop Web site that everyone 
has been talking about this morning. This is a model that can 
either become or lead to the national portal, and we are 
working collaboratively with the Department of Labor and a 
number of Federal organizations to look at VetSuccess.gov and 
its success, if you will. Also, 
what else would we need to translate this or form a national por
tal?
    On the Web site is a military skills translator that 
assists servicemembers and veterans to translate their military 
occupational specialties to civilian careers so that they can 
build on their transferrable skills for employment.
    We provide direct job placement assistance, short-term 
training to augment their skills to increase employability, 
long-term training including on-the-job training, 
apprenticeships, college training, or services that support 
self-employment; and for those veterans unable to work because 
of the severity of their disabilities, independent living 
services to maximize their independence in their communities.
    We provide ongoing case management assistance throughout 
the rehabilitation programs to assist with any needs that would 
interfere with retention and completion to the point of 
employment.
    Our program begins with a comprehensive evaluation to help 
veterans identify and understand their interests, aptitudes, 
and transferrable skills. Next, we move to focusing veterans on 
potential career goals in line with labor market demands, and 
we also provide extensive outreach and early intervention 
services through our Coming Home to Work Program.
    Recently, VR&E Service VetSuccess has launched a 
transformation project geared to make our program the premier 
21st Century vocational rehabilitation program. This effort 
focuses on modernizing and streamlining services using a 
veteran-centric approach. Transformation changes include 
allowing veterans more choice in their appointment scheduling 
through automated scheduling, expediting a veteran's entry into 
a rehabilitation program by streamlining the front-end process, 
reducing paperwork for our counselors so they can spend more 
one-on-one time with veterans, and we are also releasing a 
knowledge management portal which will be a one-stop tool for 
our staff around the country so that they have all the 
resources at their ready to do their jobs effectively.
    Working in collaboration with the VA Secretary's innovation 
initiative, called VAi2, Vet Success has engaged in innovative 
initiatives to build self-employment incubators and tools, 
leading to more veteran-owned businesses in a project of self-
management that will allow the most seriously disabled veterans 
to work in the career of their choosing and live as 
independently as possible.
    We are also conducting a VA employee innovation competition 
to allow the staff working every day with our veterans to 
identify additional program enhancements. We have received 732 
ideas from a staff of voc rehab around the country of around 
1,100, and we are currently evaluating these to begin 
implementing the most promising in August.
    In addition to the employment initiatives I have just 
mentioned, I would like to highlight other initiatives that we 
have ongoing.
    Veteran employment is the fundamental mission of our 
program. In fiscal year 2010, we rehabilitated just over 8,000 
veterans in suitable employment and an additional approximately 
2,000 in independent living. Of these, 51 percent were hired in 
the private sector and 79 percent were hired in professional, 
managerial, and technical programs, earning, on average, 
$42,000 a year to begin.
    Specific initiatives focused on assisting veterans who 
obtain and maintain suitable employment consistent with their 
interests, including employer education, which has been 
mentioned and is so important to help the employment community 
understand this is a smart business decision; implementation of 
executive order 1351(a), which includes working with other 
government agencies to maximize veteran employment within 
government--and about a third of the veterans we place in jobs 
are in the Federal Government; and working with the public- and 
private-sector employers to assist them to have a better 
understanding of tax credits, special employer incentives, and 
on-the-job training programs available when hiring veterans.
    Of course, with the VetSuccess program, which is not only a 
job board in coordination with NASWA and DirectEmployers, we 
have incorporated not only the Job Central job-board of over 8 
million active jobs, but also a job board for employers who 
want to hire veterans. As of June, that will be linked with our 
e-portal, which means veterans, when they come into our program 
and are registered through e-portal, employers will know that 
they are hiring veterans. It will also allow veterans to have a 
lot more self-service options.
    Recently, we have ventured into the world of virtual career 
fairs in addition to brick-and-mortar career fairs. A partner 
advertised an upcoming veteran career fair on the Jumbotron in 
Times Square. We were really glad to see that kind of marketing 
for our program and for this very important career fair.
    We have developed the Troops to Counselors initiative, and 
we plan by 2014 that 60 percent of our counselors will be 
veteran hires. And we are using the Student Career Experience 
Program to bring veterans in and train them while they are in 
college toward VA careers.
    About 42 percent of our employees around the country are 
veterans. We are very committed to hiring veterans; and we are 
the largest employer of veterans, aside from DoD. So we are the 
largest nondefense organization employer of veterans, I should 
say.
    The VetSuccess.gov Web site has been completely redesigned. 
It is a one-step resource for both disabled and able-bodied 
veterans and family members. The Web site includes a job board 
for employers desiring to hire veterans, resume builders, 
upload tools that allow veterans to utilize resumes already 
developed, complete resources for transition, employer 
families, success in college, and drill-down maps so that a 
veteran can go in and click on his or her city and find the 
resources they need in their area.
    In conclusion, I would like to say that VA continues to 
seek new and innovative ways to assist veterans in achieving 
their goals for full, productive, and meaningful lives and 
careers. We will continue to work with all sectors of 
government and public and private employment communities to 
assist veterans in reaching their highest potential during this 
challenging economy.
    This concludes my remarks. I appreciate the opportunity to 
testify before you, and I thank you, Mr. Chairman. I would be 
happy to respond to any questions you may have.
    [The prepared statement of Ms. Fanning appears on p. 96.]
    The Chairman. Thank you very much.
    Mr. Jefferson, good to see you.

             STATEMENT OF HON. RAYMOND M. JEFFERSON

    Mr. Jefferson. Chairman Miller, Ranking Member Filner, 
thank you very much for giving me this opportunity to be a part 
of this hearing. I ask my full written testimony be included as 
part of the record.
    The Chairman. Without objection.
    Mr. Jefferson. VETS has the privilege of being the 
Congressionally mandated lead agency for veterans' employment. 
But we can only accomplish this mission by working with our 
partners, our partners in government, like VA and Ruth Fanning, 
Defense, Office of Personnel Management, and the U.S. 
Department of Housing and Urban Development, our partners in 
the nonprofit sectors, many of whom are here today, the veteran 
services organizations, NASWA, the Society for Human Resources 
Management, and our partners in the private sector, 
specifically, the U.S. Chamber of Commerce, the Business 
Executives for National Security, and the relationship that we 
are developing with the Business Roundtable.
    We have three primary responsibilities: preparing 
servicemembers for meaningful and successful careers, providing 
access to them, and protecting their employment rights.
    We are going to have a major hearing on TAP tomorrow. Here 
is what I would like to leave the Committee with: We have 
identified the six major problems in TAP, developed solutions 
for those, and we are on track to implement the new, completely 
redesigned and transformed Transition Assistance Program 
Employment Workshop by Veterans Day of this year. That is my 
goal.
    We are also working to link with the Military Spouse 
Employment Program at DoD so spouses for the first time will 
greatly increase their participation in TAP and their 
preparedness. There is also going to be a significant element 
in there on entrepreneurship.
    Providing access, the second major responsibility to 
meaningful and successful careers. A lot is happening here. In 
partnership with the U.S. Chamber of Commerce and ESGR, we are 
rolling out 100 mega hiring fairs around the country.
    What is a mega hiring fair? It is a hiring fair where there 
is generally over 100 employers and over 1,000 veterans. We 
have worked with ESGR to identify where are those major 
demobilizations occurring and then doing hiring fairs after the 
units have returned. We are also developing a replica model so 
not only can we have the hundred mega hiring fairs, but it also 
can be cascaded into rural America.
    We are developing a partnership with SHRM, the Society for 
Human Resource Management, where for the first time we will be 
briefing rooms full of hundreds of H.R. executives on why to 
hire a veteran and how to hire a veteran. They have over 
250,000 members who are doing hiring around the country, and we 
are going to be getting in front of them for the first time.
    We have our State grants program. Let me acknowledge that 
we need to improve this program. So for the first time, I 
believe, in the last decade we have gone out to solicit 
feedback on how we can improve, and we are processing that 
feedback right now.
    This year, one of my goals is to implement a community of 
practice. This is one of the 10 leadership breakthrough ideas 
of 2006. Bottom line, it allows us to have best practices 
shared from Florida to California, all around the country. 
There is no way for us to do that right now.
    The Federal Hiring Initiative. From fiscal year 2009 to 
2010, Federal Government hiring went down by 11,000 people. In 
the same period of time, veterans hiring went up by 2,000, from 
70,000 to over 72,000. So the Federal Hiring Initiative, which 
we are working in partnership with VA, is working.
    For those young veterans 20- to 24-years-old, we have the 
Job Corps pilot. We are getting very good feedback on that from 
the young veterans. We have 300 slots. Once we do proof of 
concept, we can have more slots allocated; and we are going to 
be sending out videos that the young veterans and Job Corps 
have made talking about how this is a life-changer. It provides 
residential, all-expense paid training, housing, leading to a 
credential, a job, and 21 months of post-deployment support.
    We have our green jobs training through Veterans Workforce 
Investment Program where we serve 4,600 veterans; our Homeless 
Veterans Reintegration Program. We have over 14,000 veterans 
being served there, with over 8,000 being put into employment. 
And there is much more.
    In terms of protecting veterans' employment rights, I 
respectfully disagree with Captain Hanson. We actually feel 
that we have enough human capital resources on the ground to 
handle our load of investigations. We have also done a lean Six 
Sigma assessment of what are the best practices relating to 
timeliness and quality, and we are implementing those best 
practices. Basically, a major one is to eliminate the paper-
centric process and automate it, going to electronic case 
management.
    Finally, I will say that none of the great, important 
things that we are doing will have the impact that it should 
unless we engage the media as partners. So, last year, we 
worked with Forbes and Fortune Magazine and had articles out on 
the value of hiring a veteran. This year, we are working with 
the entertainment industry, with the Bob Woodruff Foundation. I 
was recently told that Businessweek this week has an article 
called, ``Ready, Aim, Hire,'' talking about the value of hiring 
veterans and how to hire veterans.
    We stand enthusiastic to work with this Committee and our 
other partners to make progress on this very important, noble 
errand in getting veterans and servicemembers back into 
meaningful and successful careers.
    [The prepared statement of Mr. Jefferson appears on p. 
100.]
    The Chairman. Thank you very much for your testimony.
    Mr. Jefferson, you talked about requests for proposals to 
re-engineer TAP. You indicated that vendors--in your comments--
must use certain books by certain authors; and if a vendor 
proposed to use an alternative, the explanation must be given 
as to why. What I would be interested in knowing is why or how 
did you select the books and did DoL's General Counsel approve 
of who implicitly, if not explicitly, endorses these books?
    Mr. Jefferson. Yes, sir.
    First, let me say the actual language I said is content-
related to this--either these books or do a crosswalk to the 
content.
    Prior to being confirmed as an Assistant Secretary here, I 
have spent the majority of my life in the leadership 
development domain. And so what I am asking in the Request for 
Proposal (RFP) is we have identified the best practices related 
to career transition. That is not just my opinion. That is from 
identifying who is the best in the Nation, working with Harvard 
Business School's Office of Career Transition, working with 
West Point's leadership department, working with other key 
leaders in this area.
    So in the TAP RFP, we have identified what the best 
practices are, and we have made those the standard. For 
example, we have often heard in Congressional hearings that 
servicemembers don't know how to transition from the military 
to a civilian work environment. How are we going to solve that 
riddle once and for all? We have specified in very specific 
detail what are the elements of that cultural transition. And 
so that is an example of what is in the new TAP.
    Sir, we have made the standards high. We are hoping we will 
award that as soon as possible, and we are on track to have it 
done by Veterans Day.
    The Chairman. For you and VA both, DoD spends a tremendous 
amount of money in recruiting servicemembers. I would be 
interested in knowing how much money, if you know, VA and the 
Department of Labor spend on radio, TV ads to highlight the 
positive aspects of hiring veterans and the qualities that they 
bring to the Federal workforce or in the private sector.
    Ms. Fanning. I don't have the dollar amounts for you today, 
but I can get those for you.
    [The VA subsequently provided the following information:]

          During Fiscal Year (FY) 2010, Vocational Rehabilitation and 
        Employment Service (VR&E) spent $533,672 on outreach, 
        promotional materials, and to attend outreach events such as 
        the Society of Human Resource Management Conference, American 
        Legion Job Fair, and Congressional Black Caucus Foundation, 
        Inc. In addition, VR&E Service spent $103,828 on branded 
        promotional items to provide to veterans and servicemembers 
        during outreach events (total: $637,500).
          In addition, VRE expended $495,000 for maintenance of, and 
        enhancements to, the VetSuccess.gov Web site. VetSucess.gov is 
        an important marketing tool that VR&E uses to target veterans 
        seeking employment and provides resource information for 
        servicemembers throughout their transition, preparation for 
        employment, and post employment.
          So far in FY 2011, approximately $1.13 million has been 
        expended for outreach materials, events, and the VetSuccess.gov 
        Web site. These outreach and marketing tools assist veterans 
        with entering programs or services leading to employment, 
        developing employer relationships resulting in job 
        opportunities for veterans, and assisting servicemembers and 
        veterans with all services leading to career employment.
          Also, in FY 2011, VA's Office of Human Resources and 
        Administration expended funds for marketing, outreach, and 
        advertising to veterans that totaled $128,102 and included the 
        following:
          Promotional Materials for Regional Recruiters for 
        distribution: $22,774
          Veterans Acquisition Intern Program (Joint program with OPM 
        to recruit veterans in the acquisition career field): $35,000
          OPM/VA Veterans Symposium to provide a learning forum to 
        discuss strategies and issues concerning veterans employment: 
        $50,000
          Advertising Materials: $1,015
          Outreach (Career Fairs): $19,313

    Ms. Fanning. But I can say that we have invested in 
marketing the program--the Vocational Rehabilitation and 
Employment Program--as VetSuccess through a grassroots campaign 
at job fairs, at Yellow Ribbon events, at welcome home events 
anywhere where veterans and servicemembers are.
    We have permanently stationed 13 full-time counselors at 
primary military treatment facilities. They are reaching out to 
these young men and women while they are still active duty on 
medical hold.
    We are doing everything that we can to get the word out. In 
our budget request next year, we have a full marketing package 
that we have requested to put into place.
    First of all, we needed to get VetSuccess.gov up to the 
point that it was viable across the security hurdles, across 
the e-portal hurdles. And we are there. We went from having 
66,000 hits in 2008 to 28 million hits last year and so far 
this year over 22 million hits to the site. So veterans 
recognize our brand. They are coming to the site.
    And we are standing it up and enhancing it as rapidly as we 
can. I think if you go to the site today, you will see a 
different site than was up there 2 weeks ago. We have uploaded 
a huge amount of content just in the last 2 weeks.
    Mr. Jefferson. Sir, I will take that question for the 
record.
    But our strategy has been primarily not to pay for 
advertising. We have been going out doing major public speaking 
engagements, one, for example, with 10,000 H.R. executives at 
the Society for Human Resource Management. That led to a 
conversation personally with Steve Forbes where he said he 
would like to do something in Forbes Magazine. And he did.
    We developed a relationship with the publisher of Fortune 
Magazine, who expressed their desire to promote veterans 
employment. They went ahead and also did coverage there.
    We did not pay for any of those coverages. But I will take 
it for the record so I can ensure that I am capturing anything 
else happening within the Department of Labor.
    But I will say there is tremendous goodwill and interest in 
the media right now, and so we are working to leverage that 
with stories on the value that veterans bring to the workforce 
and how employers can access this source of talent.
    [The DoL subsequently provided the following information:]

          DoL continues to highlight the positive aspects of hiring 
        VETS through departmental news releases, speeches, testimony, 
        appearances and other outreach efforts at the local and 
        national level. However, at this time the agency does not have 
        any direct budget line item for advertising to promote the 
        hiring of veterans.

    The Chairman. How about national electronic media or the 
new social media that is available out there? Neither one of 
you even mentioned that.
    Mr. Jefferson. Sir, I would love to comment on that.
    We just brought in an expert for the summer who is working 
on how we can leverage new media and social media. We do have 
some constraints within the Department of Labor, but we are 
looking at how we can push this out as far as possible while 
staying within all appropriate guidelines.
    Ms. Fanning. VA is on Facebook. We are blogging. We are 
tweeting. I think that is the correct term. We are looking at 
maximizing social media.
    In addition, as we move forward with the e-portal and have 
the assurance of secure connections over the Internet, in 
Vocational Rehabilitation and Employment specifically, as well 
as in our work with the GI Bill through the VetSuccess on 
Campus program, we are looking at doing counseling over the 
Internet through secure methods using e-chat.
    We already are in the process of implementing a program 
across the country where we are using technology so that we can 
provide counseling to veterans using technology rather than 
having a veteran drive 100 miles to our office or having a 
counselor drive 100 miles to their home when maybe that day 
they could have seen five veterans instead of one during that 
travel time. We are maximizing the use of technology as much as 
possible.
    Mr. Jefferson. Mr. Chairman, I will also acknowledge we are 
getting tremendous assistance from NASWA's social media team 
and the Department of Defense's social media team. A specific 
example is we are pushing out videos we have created for young 
veterans on the value of our Job Corps pilot, and they are 
helping us to disseminate that as well.
    The Chairman. Thank you.
    Mr. Filner.
    Mr. Filner. Thank you.
    Do we now have any mandates for Federal hiring or Federal 
contracting of veterans?
    Mr. Jefferson. For Federal hiring, we have the Federal 
Hiring Initiative, where each agency has developed goals. As an 
initiative, it is succeeding, and we are achieving those goals, 
and we have hired more veterans than we have the previous year. 
So the Federal Hiring Initiative is very successful.
    Because the contracting comes under OFCCP, I would like to 
take that for the record and involve that agency in answering 
that question.
    Ms. Fanning. And I would just like to say that with the 
Presidential Executive Order 13-518, each agency and department 
has goals for increased veteran hiring.
    In regard to the use of contracting with small disabled 
veteran-owned businesses or veteran-owned businesses, I know 
that VA has goals. But I will take it for the record to 
determine what kind of laws are in place governing specific 
mandates.
    [The VA subsequently provided the following information:]

          There are no laws requiring the hiring of veterans for 
        contracts. The existing laws (Veterans' Readjustment Assistance 
        Act of 1972 (38 U.S.C. 4211 and 4212) and the Veterans 
        Employment Opportunities Act of 1998, Public Law 105-339), as 
        implemented by the Federal Acquisition Regulations in Subpart 
        22.13, encourage the hiring of veterans and require contractors 
        who are subject to the reporting requirements to file annual 
        reports on the number of veterans employed.
          38 U.S.C. 8127(d) does require VA to set aside contracts for 
        award to small businesses verified as owned and controlled by 
        veterans if there is an expectation that at least two such 
        offerors will submit offers and the award can be made at a 
        reasonable price. However, those conditions must be met before 
        a contract is required to be set-aside for a veteran-owned and 
        controlled small business. See also 38 CFR 74.

    Mr. Filner. Everywhere I go--I go up to Camp Pendleton in 
San Diego, and they have a $6 billion construction program. You 
go downtown, there is a $250 million court project. You go down 
to the border, there is a $600 million building.
    I talk to the general contractors, and they don't seem to 
know about any of these goals to hire veterans. Oh, yes, we 
have outreach, but I don't see any number. I don't see any 
results. I don't see any tangible proof that they are doing 
anything. Yet here we have enormous power, the Federal 
Government, to do the hiring; and I am not sure we are doing 
what we can.
    I would like some suggestions on what we should do. I would 
mandate, rather than set goals.
    You talk to the agency and they say, well, the general 
contractor has it, and we have goals in our RFPs. But they are 
never translated into the actual contract, and the general 
contractors don't seem to have any sense--well, I retract that. 
It depends on the individuals and their own sensitivities and 
their own sensibilities and their own senses. But nothing 
mandated that they feel they have to respond to.
    Ms. Fanning. Well, having just participated in a large 
acquisition for the Vocational Rehabilitation and Employment 
program, I can say that I was witness to the Office of 
Acquisition, Logistics, and Construction in VA during the pre-
proposal conference for all interested bidders. And there were 
a number of set-aside regions throughout the country for 
veteran-owned and small veteran-owned businesses. They also 
very thoroughly reviewed with the group partnering and 
subcontracting arrangements that could be made and encouraged 
interested vendors to work with small veteran-owned businesses.
    Are we completely there? I don't know.
    Mr. Filner. But they are all voluntary, aren't they? Is 
anybody ever penalized for not meeting them and not giving the 
next contract? I mean, I don't hear?
    Mr. Jefferson. First, there are two things which we are 
talking about.
    The first is the Federal Government hiring. On that, we are 
tracking for the people who are being brought in as civil 
servants. So we are tracking that. That one is succeeding, and 
all that information is available very transparently. We have a 
new director at the Department of Labor at OFCCP, Office of 
Federal Contract Compliance Policy, and she is doing a lot to 
bring a lot more teeth into this effort.
    So I would like to take that for the record, because I know 
she is taking a lot of actions to make this a much more 
effective and relevant policy.
    Mr. Filner. The last testimony I have seen said they 
haven't penalized anyone for the last 5 years.
    Mr. Jefferson. Sir, I would like to make sure that we have 
a fact basis for that. Her name is Pat Shiu. I have met with 
her.
    Mr. Filner. If they haven't done anything in terms of 
penalties, then nobody takes them seriously.
    Mr. Jefferson. I actually know that she is putting 
penalties out. But what I would like to do is give you the 
facts so----
    Mr. Filner. Again, penalties against--what are the laws 
that they are required to follow? Or what efforts? Again, it 
seems all voluntary. It seems it's just all goals to meet. 
There is a difference that's almost based on personality or the 
company itself in what they are really doing.
    Mr. Jefferson. Yes, sir.
    [The DoL subsequently provided the following information:]

                        QUESTIONS FOR THE RECORD

                       Patricia A. Shiu, Director

             Office of Federal Contract Compliance Programs

                        U.S. Department of Labor

    Chairman Miller, Ranking Member Filner, and distinguished Members 
of the Committee, thank you for the opportunity to present additional 
information on behalf of the Department of Labor (DoL or Department).
    On June 1, 2011, U.S. Department of Labor, Veterans' Employment and 
Training Service (VETS) testified before the Committee on Veterans' 
Affairs. In the course of that hearing, Rep. Filner asked several 
questions about programs that were not within the purview of VETS, but 
of the Office of Federal Contract Compliance Programs (OFCCP), also in 
DoL. I am pleased to provide these responses to your questions 
pertaining to OFCCP.
    Rep. Filner: Do we now have any mandates for Federal hiring or 
Federal contracting of veterans?
    Response: Yes. Your question raises two issues: hiring by the 
Federal Government, and hiring by entities that have contracts with the 
Federal Government.
    With regard to hiring by the Federal Government, 5 U.S.C. Sec. 2108 
provides veterans who are disabled or who serve on active duty in the 
Armed Forces during certain specified time periods or in military 
campaigns a preference (10 points for disabled veterans, 5 points for 
non-disabled veterans) over non-veterans both in Federal hiring 
practices and in retention during reductions in force (RIF).
    The requirements for hiring of veterans by Federal contractors \1\ 
(as opposed to by the Federal Government) are set forth in the Vietnam 
Era Veterans' Readjustment Assistance Act of 1974 (VEVRAA), 38 U.S.C. 
4212. OFCCP enforces Section 4212(a)(1) of VEVRAA, which prohibits 
Federal contractors and subcontractors (hereafter, ``contractors'') 
from discriminating against specified categories of veterans and 
requires contractors to take affirmative action to employ, and advance 
in employment, those veterans. Contractors must develop written 
programs detailing the actions that they are taking for this purpose 
and make the plans available when requested in a compliance evaluation 
or complaint investigation. OFCCP also enforces VEVRAA Section 
4212(a)(2)(A), which requires that contractors list their job openings 
with the appropriate employment service. Additionally, while VEVRAA 
does not include a hiring preference for veterans as there is in 
Federal Government hiring, VEVRAA does require that covered veterans 
receive priority in referral from the employment services to Federal 
contractors for the openings they list.
---------------------------------------------------------------------------
    \1\ Coverage of contractors and veterans varies according to when 
the contract was entered into. For contracts entered into before 
December 1, 2003, the contract dollar threshold is $25,000, and the 
veterans covered are: (1) special disabled veterans; (2) veterans of 
the Vietnam era; (3) veterans who served on active duty in the Armed 
Forces during a war or in a campaign or expedition for which a campaign 
badge has been authorized; and (4) veterans separated from the service 
within the previous year. For contracts entered into on or after 
December 1, 2003, the contract dollar threshold is $100,000, and the 
veterans covered are: (1) disabled veterans; (2) veterans who served on 
active duty in the Armed Forces during a war or in a campaign or 
expedition for which a campaign badge has been authorized; (3) veterans 
who, while serving on active duty in the Armed Forces, participated in 
a United States military operation for which an Armed Forces service 
medal was awarded pursuant to Executive Order No. 12985; and (4) 
veterans separated from the service within the previous 3 years.
---------------------------------------------------------------------------
    Rep. Filner: But, they are all voluntary, aren't they?
    Response: No, the VEVRAA requirements are not voluntary; they are 
required of covered Federal contractors.\2\
---------------------------------------------------------------------------
    \2\ Other VEVRAA provisions (not enforced by OFCCP) establish 
certain priority job referrals for veterans seeking employment and 
require Federal contractors to report the number of employees who are 
covered veterans on annual VETS-100 and VETS-100A reports. In addition, 
the Uniformed Services Employment and Reemployment Rights Act of 1994 
(USERRA) generally requires all covered employers, including Federal 
contractors and subcontractors, to reinstate veterans whose cumulative 
period of military service does not exceed 5 years, to the job that 
they would have attained had they not been absent for military service.
---------------------------------------------------------------------------
    Rep. Filner: Is anybody ever penalized for not meeting them and not 
giving the next contract?
    Response: Yes, contractors are penalized for not meeting VEVRAA 
requirements. VEVRAA provides a range of options for such situations, 
from remedying the violations all the way to debarring contractors from 
future contracts. At a minimum, when there is a finding of 
discrimination against a protected veteran, the contractor is required 
to provide back-pay and other make-whole remedies and to change its 
practices going forward. In the vast majority of cases, it is not 
necessary to take contractors to administrative enforcement 
proceedings; our efforts to conciliate the issues are generally 
sufficient.
    Rep. Filner: The last testimony I have said [OFCCP] hadn't 
penalized anyone for the last 5 years.
    Response: OFCCP conducts compliance evaluations of an average of 
approximately 4,000 neutrally selected contractors each year. Under the 
Obama administration so far, OFCCP has recovered $25 million in back 
wages and nearly 4,200 job opportunities on behalf of more than 42,000 
victims of discrimination. The agency has evaluated almost 12,000 
businesses that, collectively, employ over 4.2 million workers. We 
review VEVRAA compliance in every evaluation in which a contractor met 
the VEVRAA minimum coverage requirements.
    I was delighted that these reviews did not uncover many VEVRAA 
violations. In FY 2009, after OFCCP conducted on-site reviews of their 
establishments, 54 contractors were cited for recruitment violations 
impacting veterans, including failure to comply with mandatory 
obligations to post job listings, conduct outreach, and fulfill other 
requirements. In FY 2010, that number rose to 92 contractors that were 
cited for recruitment violations pertaining to protected veterans. 
OFCCP negotiated conciliation agreements in all these cases to correct 
the violations. Many, if not most, of these settlement agreements 
included linkage provisions in which contractors commit to partner with 
specified local job training programs, veterans' organizations, and 
other community groups, in order to identify and recruit covered 
veterans and people with disabilities better.
    OFCCP also investigates complaints of discrimination filed by 
veterans. In FY 2009 and FY 2010 (combined), OFCCP investigated 76 
veterans' complaints, which accounted for 50 percent of the 179 
complaints investigated in those years. VEVRAA violations were found in 
14 percent of these investigations.\3\ In all but one of those in which 
a violation was found, OFCCP reached a financial agreement with the 
contractor that resulted in compensation for the veterans involved. 
(The case in which no financial agreement was reached involved 
recordkeeping and recruitment violations that did not affect employees' 
compensation).
---------------------------------------------------------------------------
    \3\ Violations were not found for a number of reasons, including 
untimeliness of the complaint, lack of a Federal contract or 
subcontract that would confer jurisdiction on OFCCP, the fact that the 
complainant did not fall within the classes of veterans protected under 
VEVRAA, and a (not uncommon) misapprehension among veterans that the 
Federal Government's ``veterans' preference'' guarantees veterans jobs 
in private companies.
---------------------------------------------------------------------------
    Rather than simply accepting contractors' self-reporting (as has 
been done too often in the past), we are now requiring our compliance 
officers, when conducting an on-site review, to verify how contractors 
are treating protected veterans and people with disabilities and 
whether they are providing reasonable accommodations to their workers 
as required by law, as well as to confirm the existence and 
implementation of required affirmative action programs. Our 
investigative procedures during on-site investigations also include 
verification that the contractor is listing job openings with the 
appropriate employment service delivery system(s) so that veterans may 
be given priority in referral. I have made it very clear to our 
compliance officers that they must verify compliance with these posting 
requirements during their evaluations of contracting establishments.
    Rep. Filner: Again, penalties against--what are the laws that they 
are required followed, or what efforts? Again it seems all voluntary. 
It seems it's just all goals to meet. There is a difference that's 
almost based on personality or the company itself in what they are 
really doing.
    Response: This question appears directed at how contractors' 
efforts to employ more veterans are measured and enforced. As noted 
above, the primary OFCCP enforcement mechanisms are compliance 
evaluations and complaints. The framework articulating a contractor's 
responsibilities with respect to affirmative action, recruitment, and 
placement, and the measures by which its compliance will be assessed, 
are set forth in our regulations (41 CFR Parts 60-250 and 60-300).
    OFCCP's VEVRAA regulations have remained unchanged since the 
implementing rules were first published in 1976. Meanwhile, increasing 
numbers of veterans are returning from tours of duty in Iraq, 
Afghanistan, and other places around the world, and many are faced with 
substantial obstacles in finding employment upon leaving the service.
    To make our VEVRAA program more effective in increasing employment 
opportunities for returning veterans, in April of this year we 
published proposed revisions to the regulations that go directly to 
your concerns about measurement and accountability. The proposed rule 
would increase the responsibilities of Federal contractors and 
subcontractors by, inter alia:

    <bullet>  Requiring contractors to establish linkage agreements 
with at least three veterans employment service organizations, to 
bolster contractors' recruitment efforts and increase the number of 
veterans who are aware of, and subsequently apply for, openings with 
Federal contractors.
    <bullet>  Requiring contractors to conduct more substantive 
analyses of recruitment and placement actions taken under VEVRAA.
    <bullet>  Revising recordkeeping requirements to help contractors 
evaluate and tailor their recruitment and outreach efforts, and 
establish the hiring benchmarks proposed in the NPRM.
    <bullet>  Requiring contractors, for the first time, to establish 
annual hiring benchmarks. These benchmarks are expressed as the 
percentage of total hires who are protected veterans that a contractor 
will seek to hire the following year. By using benchmarks, contractors 
have a quantifiable measure for gauging their success in recruiting and 
employing protected veterans.
    <bullet>  Requiring contractors to invite applicants to self-
identify at both the pre-offer and post-offer stages of the hiring 
process. As proposed, prior to an offer of employment, the contractor 
is required to invite all applicants for employment to self-identify as 
a ``protected veteran.'' This allows the contractor and OFCCP to 
identify and monitor the contractor's employment practices with respect 
to protected veterans.

    The comment period for this proposed regulation closed on July 11, 
2011, and we are in the process of reviewing the comments in 
preparation for issuing a final rule.

    Mr. Filner. It is very frustrating for a Marine base to 
have $6 billion worth of contracts and my veterans community 
goes up there and they don't find any of their comrades 
working. That is very frustrating when it is your own 
government that is doing this.
    Ms. Fanning. Mr. Filner, I will also take that back to our 
Office of Acquisition, Logistics, and Contracting.
    But I did want to mention, as I briefly did in my opening 
remarks, that Vocational Rehabilitation and Employment as well 
as the GI Bill, encourages entrepreneurship. And we are working 
to help more veterans start and own their own businesses. We 
know that small business is the backbone of our American 
economy. I was just in Chicago last week speaking to a group of 
small business owners, and I was inundated after my talk, which 
was about the benefits of hiring veterans and the incentives to 
hire veterans, with employers wanting to know more about how to 
advertise their jobs on VetSuccess.gov. One particular employer 
told me, give me 50 veterans with bachelors degrees, and I will 
train them to do the work that I need them to do.
    So we are working aggressively to get the word out. And I 
think that is one of our biggest challenges, as many have 
mentioned this morning--
    Mr. Filner. If I may ask the Adjutant General, we have 
heard testimony today--and, of course, we know about the 
reluctance of many employers to even follow the law in terms of 
your own men and women, so what do we do about that? It was 
suggested that we have some incentives there.
    General Tyre. Number one, we utilize ESGR to follow through 
with those complaints. I will tell you in Florida over the last 
year, we have been able to resolve 77 of those issues, and we 
still have three remaining. But utilize that.
    We also use other things to where we don't get into that 
issue. We will do boss lifts with these employers. We invite 
them to pre-deployment training right there at Camp Blanding or 
at one of the other power projection platforms.
    But just take a proactive approach with their employers and 
let them know right up front that our soldiers are going to be 
downrange for 12 months, 13 months before they get back to 
them. But, again, just taking a proactive approach seems to 
work for us.
    The Chairman. Mr. Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman.
    Thank you for being here today. It is good to see you. I 
appreciate what you are doing and trying to accomplish, and I 
know we all have our veterans at heart here and want to make 
sure that especially those that are unemployed and are wanting 
to find work can. We can be as helpful as we can.
    I guess my question would be to Secretary Jefferson. Are 
you happy with the level of performance for the Jobs for 
Veterans State Grant program? If you could comment about that 
and what you are seeing as far as the success and where we can 
do better.
    Mr. Jefferson. Sir, I think my staff would tell you I am 
rarely satisfied with the performance and always wanting to do 
better. Let me drill down specifically on the Jobs for Veterans 
State Grants (JVSG) program.
    Since being confirmed, one of the first questions I had is 
how can this program be improved. As I looked around, there was 
no real data, there was no real feedback in recent years that 
we can use to make evidence-based decisions. So at the last 
HVAC hearing that we had, I initiated a structured dialogue 
with all the veterans employment coordinators around the Nation 
to get feedback on what is working, what is not, what are the 
employment opportunities. We are going ahead and analyzing that 
feedback right now.
    Simultaneously, without waiting, we are implementing a best 
practice called the Community of Practice. This came out of 
Iraq and Afghanistan in the Army, something called 
CompanyCommand 
.com. We are using that model. Basically, it is for a community 
of practitioners to share best practices over large 
geographical areas. So we are working to implement that this 
year.
    On the so-what factor, it will make sure that a DVOP or 
LVER who is highly performing in one State can share those 
practices and approaches that he or she has all throughout the 
Nation. And then, once we get the feedback from the veterans' 
coordinators, I will be taking other actions to improve that 
program.
    It is very valuable to have 2,000 employment 
representatives around the Nation, but I want to make sure we 
are continuing to up-skill them and ensure that they have the 
latest approaches and techniques to be as effective as 
possibly.
    Mr. Stutzman. Could you share just some of the best 
practices that you are talking about, just to give us a better 
idea and a sense of what--
    Mr. Jefferson. I would say we take three major questions 
that you may ask a local veterans' employment representative: 
What are you doing to mobilize your local community of 
employers? What types of outreach are you engaging in? Or let's 
take a DVOP. You have a veteran who is very physically 
challenged, and you have some employers who are interested in 
giving that veteran an opportunity but he or she maybe has 
questions or concerns on traumatic brain injury (TBI), post-
traumatic stress (PTS), post-traumatic stress disorder (PTSD). 
How do you deal with that?
    Well, one solution that we have is the American Heroes at 
Work program that educates employers on the accommodations that 
veterans with PTS, PTSD, or TBI have. A very highly regarded 
program. Are all employment representatives using it? Are they 
all aware of it? Also, mentoring and coaching. So a new DVOP or 
LVER in one part of the country can work with someone who may 
be in a different locale but who is known as being a thought 
leader, a very effective employment representative.
    So we want to get that community of practice, of mentoring, 
coaching, and sharing techniques. And the questions actually 
come from the participants. So they put up what they need help 
with and their peers provide answers. It was one of the top 10 
breakthrough ideas out of 2006 Harvard Business Review, came 
out of the Army and combat, and now they are using it for the 
four-star General officers. They are creating a community of 
practice for them, and that individual is going to be advising 
us on our community of practice--Nate Allen.
    Mr. Stutzman. General Tyre, do you have any comments 
regarding the programs?
    General Tyre. We have talked about leveraging technology 
and all the programs that are out there. It is difficult for a 
soldier, airman to look at all those programs and figure out 
which one is going to benefit him, which one is going to get 
him a job. They are all great programs, and they all add value 
to the issue. But unless we get someone to follow along with 
that soldier, to be there with him until he gets a job, that 
one-on-one personal contact until he gets a job, we are not 
following through with meeting the requirements of our 
soldiers. It takes that personal contact, that counseling, that 
is going to get a soldier to a job and to a career.
    Mr. Stutzman. Go ahead.
    Mr. Jefferson. So there is the high-touch approach for 
those veterans who are already out in the community. And then 
with the new transformed, redesigned TAP we have peer support 
techniques in there. We have entrepreneurship content in there. 
And we have connectivity to employer representatives in there 
as well. So we want to streamline that information flow.
    I know when I was coming out it was frustrating and 
annoying, frankly. But we are taking action, and my goal is to 
have a lot of these initiatives done by Veterans' Day this 
year.
    Mr. Stutzman. Thank you.
    The Chairman. Thank you very much.
    General, you had talked about a 30 percent unemployment 
rate among Guardsmen with the 53rd Infantry Brigade and 17 
percent, I think it was, among all members of the Florida 
National Guard. In your conversation with other leaders of 
other Guards from other States, do you think Florida's rates 
are unique or are they consistent with those other States?
    General Tyre. Sir, they are fairly consistent with other 
States. We will find some brigades like Iowa that are coming 
back and redeploying from downrange that might be a little bit 
higher. I know in Washington State when they brought the 81st 
back, they were a little bit higher than ours, but not much 
higher. The normal is somewhere between 30 and 35 percent from 
the BCTs, the brigade combat teams, that we have talked with.
    The Chairman. For the record, because I don't think you are 
going to be able to answer the question--you may be able to--
but it is my understanding the Midwestern Governors Association 
gave a proposal for the Employment and Training Administration 
for $170,000 to work on the issue of licensing and 
credentialing that we have discussed here today, but Labor 
refused to fund it because they don't do sole source contracts. 
Are you aware of that? If not--
    Mr. Jefferson. Sir, I will take it for the record.
    Let me give the high-level overview. We have that 
unsolicited proposal. I know it is being reviewed. We care very 
deeply about making progress on the issue of credentialing and 
licensing. The American Legion is going to be having a summit 
later this year. We are going to be participating at that. I 
understand that that planning has just begun to get under way, 
and I am sure many partners who are in the room today will be 
associated with that. But I would take the actual details of 
your question for the record.
    [The DoL subsequently provided the following information:]

                                           U.S. Department of Labor
                             Employment and Training Administration
                                                    Washington, DC.
                                                     March 21, 2011

Mr. Jesse Heier
Midwestern Governors Association
2025 M Street, NW
Suite 800
Washington, DC 20036

Dear Mr. Heier:

    Thank you for your proposal to the Employment and Training 
Administration (ETA), entitled Veterans Credentialing Initiative, which 
was forwarded to the Office of Policy Development and Research for 
review. ETA appreciates the importance of the transferability of 
training standards and credentials, and how it affects servicemembers 
as they transfer out of the military into the civilian workforce. We 
have carefully reviewed your proposal to increase the number of States 
in the Midwest that have reciprocity agreements for endorsing 
occupational licensing among States and with the military branches.
    The vast majority of grants for activities such as this one 
proposed by the Midwestern Governors Association, are awarded on a 
competitive basis in response to a solicitation for grant application. 
Since many aspects of the Midwestern Governors Association proposal are 
not unique and do not offer new and exceptional techniques, but rather 
propose to support discussions of interstate credentialing, there is no 
basis to support a non-competitive funding decision.
    Although ETA is not in a position to fund this proposal, we would 
invite you to closely monitor the ETA Web site (www.doleta.gov/grants) 
and www.grants.gov for future grant funding opportunities.
    While we receive many unsolicited proposals, very few obtain 
funding, Our budgetary resources are rather limited and are primarily 
used to support the competitive procurements mentioned above.
    Thank you for your interest in the public workforce system.

            Sincerely,
                                                   Michael S. Jones
                                               Acting Administrator
                          Office of Policy Development and Research

                               __________

    The Chairman. Very well.
    Any other comments?
    We thank you very much for your testimony and, again, your 
patience.
    Again, this Committee is fully committed to helping those 
veterans who want jobs, who need jobs, find jobs and have 
gainful employment. Because, after all, they have serviced and 
sacrificed for this country. Jobs is number one. This Committee 
is committed to working in that direction.
    All Members will have 5 legislative days to revise and 
extend their remarks and submit questions for the record.
    With no further comments, this hearing is adjourned.
    [Whereupon, at 12:31 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

                Prepared Statement of Hon. Jeff Miller,
             Chairman, Full Committee on Veterans' Affairs
    Good morning everyone. Thank you for being here. Our hearing today, 
``Putting America's Veterans Back to Work,'' is one of the most 
important ones we'll have this Congress and that is why I have decided 
to proceed with this hearing even though many of the Members on our 
side of the aisle are meeting with President Obama this morning. Just 
last week I, and other Committee Members, met with dozens of veterans' 
organizations who were nearly unanimous in making jobs for veterans 
their number one priority. I couldn't agree more.
    Lengthy unemployment can cause an unbelievable amount of strain. 
Bills don't get paid, savings can be exhausted, and family needs have 
to be put on hold. The financial strain of not having meaningful 
employment has a cascading effect for many--family problems, declining 
mental health, homelessness--we've got to get the economy going again 
to put Americans back to work, especially those who have protected our 
freedom to work in the first place.
    Growing the economy starts with the fundamentals: keeping taxes on 
small businesses low, which necessarily means holding Federal spending 
down; reducing burdensome and unnecessary regulations that increase 
costs to small businesses; and ensuring we have a trained, skilled 
workforce ready for 21st Century jobs in a 21st Century economy.
    It is this third area--ensuring a trained, skilled workforce--that 
the Veterans' Affairs Committee is primed to lead. There are a number 
of programs run by VA and the Department of Labor that have the 
potential to help. Our task is to see if those programs, as designed, 
are effective.
    Our responsibility is to modernize them to respond to the specific 
needs that exist for unemployed or underemployed veterans in our 
economy.
    Let me highlight a few areas where I think we need improvement.
    First, the unemployment rate among all veterans of the Global War 
on Terror has been reported to be as high as 13.1 percent. This high 
rate exists despite the fact that Transition Assistance Programs for 
separating servicemembers looking for work are available, as are 
Federally-funded veterans employment specialists within every State. We 
need to look at these programs anew to see how they can be improved.
    Second, training and education benefits through the new Post-9/11 
GI Bill and other programs are valuable tools for veterans. However, as 
currently designed, they do little good for middle-aged veterans far 
removed from military service who may need new skills to break out of 
unemployment. To highlight the point I'm making, on May 2, the 
Conference Board released its data showing there are nearly 4.5 million 
jobs advertised on the Internet. The Board's data also show the top 10 
career fields with a heavy presence of jobs requiring hard skills.
    To me, this shows that good jobs are out there, we just need to 
retool the programs we have to help our veterans compete for them.
    Finally, there are legal protections for Guardsmen and Reservists 
who left work to fight for our country. By law, they are entitled to 
have or go back to their jobs when they come home. We need to be 
aggressive in enforcement of this law.
    And just one more thing, we need to have a better understanding of 
the demographics of unemployed veterans. Things like education levels, 
lengths of unemployment, skills learned in the military, just to name a 
few. We will hear some of that from our witness from BLS but I believe 
it is time to expand the facts we know about unemployed veterans.
    As a beginning, I hope that today's witnesses can provide some 
insight into what we can do to help veterans get the jobs they want and 
deserve.
    I have some ideas of my own, so, to get the ball rolling, I will 
soon introduce a new jobs bill for veterans. The principles of my bill 
are simple:

    1.  We need to provide a meaningful retraining program for our 
older veterans who make up two-thirds of all unemployed veterans;
    2.  We need to ensure Transition Assistance Programs for our 
younger veterans are effective and, just as important, utilized when 
they separate from the military;
    3.  We need to add flexibility and accountability to Federally-
funded job training programs; and
    4.  We need to ensure we have updated legal protections for 
veterans who want their jobs back on their return from active duty, and 
we must do better enforcing those protections.

    I know Members will have other ideas as we go forward, but--keeping 
in line with the theme of this hearing--I'm anxious to roll up my 
sleeves and get to work. As with any work, we need to set goals and let 
me tell you what my goal is.
    I believe that an unemployment rate of between four and 5 percent 
is generally accepted to be full employment. So, I want to begin 
today's hearing by setting a goal to reduce unemployment among veterans 
from its current level of 7.7 percent down to about 4.5 percent. That 
means, using the Bureau of Labor Statistics' April data, we need to 
reduce the number of unemployed veterans from April's 873,000 down to 
around 470,000 or a reduction of about 400,000 veterans. I think we can 
do that and I invite every Member of the Committee to join me in 
achieving that goal; not overnight, but over the next year or 2 at the 
outside.
    I now recognize the Ranking Member for his opening remarks.

                                 <F-dash>
                 Prepared Statement of Hon. Bob Filner,
       Ranking Democratic Member, Committee on Veterans' Affairs
    Thank you, Mr. Chairman. The need to increase opportunities for 
veterans is now more important than ever. A growing number of 
servicemembers are returning home to find that securing and retaining 
their employment has become difficult.
    With their civilian counterparts facing the same struggles in 
today's economy, it can become difficult and frustrating for 
servicemembers who have been away for months to compete with their 
civilian counterparts.
    I remain concerned for our returning servicemembers that economic 
problems they face may lead to depression and other problems.
    For veterans 18-24 years old, this struggle is greater as many of 
them join the military right out of high school with little to no work 
experience.
    Since the 110th Congress we have reviewed barriers to employment, 
discussed hiring authorities, and learned about possible causes to high 
unemployment rates among younger veterans and female veterans.
    However, the common feedback that we get is that veterans lack 
transferable skills, employers violate the Uniformed Services 
Employment and Reemployment Rights Act (USERRA), and employer's 
misperceptions that returning servicemembers have mental health 
problems.
    Our veterans are the most loyal and dedicated individuals. They 
have leadership experience, and a track record of working well under 
pressure and punctuality. Any employer should be proud to have such 
hard working employees.
    In May 2010 I held an employment roundtable that included employers 
from the civilian sector, private sector, Federal agencies, and veteran 
service organizations. The roundtable helped us understand why 
potential employers were not hiring veterans. Some highlighted simple 
problems such as resume deficiencies, or in extreme cases--a lack of 
transferable skills. This was an invaluable roundtable in which I felt 
we made progress in better understanding the problem.
    I look forward to the testimony from all of our witnesses here 
today.
    Thank you Mr. Chairman, I yield back.

                                 <F-dash>
              Prepared Statement of Hon. Gus M. Bilirakis
    Chairman Miller, Ranking Member Filner, thank you for calling this 
timely hearing on putting our veterans back to work. Our Nation's 
veterans have made great sacrifices to keep us safe. During their 
service in the military they have been trained with important skills. 
In addition to dedication, hard work, and loyalty, many have gained 
technical and leadership skills that are transferrable and beneficial 
to the civilian workforce. I am particularly concerned that a stigma 
exists in the private sector that is contrary to the qualities these 
men and women have to offer to the civilian workforce.
    The Federal Government has made significant investments in our 
servicemembers' training, and it is critical that these men and women 
have the resources they need to successfully transfer their skill sets 
and continue contributing to society. We must ensure that warriors are 
not discriminated upon because of the wounds they suffer--be they 
physical or psychological--as a result of our Nation's wars. I look 
forward to using this hearing as a building block to develop ways to 
break down barriers to veterans' employment and foster their 
opportunities.

                                 <F-dash>
                 Prepared Statement of Hon. John Barrow
    Thank you Chairman Miller and Ranking Member Filner for holding 
this hearing.
    The employment challenges facing veterans are very real. The call 
to service does not always fit into a convenient schedule of job 
training. Often our servicemembers halt education and training 
opportunities to serve in combat. Today, they return as veterans to a 
daunting job market. This can be especially difficult for wounded 
warriors, who have additional challenges in every aspect of life.
    During the last district work week I had the opportunity to tour a 
facility in Vidalia, GA called the HARP Foundation. The HARP Foundation 
offers transitional housing and resources for homeless veterans. In 
particular, they help veterans find sustainable employment 
opportunities. Their goal is to provide mental health counseling and 
job training to the veterans in their own area. When veterans do find 
jobs, the HARP Foundation tries to help them find adequate 
transportation so they can keep their jobs in their local community.
    I look forward to hearing about ways the Department of Veterans 
Affairs and the Department of Labor can work to make the systemic 
changes to lower unemployment for veterans across the country. But I 
also would like to hear practical ways the Federal Government can work 
with and help grass roots organizations, like the HARP Foundation, to 
help veterans find good jobs in our local communities.

                                 <F-dash>
                Prepared Statement of Hon. Russ Carnahan
    Chairman Miller, Chairman Murray, Ranking Member Filner, thank you 
for hosting this hearing to discuss the important issue of putting 
America's veterans back to work.
    The Bureau of Labor and Statistics reports that in March and April 
of this year about 27 percent of veterans between 20 to 24 years of age 
were unemployed. Other sources show it to even be higher. These are 
truly disheartening numbers. After fighting to protect our country, we 
must make certain that our brave veterans are able to obtain a 
livelihood after returning from service.
    In this tough economy, jobs are hard to come by, particularly for 
newly returned veterans. Our young returning combat soldiers, and those 
severely injured during military service have the hardest time securing 
employment following military service.
    It is vitally important to ensure that our returning veterans are 
able to secure and maintain employment after returning to civilian 
life. Not only does employment offer salary and benefits, employment 
also provides an important sense of purpose and aides in the transition 
from military to civilian life. We in Congress must work with relevant 
stakeholders to guarantee that opportunities exist for our veterans to 
obtain gainful and meaningful employment.
    Today's hearing provides a dialogue between Congress and those with 
intimate knowledge of what needs to be done to get our veterans back to 
work upon their return from military service. Whether it is through job 
training or career counseling, we must allow access to services that 
prepare our veterans for careers outside of the military, and assist 
them as they transition to a world that is increasingly unfamiliar with 
the ways of the military. I look forward to hearing from our witnesses 
on ways we can begin to reduced unemployment and underemployment 
amongst our veterans.
                                 <F-dash>
                Prepared Statement of Richard A. Hobbie,
  Executive Director, National Association of State Workforce Agencies
    NASWA is pleased to respond to the request for comments by the 
House Committee on Veterans' Affairs on the issue of ``Putting 
America's Veterans Back to Work.'' The members of our Association are 
State leaders of the publicly-funded workforce development system vital 
to meeting the employment needs of veterans. This is accomplished 
through the Disabled Veterans' Outreach Program and the Local Veterans' 
Employment Representatives programs, and other programs and initiatives 
offered through the broader workforce development system. Our testimony 
includes the following points:

    <bullet>  The workforce development system provides services to all 
unemployed workers and jobseekers and maintains a substantial focus on 
serving the needs of veterans. The system, because of limited funding, 
serves as many individuals as possible by providing tools for customers 
to help themselves without significant staff assistance.
    <bullet>  A vital component of our member's service to veterans is 
to ensure a viable labor exchange exists and is readily available to 
veterans, employers and those who will help them in their efforts. 
NASWA does this in partnership with DirectEmployers Association (DE) 
through the National Labor Exchange (NLX).
    <bullet>  The NLX is an automated initiative operating on the 
Internet. It aims to collect all verifiable job openings in the country 
and share those job openings at no cost with State workforce agencies 
and job seekers. The jobs are verified to help job seekers avoid scams, 
such as identify theft schemes or false promises of high earnings for 
working at home.
    <bullet>  Providing sufficient services to veterans, while a 
priority of our system, is a challenge. Unemployment remains high, and 
nominal resources available to our members have been reduced recently 
and in the case of the Employment Service (ES) have been unchanged for 
almost 30 years.
    <bullet>  Beyond decreasing real funding as an obstacle in serving 
veterans, there are many other critical obstacles affecting veterans' 
employment opportunities including: (1) Credentialing--the inability 
for veterans to provide formal civilian credentials and certifications, 
even though they might have received equivalent training while in the 
military; (2) Inability to identify where veterans with certain skills 
are located--there is no reliable nationwide information source 
identifying where employers with specific needs should focus veteran 
recruitment efforts; (3) Identifying the right online resource for 
veterans hiring--Employers say there is confusion over the 
proliferation of Web sites and services aiming to facilitate veterans' 
employment; (4) Translating Military Occupational Classification to 
civilian jobs--many veterans have difficulty ``translating'' military 
skills and experiences into the civilian world; (5) UI Reemployment and 
Connectivity--The advent of remote claims taking technology has enabled 
States to offer UI claims services either online or via telephone, 
disrupting the connection of the UI claimant from the workforce system; 
and, (6) USDoL Regulations--OFFCP has proposed regulations that will 
make Federal contractors' connection and recruitment of veterans erode 
further.

                               __________
    Chairman Miller, Representative Filner and Members of the 
Committee, on behalf of the National Association of State Workforce 
Agencies (NASWA), I thank you for the opportunity to submit written 
testimony and to appear before you today to discuss the efforts of our 
members to promote and create jobs for veterans.
    The members of our Association are State leaders of the publicly-
funded workforce development system vital to meeting the employment 
needs of veterans. This is accomplished through the Disabled Veterans' 
Outreach Program (DVOP) and the Local Veterans' Employment 
Representatives (LVER) programs, as well as other programs and 
initiatives offered through the publicly-funded workforce system.
    NASWA serves as an advocate for State workforce programs and 
policies, a liaison to Federal workforce system partners, and a forum 
for the exchange of information and practices. Our organization was 
founded in 1937. Since 1973, it has been a private, non-profit 
corporation, financed primarily by annual dues from member State 
agencies.
    Helping veterans make a successful transition from their service in 
the military to successful civilian careers remains a significant 
challenge. In March, the Bureau of Labor Statistics reported the 
jobless rate for veterans of all eras combined was 8.7 percent, 
compared with 9.4 percent for nonveterans. However, the unemployment 
rate for veterans who served in the military at any time since 
September 2001 --a group referred to as Gulf War-era II veterans -- was 
11.5 percent in 2010. Further, about 25 percent of Gulf War-era II 
veterans reported having a service-connected disability in July 2010, 
compared with about 13 percent of all veterans.
    I would like to emphasize NASWA and our members seek the same 
outcomes for veterans that the Committee does, to help our 
servicemembers quickly find meaningful employment opportunities that 
lead to successful careers when they leave the service of our country.
A Snapshot of Today's Workforce Development System
    While the workforce development system provides services to all 
unemployed workers and jobseekers it maintains a substantial focus on 
serving the needs of veterans. Today's workforce system provides 
customers with assistance either to gain immediate entry to employment 
or to receive a range of services (including training) for successful 
entry into jobs and careers. The Unemployment Insurance (UI) program 
provides temporary wage replacement for individuals with a civilian or 
military work history. The Employment Service (ES) provides labor 
exchange services and information to help individuals find and compete 
for jobs, while services provided through the Workforce Investment Act 
(WIA) supports various activities through local One-Stop Career Centers 
including:

    1.  Core Services. These services include labor market information, 
initial assessment of skill levels, and job search and placement 
assistance. Most core services can be described as self-services and 
include: resource rooms, computers, internet access, job listings, 
resume writing, workshops on interviewing skills, etc. WIA core 
services are sometimes called labor exchange services.
    2.  Intensive Services. These services are for individuals needing 
more than core services to obtain or keep employment leading to self-
sufficiency. These services are designed to prepare the individual for 
employment and include: comprehensive and specialized assessments of 
skill levels; development of individual employment plans; group 
counseling; individual counseling and career planning; case management; 
and, short-term prevocational services.
    3.  Training Services. Access to training programs may be available 
to individuals who have met the eligibility requirements for intensive 
services but are unable to obtain or retain employment. Through One-
Stop Career Centers, individuals are evaluated to determine whether or 
not they are in need of training and if they possess the skills and 
qualifications needed to participate successfully in the training 
program in which they express an interest. Training services must be 
directly linked to occupations in demand.

    The workforce system is designed to help individuals assess their 
skills and interests and receive vital information about current labor 
market demands for new and existing employees. The system, because of 
limited funding has focused on serving as many individuals as possible 
and providing the tools for customers to help themselves as much as 
possible without significant staff assistance.
    The performance measures metrics for the system reflect this `self-
help' approach, and include: (1) entered employment, (2) employment 
retention, and (3) average earnings in subsequent employment. While 
``job placement'' might be a desired activity, the realities of a high 
volume of customers and limited funding force States to rely 
substantially on self-help approaches and the myriad of ways workers 
find jobs on their own besides placement by an employment agency or 
one-stop career center.
    The organizational structure of the workforce system varies across 
States. However, veterans may access all available workforce services 
under a Priority of Service (POS) mandate set forth by the U.S. 
Department of Labor (USDoL). So, while LVERs and DVOPs deal exclusively 
with job-seeking veterans, the entire workforce development system is 
geared to give priority of service to veterans.
    While the majority of individuals receiving WIA services receive 
lower-cost core and intensive services, these services have been found 
to be beneficial as well as highly cost-effective. For example, it is 
estimated by Louis Jacobson in a Brookings Institution paper through 
the Hamilton Project that job search assistance-related services 
provide $4.5 dollars of benefit for every $1 spent. This type of return 
on investment, coupled with the dire state of the economy and the need 
to support returning veterans and other Americans striving to get a 
foothold in the workplace brings to focus the value of the workforce 
system's services
    In terms of income support, veterans upon separation from the 
military are eligible for the Unemployment Compensation Program for Ex-
Servicemembers (UCX) and are expected to be able to work, be available 
for work and to actively seek work with the help of reemployment 
services provided through the workforce system.
    My testimony will review the activities our members have underway 
to assist veterans and provide some illustrative information from three 
States: Minnesota, Florida and Texas. You also requested data on eight 
identified variables concerning veterans. I will provide some 
information from our existing reporting systems (Table 1), but some of 
the data requested are not available. NASWA will follow-up with your 
Committee to see if there might be other ways to capture the 
information.
Special Workforce System Efforts to Serve Veterans: Examples from Three 
        States
    Mr. Chairman, first I would like to describe two activities 
currently underway in my own State of Minnesota.

    1.  Our Featured Employer Pipeline/Qualified Applicant List. 
Because many Minnesota employers call us looking to hire veterans, we 
started a pilot project directing job-ready, highly-skilled veterans to 
jobs in these companies. Our LVERS and Business Services 
Representatives have established working relationships with key H.R. 
personnel and hiring managers to create a direct ``pipeline'' of 
veteran referrals to actual hiring managers within these ``featured 
employers.'' Short-term results are very positive, and we look forward 
to continued success.
    2.  Our Statewide Veterans ``Beyond the Yellow Ribbon'' Career 
Fair. This event attracts about 1,000 of ``Minnesota's Finest'' 
veterans who are looking for career opportunities and educational 
options. Each year 80 to 90 of Minnesota's best employers register for 
this event aimed at putting job seeking veterans together with 
Minnesota business anxious to hire veterans. May 3, 2011 marked our 5th 
year for this event, which, according to businesses and veterans alike 
``just keeps getting better.''

    In Florida the State's Office of Workforce Services has:

    1.  Created a Veteran's Portal which serves as a gateway to 
information and resource links that assist veterans, their families and 
employers help veterans achieve their employment goals. The portal has 
been accessed from virtually every theater of deployment where U.S. 
veterans are stationed.
    2.  Aggressively sought additional resources to assist the Homeless 
Veterans Reintegration Program receiving grants totaling $925,178, to 
assist Homeless Female Veteran and Veterans with Families grants 
receiving grants totaling $437,974: and
    3.  At the Regional workforce level has instituted a number of 
focused activities including:

        <bullet>  Providing direct employment services to local 
veterans;
        <bullet>  Working closely with the local Chambers of Commerce;
        <bullet>  Establishing direct contact with local employers;
        <bullet>  Working with related Federal programs administered by 
the Agency for Workforce Innovation (AWI), such as the Work Opportunity 
Tax Credit (WOTC) and Federal Bonding program; and
        <bullet>  Conducting a series of local Job fairs for veterans.

    In Texas, the Texas Workforce Commission (TWC) has:

    1.  Created special features to serve veterans on its free public 
labor exchange system, WorkInTexas.com, including:

        <bullet>  Flags to identify veterans to employers and staff;
        <bullet>  A two-day hold on all newly created job postings, to 
ensure veterans get first review;
        <bullet>  Ability for employers to designate job postings as 
``Veteran Applicants Only'';
        <bullet>  Numerous job search options for veterans, including 
viewing ``Veteran Applicant Only'' and Federal Contractor job postings; 
and
        <bullet>  Notification of Priority of Service (and 
identification) to all veterans upon entry into the system and at 
certain subsequent reentry points.

    2.  The TWC also is developing a statewide comprehensive veteran's 
initiative (College Credit for Heroes) to maximize the military 
experience of veterans for college credit and employment. Last April, 
the Commission agreed to move forward on this $3 million statewide 
initiative that will award veterans college credit through testing and 
evaluation of prior learning. In addition, TWC will create a 
partnership between the State's community colleges and the Military 
Education Training Center (METC) in San Antonio to provide current 
active duty servicemembers with an accelerated degree plan to attain a 
associate's and bachelor's degrees in conjunction with military 
training.

The National Labor Exchange
Background
    A vital component of the process to help our servicemembers find 
meaningful employment opportunities when they leave the service of our 
country is to ensure a viable labor exchange exists and is readily 
available to veterans and those who will help them in their quest. To 
this end, NASWA in partnership with DirectEmployers Association (DE) 
has created a National Labor Exchange (NLX).
    The NLX allows NASWA and its State and business partners to have a 
direct involvement in making job connections for our Nation's veterans. 
Beginning in 2007, NASWA began offering the NLX to its State workforce 
agency members as a free electronic labor exchange service. The NLX is 
an automated initiative aiming to collect all verifiable job openings 
in the country and share those job openings with State workforce 
agencies and, ultimately, jobseekers.
    The NLX differs from other major internet job aggregators in that: 
(1) job postings are unduplicated and current, helping jobseekers 
connect to real openings, (2) employers are verified to avoid risky 
scams, such as identify theft or false promises of high earnings 
working from home; and (3) it is a unique public-private initiative 
offered at no cost to the Federal Government, to State workforce 
agencies, and to their employer and jobseeker customers.
    NLX's technical operations are led by DirectEmployers Association 
(DE). DE is a trade association of over 660 Fortune 1000 companies 
represented by their human resource directors. DE's mission is to 
provide a cost-effective national employment system that improves labor 
market efficiency and reflects our Nation's diverse workforce. Since 
2000, its flagship service has been running a sophisticated job search 
and ``spidering'' engine that captures employer job openings and 
provides the content to many Web sites and aggregators.
    In March 2007, NASWA endorsed JobCentral as the successor to 
America's Job Bank (AJB) that was funded by the U.S. Department of 
Labor (USDoL). AJB was a national public job-bank defunded and shut-
down by the USDoL in June 2007. After an intensive evaluation process, 
NASWA and its members endorsed JobCentral as the means to create the 
NLX.
Status and Benefits
    Since March 2007, the NLX has collected delivered over 9 million 
unique and verified job postings to State workforce agency staff and 
customers. Of the 9 million job postings, over 4 million came from 
Federal contractors--a group of employers that has special obligations 
to demonstrate it is recruiting and hiring veterans. Also, since 2007, 
over 150,000 employers of all sizes have used this system, entering the 
system either through the national site (www.jobcentral.org) or via 
State job banks. Today, 49 State workforce agencies, plus the District 
of Columbia, have signed participation agreements, sharing their own 
job posting content and transforming JobCentral into the NLX. Talks are 
underway with the remaining State and one territory to join the 
alliance.
    The NLX has allowed participating State job-banks to receive 
thousands of job postings via electronic download from: (1) employers 
typically not listing with the public workforce system, (2) the U.S. 
government (USAjobs.gov), and (3) from neighboring State workforce 
agencies. NLX job postings are updated daily, avoiding duplication and 
ensuring real job opportunities are made available, conditions key to 
offering jobseekers a better experience and making real job 
connections.
    In addition, the NLX has allowed State workforce agencies to 
transmit job postings--and links to other valuable services--to 
government sites such as the Employer Partnership of the Armed Forces 
involving all branches of the Reserves and the National Guard 
(www.employerpartnership.org), the Veterans Administration's (VA) 
www.Vetsuccess.org site (targeting disabled veterans), and DoL's 
mySkillsmyFuture.org site.
    The NLX also provides State workforce agencies and employers access 
to an online free tool called ``Analytics.'' This allows workforce 
agencies and employers to view traffic information about jobseekers' 
click-throughs from State job banks to employers' corporate job 
application systems. Since the rollout of Analytics, State job banks 
have consistently ranked among the top ten sites providing employers 
with traffic to their corporate job application systems. In addition, 
the analytics platform demonstrates the types of jobs of interest to 
jobseekers within specific geographic areas. This information, in 
combination with the list of NLX jobs existing within an area, can be 
powerful in determining future labor demand, available supply, and 
needed training programs, all of which help States offer better 
services to veterans and all citizens.
Creating and Leveraging a Compliance Service for Employers
    The NLX offers a compliance mechanism for Federal contractors 
called VetCentral. The VetCentral service was designed to provide DE 
members compliance with the Vietnam Era Veterans' Readjustment 
Assistance Act (VEVRAA) as amended by the Jobs for Veterans Act (JVA). 
Beyond simply meeting the letter of the law, VetCentral strives to meet 
the spirit of the law, by bringing job openings directly to the hands 
of the State staff working with veterans.
    Per current regulations, VetCentral sends daily emails of Federal 
Contractor Job Listing (FCJL) jobs to the ``appropriate local 
employment service delivery system.'' The emails are directed to LVERs 
and DVOPs along with other staff as designated by the State workforce 
agencies. The user-friendly emails contain links to the FCJL job 
postings and a ``how to apply'' link. The NLX has received positive 
responses from field staff who use these emails every day in referring 
veterans. While State workforce agencies designate who receives emails, 
there is also a process to review and correct current email addresses 
used by VetCentral. All FCJL jobs, sent via email to produce a tangible 
audit trail, are also available for direct download into States' job 
banks through the broader NLX initiative.
    We believe current regulations published in Federal Register 41 CFR 
Part 60-300 have been vital in encouraging the creation of the NLX. 
While they have prompted the creation of a VetCentral process that 
delivers FCJL job postings, they also have created the opportunity for 
the NLX to flourish, bringing in a large number of other job 
opportunities to State job banks. Since the workforce development 
system offers many core self-services via priority of service to 
veterans, enhanced job bank content helps benefit veterans' employment.
Expanding NLX Jobs Content
    This year, in an effort to increase the number of verified and 
unduplicated job postings, NLX partners are focusing on expanding the 
use of the NLX's free indexing (an automated, daily service that 
``scrapes'' job postings from individual employer Web sites and other 
resources). State workforce agency staff is invited to make connections 
with employers who currently do not list with the public workforce 
system and offer to collect job openings residing on corporate Web 
sites through an indexing process. The NLX would then function as the 
free technology collecting job postings from such corporate Web sites 
via indexing and adding them to this national job exchange system.
    The successful continued operation of the NLX and improvements 
discussed above are extremely valuable in helping veterans navigate a 
diverse, complex labor market. NASWA asks for your support in raising 
awareness of this effort, which will increase the number of job 
postings and expand employers' awareness of the services available 
through the workforce development system.
Challenges
    Providing sufficient services to veterans is a priority of our 
workforce system, yet presents several challenges. Unemployment remains 
high, the ratio of job seekers to available jobs is still much higher 
than we would like (reported in February of this year as 5.9 seekers 
for every job vacancy compared to a ratio of 1.7 in December 2007) and 
the skills required for the jobs that are available are different than 
those required even a few years ago. Nominal resources available to our 
members have been reduced recently, and in the case of the ES have been 
unchanged for almost 30 years.
    Beyond the system's concerns with ever decreasing real funding as 
an obstacle in serving veterans, there are many other critical areas 
affecting veterans' employment rates:

    1.  Credentialing. Through our NLX employer partners we learned one 
of the most critical obstacles to the employment of veterans is the 
inability to secure formal credentials and certifications, even though 
they have received equivalent training while in the military. Veterans 
must spend resources including valuable time to acquire formal civilian 
credentials when many already possess the skills.
    2.  Inability to identify where veterans with certain skills are 
located. Again through our NLX employer partners we learned there is no 
reliable nationwide information source identifying where employers with 
specific needs should be focusing their veteran recruitment efforts. 
The workforce system also has minimal access to this type of 
information.
    3.  Identifying the right online resources for veterans hiring: 
Employers have indicated there are many sites and services aiming to 
facilitate veterans' employment. Employers must dedicate resources and 
staff to wade through a great amount of well-meaning sites to identify 
qualified veteran talent. While this is a real concern, how today's 
jobseekers and younger veterans search for jobs will continue to be 
multi-faceted, from personal contacts to exploring and applying on many 
online sites.

          One solution is to create ``super'' employment portals 
seeking to channel jobseekers and veterans' behavior, and influence 
employers' recruitment strategies. However, this often results in Web 
sites with frustrating multiple links to other sites, duplicate jobs, 
closed jobs, and difficult navigation in finding pertinent information 
(such as assessments, where to go for in-person help, etc.). We believe 
jobseekers and employers will continue to use multiple approaches in 
searching for jobs and the fluid nature of the online world will 
continue to be a reality. Our focus, as a public workforce system, is 
to continue nurturing the NLX as the resource providing verified job 
postings to relevant outlets involved in connecting job-seeking 
veterans with either the State workforce agency or the recruiting 
employer.

    4.  Inability to translate Military Occupational Classification 
(MOC) to civilian jobs: A common issue identified by employers is 
veterans' inability to ``translate'' their skills and experiences into 
the civilian world. An MOC crosswalk to the Occupational Network 
(O*NET, the officially accepted ``language'' used to describe 
occupational skills) has been completed by USDoL and can be used quite 
successfully. Unfortunately, spreading the word of its existence and 
increasing its use are dependent on limited funding and an overburdened 
workforce development system staff. NASWA's NLX partner, 
DirectEmployers Association, has used this crosswalk, building the 
ability for veterans to enter MOCs online and receive back NLX jobs 
relevant to the entered MOC.
    5.  UI Reemployment and Connectivity: The recent recession has 
brought a renewed focus on connecting UI claimants with reemployment 
services. As I noted earlier, veterans upon separation from the 
military are eligible for the Unemployment Compensation Program for Ex-
Servicemembers (UCX). The advent of remote claims-taking technology has 
enabled States to take UI claims online or via telephone. This has 
disrupted the connection of veterans and other UI claimants to 
workforce system services to differing degrees in the States.

          NASWA through its Information Technology Support Center 
(ITSC) has undertaken a project to support States in developing new 
strategies to connect unemployment insurance claimants to the workforce 
system. In partnership with USDoL, ITSC has developed a national vision 
and implementation plan for better connecting unemployment insurance 
claimants to the workforce system both electronically and in person. 
Currently we are working on the development of systems to implement the 
plan which include integrated UI-workforce customer registration, 
transferability of skills analysis, and use of social networking.

    6.  Obstacles Created by USDoL Regulations: Recently the Office of 
Federal Contract Compliance Program (OFCCP), USDoL, has released a 
Notice for Proposed Rulemaking (NPRM) to govern the procedures Federal 
contractors must follow to demonstrate their efforts to recruit and 
hire qualified veterans. While OFCCP said it consulted with State 
officials, the proposed regulations appear to have been developed 
without formal input from State workforce agencies' leadership.

          As a result, the proposed regulations make certain 
assumptions about the nature of the workforce development system 
activities which are inaccurate. For example, the proposed regulations 
assume the bulk of workforce system dollars are focused on out-dated 
referral or placement processes and reinterpret the system's mandate 
for ``priority of service'' to veterans as ``priority referrals.'' The 
reality is, declining funding and increasing demand, and a requirement 
to be a universal system, has led most State activities to focus on the 
provision of core self-services, not referrals or placements. While 
States continue to provide intensive and training services, the extent 
to which these can be provided has been curtailed substantially.
          Based on this unrealistic framework, OFCCP's new reporting 
requirements for Federal contractors asks employers to document job 
referrals of veterans that are received from State workforce agencies 
(outside the LVER and DVOP programs). The proposed regulations ask 
Federal contractors for a 5-year collection of data on direct 
``referrals'' received from State workforce agencies (this does not 
include veterans applying for jobs on their own that they saw posted on 
the State job bank), applicant status (veteran and disability, and 
hires from ``referrals'' received from State workforce agencies.
          By programmatic design and fiscal necessity, the workforce 
system functions as a provider of information and tools for jobseekers 
and employers. Focusing on ``referrals'' is an out-dated approach in a 
system expected to meet entered employment, employment retention, and 
wage level goals. Some LVERs and DVOPs might still work on a limited 
number of referrals. However, the ES and WIA workforce development 
programs have the same three performance measures toward which ETA and 
VETS expects States to work. In fact, the notion of ``referrals'' has 
been abandoned by USDoL and the States consciously as it reflects an 
increasingly out-dated way of thinking about how jobseekers search for 
and find jobs.
          While Federal contractors will comment on the virtue and 
burden of those new requirements to the employer community and the 
resulting further obstacles in hiring veterans, NASWA also is concerned 
about the unfunded reporting burden these regulations will create for 
States workforce agencies, who will be asked to confirm information 
employers offer during OFCCP audits, further splintering dollars and 
resources meant to serve veterans.
          Finally, there is a concern the proposed regulations will 
have the unintended effect of decreasing the number of job openings 
currently found within State job banks. This stems from language in the 
NPRM eliminating the ability of Federal contractors to list 
simultaneously within multiple State job banks. Instead, the NPRM 
appears to require Federal contractors to provide jobs to States by 
manually posting them within each State job bank for the purposes of 
tracking limited referrals. This is an excessive burden on employers. 
It will lead to some employers posting jobs in fewer States. State 
workforce agencies who receive thousands of job listings on a daily 
basis via direct downloads will ultimately see their offerings to 
veterans reduced.
    NASWA and its members remain dedicated to improving the efficiency 
of the labor market and its labor exchange function, and improving the 
employment opportunities of our Nation's veterans. We are willing to 
assist the Committee and the U.S. Department of Labor in any way 
possible.
    Thank you for the opportunity to address these important issues.

                               __________
                             SELECTED DATA

                                         Level of education of Veterans
----------------------------------------------------------------------------------------------------------------
                          Educational Attainment by Veteran Status Percent distribution
-----------------------------------------------------------------------------------------------------------------
                                                           Less than a   High school  Some college
                     Veteran status                        high school  graduate, no  or associate     College
                                                             diploma       college       degree       graduate
----------------------------------------------------------------------------------------------------------------
Nonveterans                                                       14.3          30.8          27.6          27.2
----------------------------------------------------------------------------------------------------------------
Veterans                                                           7.4          32.7          32.8          27.1
----------------------------------------------------------------------------------------------------------------
Gulf War-era II veterans                                           1.5          29.2          45.9          23.4
----------------------------------------------------------------------------------------------------------------
Gulf War-era I veterans                                            1.5          28.0          41.4          29.1
----------------------------------------------------------------------------------------------------------------
WWII, Korean War and Vietnam-era veterans                         10.2          32.3          28.9          28.6
----------------------------------------------------------------------------------------------------------------
Source: Bureau of Labor Statistics, Current Population Survey, annual averages 2009, at: www.bls.gov/spotlight/
  2010/veterans.


                                  Length of Unemployment after leaving Service
----------------------------------------------------------------------------------------------------------------
             Labor Market Activity of Young Veterans Percent of veterans ages 18 to 24 in 1998-2008
-----------------------------------------------------------------------------------------------------------------
  Number of months since separation  from the                                                 Not in the labor
                 Armed Forces                         Employed             Unemployed               force
----------------------------------------------------------------------------------------------------------------
1                                                               42.2                  23.8                  34.0
----------------------------------------------------------------------------------------------------------------
2                                                               51.0                  21.6                  27.4
----------------------------------------------------------------------------------------------------------------
3                                                               58.4                  18.6                  23.0
----------------------------------------------------------------------------------------------------------------
4                                                               60.5                  15.9                  23.6
----------------------------------------------------------------------------------------------------------------
5                                                               65.4                  14.9                  19.7
----------------------------------------------------------------------------------------------------------------
6                                                               65.1                  12.5                  22.3
----------------------------------------------------------------------------------------------------------------
7                                                               69.9                  11.2                  18.9
----------------------------------------------------------------------------------------------------------------
8                                                               68.6                  11.3                  20.1
----------------------------------------------------------------------------------------------------------------
9                                                               69.5                  11.9                  18.6
----------------------------------------------------------------------------------------------------------------
10                                                              71.7                  11.2                  17.1
----------------------------------------------------------------------------------------------------------------
11                                                              74.8                  10.0                  15.2
----------------------------------------------------------------------------------------------------------------
12                                                              78.6                   8.7                  12.7
----------------------------------------------------------------------------------------------------------------
13                                                              79.4                   7.5                  13.0
----------------------------------------------------------------------------------------------------------------
14                                                              78.4                   7.5                  14.1
----------------------------------------------------------------------------------------------------------------
15                                                              75.8                   7.2                  17.0
----------------------------------------------------------------------------------------------------------------
16                                                              78.3                   7.6                  14.1
----------------------------------------------------------------------------------------------------------------
17                                                              75.5                   8.1                  16.3
----------------------------------------------------------------------------------------------------------------
18                                                              79.0                   6.0                  15.0
----------------------------------------------------------------------------------------------------------------
19                                                              76.6                   9.9                  13.5
----------------------------------------------------------------------------------------------------------------
20                                                              80.9                   6.4                  12.8
----------------------------------------------------------------------------------------------------------------
21                                                              82.0                   7.1                  10.9
----------------------------------------------------------------------------------------------------------------
22                                                              80.8                   7.0                  12.2
----------------------------------------------------------------------------------------------------------------
23                                                              82.5                   4.9                  12.5
----------------------------------------------------------------------------------------------------------------
24                                                              84.0                   5.6                  10.4
----------------------------------------------------------------------------------------------------------------
Source: Bureau of Labor Statistics, National Longitudinal Survey of Youth 1998-2008 at: www.bls.gov/spotlight/
  2010/veterans.


        Age of Veterans Served by the Workforce Investment System
------------------------------------------------------------------------
     Age of veterans served in WIA Age at Participation (# in 000's)
-------------------------------------------------------------------------
           18 to 21     22 to 29      30-44        45-54         55 +
------------------------------------------------------------------------
Veteran          3.9          8.2          6.3          9.2          5.7
------------------------------------------------------------------------
Disable          0.5          1.1          0.9          1.2          0.9
 d
------------------------------------------------------------------------
Campaig          1.0          1.8          1.2          2.0          1.6
 n Vet
------------------------------------------------------------------------
Recentl          0.8          0.9          0.7          1.0          1.1
 y
 separa
 ted
 vetera
 n
------------------------------------------------------------------------
Other            0.1          0.2          0.1          0.2          0.2
 eligib
 le
 person
------------------------------------------------------------------------
Source: DoL Employment and Training: PY 2009WIASRD Data Book.



                           Entered Employment Rate and Salary: 3rd Quarter after exit
----------------------------------------------------------------------------------------------------------------
                                                Veterans Programs
-----------------------------------------------------------------------------------------------------------------
                  Exiters from Oct 2008 to Sept 2009                      Exiters from April 2008 to March 2009
----------------------------------------------------------------------------------------------------------------
                                            Entered       Credential                    Retention
           Number of Exiters              Employment   Attainment Rate    Number of    2nd and 3rd     Average
                                           Rate (%)          (%)           Exiters    Quarters (%)  Earnings ($)
----------------------------------------------------------------------------------------------------------------
26,469                                           54.7             42.8        24,434          76.4        14,932
----------------------------------------------------------------------------------------------------------------
Source: DoL Employment and Training: PY 2009WIASRD Data Book.


                                 <F-dash>

                Prepared Statement of Jolene Jefferies,
   Vice President, Strategic Initiatives, DirectEmployers Association
                           EXECUTIVE SUMMARY
    Founded in 2001 and headquartered in Indianapolis, Indiana, 
DirectEmployers Association (DirectEmployers.org) is owned and managed 
by over 600 leading U.S. corporations through a 501(c)(6) non-profit 
employer consortium. The Association's mission is to provide employers 
an employment network that is cost-effective, improves labor market 
efficiency and reaches an ethnically diverse national and international 
workforce.
    Primary issues and obstacles our member employers say they face in 
recruiting veterans are:

    <bullet>  Clarification--While a majority of employers believe 
VEVRAA regulations are effective, it was noted that further 
clarifications are needed (e.g., the OFCCP's standards to evaluate Good 
Faith Efforts (GFE) by Federal contractors is inconsistent between 60-
2(AA for Women and Minorities) and 60-250 (AA for Veterans).
    <bullet>  Skills/Education Translation--The military workforce is 
challenged with the translation and transference of their education and 
skills to demonstrate their possession of the minimum and preferred job 
qualifications and/or requirements for which civilian employers seek.
    <bullet>  Military/Civilian Certification--Several professions 
require accredited specialization that involves learned knowledge, 
certification and/or testing by a job seeker. Transitioning military 
workforce may be at a disadvantage without such accreditations. All 
levels of government need to implement solutions that effectively 
balance current challenges with educational system gaps, the 
accreditation of job seekers, and the fiscal demands and resources of 
civilian employers.
    <bullet>  Lack of Data--There is no reliable data source that takes 
into account the available pool of the military workforce that 
demonstrates the correlation of standardized job, industry, and 
geographic classification codes that are consistent with other reported 
Federal labor, employment, economic, and census data.
    <bullet>  OFCCP Consistency--Federal contractors have experienced 
challenges from the OFCCP, especially during compliance evaluations, 
two concurrent phenomena that hampers collaboration: 1) their knowledge 
and appreciation of how State workforce agencies operate, and 2) their 
dissemination of communications, staff training, and application of 
standards and procedures across and between their national, regional 
and district offices consistently.

                               __________
    Chairman Miller, Representative Filner, and Members of the 
Committee, on behalf of DirectEmployers Association, I thank you for 
the opportunity to submit written testimony addressing our 
Association's Veterans' education, employment, and job search programs 
for employers. DirectEmployers Association and its members are strong 
proponents of activities benefiting the employment of qualified 
veterans through programs such as those under the Committee's 
jurisdiction.
    Founded in 2001 and headquartered in Indianapolis, Indiana, 
DirectEmployers Association (DirectEmployers.org) is owned and managed 
by over 600 leading U.S. corporation executives through a 501(c)(6) 
non-profit employer consortium. The Association's mission is to provide 
employers an employment network that is cost-effective, improves labor 
market efficiency and reaches an ethnically diverse national and 
international workforce.
    Consistent with our mission, we partnered with The National 
Association of State Workforce Agencies (NASWA) in 2007 to create the 
JobCentral National Labor Exchange (NLX). The NLX replaced the 
previously federally-funded America's Job Bank and provides employers 
an OFCCP compliance vehicle for providing job listings to veterans as 
well as access to our Nation's State workforce system. It is available 
free-of-charge to all employers, regardless of size, in all industries.
    For most employers, OFCCP compliance is not the driving force. We 
are seeing more and more companies establishing programs to pro-
actively recruit veterans because they provide such an outstanding 
talent-pool resource. The Association assists employers' efforts in 
many ways. We provide an outstanding Hiring & Retaining Veterans 
webinar education and training series, job search programs, and job 
distribution services to help member companies recruit our Nation's 
servicemembers and their dependents. The focus of these programs is on 
helping transitioning servicemembers, veterans and their families find 
and maintain meaningful employment.
    In a recent in-house survey, some of the issues and obstacles our 
member employers say they face in recruiting veterans are:

    <bullet>  While a majority of employers believe VEVRAA regulations 
are effective, it was noted that further clarifications are needed 
(e.g., the OFCCP's standards to evaluate Good Faith Efforts (GFE) by 
Federal contractors is inconsistent between 60-2(AA for Women and 
Minorities) and 60-250 (AA for Veterans).
    <bullet>  Because employers utilize a ``just-in-time'' hiring 
process, employers would benefit from learning about DoL, DoD, and 
related Federal and State employment services that support this model 
(e.g., recognizing that turnover in H.R./Recruiting departments is 
dynamic and sometimes involves knowledge transfer gaps; as well as 
utilizing the Internet, social media platforms and related technologies 
are becoming commonplace; the impact of this is that companies are 
seeking to leverage cost/time-effective resources that provide 
immediate recruiting solutions).
    <bullet>  The military workforce is challenged with the translation 
and transference of their education and skills to demonstrate their 
possession of the minimum and preferred job qualifications and/or 
requirements for which civilian employers seek.
    <bullet>  Several professions require accredited specialization 
that involves learned knowledge, certification and/or testing by a job 
seeker. Transitioning military workforce may be at a disadvantage 
without such accreditations. All levels of government need to implement 
solutions that effectively balance current challenges with educational 
system gaps, the accreditation of job seekers, and the fiscal demands 
and resources of civilian employers.
    <bullet>  There is no reliable data source that takes into account 
the available pool of the military workforce that demonstrates the 
correlation of standardized job, industry, and geographic 
classification codes that are consistent with other reported Federal 
labor, employment, economic, and census data.
    <bullet>  In order for civilian employers to improve the 
recruitment of the military workforce, such data sources are needed. To 
create a standardized data source/report will require data surveys, 
validation and analyses that may take several years to complete, akin 
to other Federal employment and labor-related data sets (e.g. census, 
EEO special file, et. al).
    <bullet>  Federal contractors have experienced challenges from the 
OFCCP, especially during compliance evaluations, two concurrent 
phenomena that hampers collaboration: 1) their knowledge and 
appreciation of how State workforce agencies operate, and 2) their 
dissemination of communications, staff training, and application of 
standards and procedures across and between their national, regional 
and district offices consistently.
    <bullet>  OFCCP should engage in town hall meetings, open forums, 
and other bridge-building dialogue with private-sector Federal 
contractors to demonstrate that the agency values the contributions of 
this subset, especially with regard to key agency developments that 
impact these relationships (e.g., regulatory changes, directives, and/
or procedures).
    <bullet>  The pre-employment voluntary self-identification of 
disability status by job seekers (including disabled veterans) is 
prohibited by the ADA. Thus, there must exist between the OFCCP and 
EEOC mutually-agreed upon interagency standards, guidance, permission 
and employer indemnity permitting employers to collect, evaluate and 
make employment selection decisions based on these data.
    <bullet>  The letter and the spirit of key employment and Federal 
contractor regulations and laws require that employers make objective 
employment-related selection decisions. Enacting a mandatory procedure 
that mirrors the combination of the ``priority of service'' process and 
a ``veterans preference'' policy (akin to U.S. State One-Stop Centers) 
raises a regulatory tension with these laws, including rendering a 
result of unintentional adverse impact among other protected classes 
(i.e., E.O. 11246, Vietnam Era Veterans Readjustment and Assistance 
Act, Section 503 of the Rehabilitation Act as amended, Uniform 
Guidelines on Employment Selection Procedures, Title VII, et. al).

    DirectEmployers Association continues to work with NASWA in 
multiple ways, including veterans employment webinars for both 
employers and State workforce agencies, to help all employers 
effectively recruit veterans:

JobCentral National Labor Exchange (NLX)
    A key service of the NLX is a comprehensive suite of programs and 
services to assist employers (e.g., Federal Government contractors) in 
complying with the Vietnam Era Veterans' Readjustment Assistance Act 
(VEVRAA) regulations, as amended by the Jobs for Veterans Act (JVA) and 
developing Affirmative Action Programs to attract veterans. Direct 
Compliance is the most comprehensive 4212 VEVRAA/JVA compliance 
assistance program and is offered to employers who are members of 
DirectEmployers Association. Members can have their job openings 
automatically indexed (scraped) directly from their corporate career 
sites and made available to veterans through the NLX and VetCentral, 
which assists participating members in complying with JVA regulations.
    VetCentral is a unique feature of the NLX which feeds job listings 
to State Employment Services offices nationwide. VetCentral is fully 
integrated into the NLX. Member's job openings are sent to the 
appropriate (Wagner-Peyser) employment service delivery system via 
email or, in many cases, entered into the State job bank and records 
are maintained for each transaction. In the event of an Office of 
Federal Contract Compliance Programs (OFCCP) audit, employers can 
easily show these records to the auditor to demonstrate compliance 
requirements.
    DirectEmployers Association surpasses the minimum requirements to 
distribute jobs to appropriate employment delivery systems in two ways:

    <bullet>  through the JobCentral National Labor Exchange (NLX) that 
provides an automated job listing feed to State job banks; and,
    <bullet>  through VetCentral--a unique service of the NLX which 
feeds jobs to State Employment Services offices nationwide.

    The comprehensive NLX program includes an automated, efficient and 
very cost-effective resource for employers to ensure their company's 
job openings are delivered accurately and reliably to the State 
workforce system--the appropriate (Wagner-Peyser) local employment 
service office(s)--including the Disabled Veterans' Outreach Program 
(DVOP) coordinators and Local Veterans' Employment Representatives 
(LVER) program. The DVOP/LVER staff is trained to meet the specific 
needs of veterans and they can be very instrumental in referring 
veteran applicants to an organization, so it's helpful for employers to 
develop local relationships with DVOPs and LVERs. Employers can locate 
the DVOPs and LVERs in the States they operate in by visiting the 
National Veterans' Training Institute's (NVTI's) DVOP/LVER Locator. The 
DVOP/LVER staff is also very familiar with the complete range of 
employment services and training programs available for veterans at the 
State Workforce Agency CareerOneStop Centers and the Department of 
Veterans' Affairs Vocational Rehabilitation and Employment Program 
locations.
    In addition to working with the CareerOneStops Centers and the 
Department of Veterans' Affairs, the DVOPs and LVERs also work closely 
with Veterans Service Organizations (VSOs). VSOs can also help 
employers get the word out to veterans about an organization's job 
opportunities. Through the NLX and its partnership with NASWA, 
DirectEmployers Association offers assistance to its members in 
reaching out to these State and local partners to establish their 
employer's own direct relationships and partnerships at the local 
level..
    NLX also receives a download of jobs from USAJOBS and distributing 
them to State job banks. Sponsored by the Federal Office of Personnel 
Management, USAJOBS is a job bank containing Federal Government 
positions. This download of Federal job openings is available to States 
for inclusion in their States job banks. To date, the following States 
have requested the USAJOBs be included in their State job bank: 
Alabama, Arkansas, Connecticut, Delaware, Delaware, Florida, Hawaii, 
Iowa, Kansas, Kentucky, Minnesota, Missouri, Nevada, New York, 
Oklahoma, South Carolina, Tennessee, Texas, Utah, Vermont, Washington, 
and Wisconsin.
    DirectEmployers Association is proud to be the provider of jobs 
data for ``MySkillsMyFuture'', a valuable U.S. Department of Labor's 
Employment and Training Administration Web site which was launched last 
September. It is designed to connect workers with high quality training 
and local employment opportunities. DirectEmployers Association's jobs, 
including job listings from State Workforce Agencies, are now included 
in the U.S. Department of Labor's MySkillsMyFuture, MyNextMove, and 
CareerOneStop employment sites.

Military-specific organizations receiving NLX job listings include:

    <bullet>  JobCentral National Labor Exchange, or ``NLX''
      <bullet>  Disabled Veterans Outreach Program Coordinators (DVOPs)
      <bullet>  Local Veterans Employment Representatives (LVERs)
    <bullet>  The .Jobs Universe Military Network
    <bullet>  Armed Forces Employer Partnership (operated by the U.S. 
Army Reserve for all Reserve Components)
    <bullet>  HirePatriots.com
    <bullet>  Military Spouse Corporate Career Network (MSCCN)
    <bullet>  National Marine Corps Business Network (NMCBN)
    <bullet>  RecruitMilitary.com
    <bullet>  Save Our Veterans
    <bullet>  Veterans Enterprise
    <bullet>  VetSuccess.gov (operated by the Department of Veterans 
Affairs)

The .Jobs Universe Military Network
    Earlier this year, DirectEmployers Association announced an 
extensive online program to assist transitioning military personnel in 
all branches of our armed forces, their spouses, dependents, and 
caregivers in quickly and efficiently finding employment. The program 
is available free-of-charge to all employers and will provide military 
personnel and their dependents access to more than 880,000 employment 
opportunities from over 90,000 employers nationwide.

    The Association announced that over 5,800 dot-jobs (.jobs) domains 
have been added to the .Jobs Universe (www.universe.jobs) to create 
employment services for returning veterans (www.veterans.jobs) and 
their families. The domains use the Military Occupational 
Classification (MOC) Crosswalk to assist military personnel in 
transitioning from active duty to employment opportunities in the 
civilian workforce. Transitioning military personnel can enter their 
MOC plus.jobs into their browser to locate civilian occupations 
requiring the same or similar skills as their previous military job 
(e.g.www.42F.jobs, www.25B.jobs, www.2891.jobs).

    The .Jobs Universe also provides a Military family 
(www.militaryfamily.jobs) feature. This is designed to help military 
spouses, dependents and caregivers quickly locate employment while 
their loved ones are serving our country. Military families can enter 
the name of their military installation plus the intuitive .jobs suffix 
into their browser and receive a list of employment opportunities on 
their assigned base or in 
surrounding cities (e.g. www.CampPendleton.jobs, www.NewportNewsShipyard
. jobs, www.FtKnox.jobs).
    This new effort to assist our veterans and their families is 
further demonstration of the value and benefit of the .jobs platform. 
It is free for employers, veterans, and their families and it is 
organized to fit the way people use the Internet to search for jobs and 
the way companies go about attracting specific skills and experience 
with no artificial barriers in between. With the extra steps taken to 
ensure that only legitimate job listings from real companies are 
included, veterans and their families can have confidence in using this 
service to submit their background information over the Internet..
    ``This is a great program for the entire human resource community 
as well as our transitioning military and their families. I am very 
proud to be a part of this exciting initiative in support of those who 
have unselfishly given so much for our Nation,'' states Rhonda 
Stickley, a 6-year U.S. Army veteran and current human resource 
executive at Seattle-based Providence Health & Services.
    DirectEmployers' new military .jobs initiative expands the 
potential of an already established and robust partnership with the 
public sector, the National Labor Exchange (NLX). Offered in 
partnership with the National Association of State Workforce Agencies 
(NASWA), the NLX is a free, job-search engine feeding job openings into 
50 publicly-funded State job banks. This has substantially increased 
offerings to all jobseekers, and especially veterans. Since March 2007, 
the NLX has provided over 9 million, unduplicated, current jobs to 
State workforce agency staff dedicated to serving veterans. The NLX 
uses no Federal funds for operations, research, or development. Rather, 
this unique public-private partnership leverages private, non-profit-
owned technology with existing State workforce agency resources to 
enhance offerings to veterans.
    The NLX partners are looking forward to continuing their work with 
the Obama Administration and the U.S. Department of Labor's Veterans 
Employment and Training Service (VETS) to offer comprehensive, 
coordinated services to returning servicemembers and military families. 
DirectEmployers shares VETS' vision and commitment to expand career 
opportunities for veterans, transitioning servicemembers, and their 
families.
    Alicia Wallace, EEO Program Consultant for WellPoint and a military 
veteran whose husband is a retired infantry officer says, ``I salute 
all companies supporting these outstanding military programs. As a 
Nation, we should do all we can for the gallant men and women who serve 
in our armed forces. These individuals and their families have made 
great sacrifices for our country and deserve all the gratitude and 
support we can provide.''

Recruitment Regulatory Compliance Committee
    DirectEmployers Association has established a Recruitment 
Regulatory Compliance Committee (RRCC) to provide consultation and 
guidance for our Association and member companies on issues related to 
veterans' employment and all regulatory matters, especially those 
relating to the employment of veterans.
    The RRCC is chaired by Jason Capili, PriceWaterhouseCoopers, co-
chaired by Jolene Jefferies, DirectEmployers Association, and consists 
of two National Industry Liaison Group (NILG) members, a NASWA 
representative and an external consultant in addition to twenty 
DirectEmployers Association member company representatives.
    The primary purpose of the RRCC is to assist the Board in 
overseeing DirectEmployers' recruitment compliance services and related 
programs as follows:

    <bullet>  The RRCC will help to educate, inform, and update 
employer members about government contracting compliance and 
employment-related laws and regulations affecting recruitment and 
sourcing practices.
    <bullet>  The RRCC will serve as the primary liaison to educate and 
communicate DirectEmployers' member companies' needs and perspectives 
to the various regulatory authorities.
    <bullet>  The RRCC will assist in tracking proposed changes in 
compliance legislation, and will alert and advise the Board concerning 
the possible effects of impending changes in government contract 
compliance laws and employment regulations and the potential impact on 
DirectEmployers' member companies to recruit and source effectively.
    <bullet>  The RRCC will make recommendations to the Board regarding 
the compliance services and related programs offered by DirectEmployers 
Association to help us remain on the cutting-edge as the leading 
provider of said services.
    <bullet>  The RRCC will research and share information about 
speaking opportunities at various conferences and events to further 
educate all employers, regulatory authorities, State workforce 
agencies, the military and other stakeholders about DirectEmployers' 
compliance services and related programs.

Hiring & Retaining Veterans_a Webinar Education Series
    The intent of the veteran employment webinar education series, 
Hiring & Retaining Veterans, developed by Jolene Jefferies, SPHR and VP 
Strategic Initiatives of DirectEmployers Association, is to offer 
employers comprehensive training and resources to expedite the learning 
curve in developing, sharing and implementing best practices and 
success strategies to attract, select, onboard and retain America's 
military candidates.

    The Hiring & Retaining Veterans series was originally developed for 
employers so they could develop active, meaningful relationships with 
local referral sources that allowed regular communication and feedback. 
It was quickly determined that it could be utilized by a much broader 
community. Employers wanting to engage in a more robust veteran 
outreach effort were invited to join this series to:

    <bullet>  Map a strategy to expand your company's local veteran 
outreach activities.
    <bullet>  Learn how to leverage DirectEmployers Association's 
military partnerships as your own, at the local level.
    <bullet>  Receive tips, resources and contact information of 
various veteran organizations to target and identify local partnership 
opportunities.
    <bullet>  Discover ways to document veteran outreach and 
communications with veteran partners and referral sources.
    <bullet>  Use analytics to identify specific employment practices 
that are verifiably effective in the recruitment of veterans.
    <bullet>  Effectively demonstrate a history of compliant veteran 
outreach efforts.

    Worthwhile to note, there has been a very strong interest in the 
resources, templates and toolkits provided with the Veteran Outreach 
webinar. These resources are estimated to save employers well over 250 
hours of research and planning time.

    <bullet>  Veteran Outreach PowerPoint Slide Deck (includes step-by-
step strategic implementation plan)
    <bullet>  Guide to Key Military Partnerships of DirectEmployers 
Association
    <bullet>  Labor Market Assessment Template
    <bullet>  Veteran Outreach and Partnership Sources for Employers
    <bullet>  State Veterans Program Coordinators
    <bullet>  Marines Wounded Warrior District Injured Support Cell 
(DISC) Coordinator Roster
    <bullet>  Veteran Partner Levels and Definitions
    <bullet>  Local Veteran Recruiting Action Plan (RAP) Template

    Attendees have included anyone interested in learning how to 
develop partnerships at the local level and to advance outreach efforts 
to help employers find, attract, hire and retain more veterans, 
including employers, recruiters, H.R. Compliance Experts, Hiring 
Managers, Human Resource Professionals, Workforce Development 
Professionals, Economic Developers, Community Representatives and 
Regulatory Agency Representatives.
    An outline of the webinar content is included as Table 1 to this 
testimony. DirectEmployers Association intends to continue offering 
these worthwhile sessions on a regular basis.
    Mr. Chairman, thank you for the opportunity to discuss the 
employers' perspective and our activities in this area. We are 
dedicated to doing our utmost toward the employment of our Nation's 
deserving veterans. We would be glad to provide you with any additional 
information. DirectEmployers Association stands ready to work with this 
Committee on the issues of veterans' employment.

------------------------------------------------------------------------

------------------------------------------------------------------------
Hiring & Retaining Veterans
Webinar Education Series for Employers
Developed and Delivered by: Jolene Jefferies, SPHR,
VP Strategic Initiatives, DirectEmployers Association

The Hiring & Retaining Veterans webinar education series is designed to
 help employers explore how to create, develop and implement a
 successful award-winning military recruiting and retention program as
 part of their company's overall talent acquisition and employee
 retention strategy. The Hiring & Retaining Veterans series, consisting
 of 16 webinars, saves employers time and provides them with invaluable
 templates, tools and resources to target veteran and military
 candidates to the organization and retain them once they've been hired.

------------------------------------------------------------------------


------------------------------------------------------------------------

------------------------------------------------------------------------

Strategic Planning, Development and Implementation----------------------
------------------------------------------------------------------------
 1                       Making the Case for Hiring Veterans: A Win-Win
                          Business Strategy
------------------------------------------------------------------------
Hiring Veterans
------------------------------------------------------------------------
 2                       Veteran Outreach: Partnering at the Local Level
------------------------------------------------------------------------
 3                       Hiring Veterans: Important Laws & Military-
                          Friendly H.R. Policies
------------------------------------------------------------------------
 4                       Hiring Veterans: Creating Brand Awareness in
                          the Military Community
------------------------------------------------------------------------
 5                       Hiring Veterans: Sourcing Strategies to Attract
                          Military Talent--Part I
------------------------------------------------------------------------
 6                       Hiring Veterans: Sourcing Strategies to Attract
                          Military Talent--Part II
------------------------------------------------------------------------
 7                       Hiring and Accommodating Disabled Veterans:
                          Strategies for Success
------------------------------------------------------------------------
 8                       Hiring Veterans: Training Your Recruiters &
                          Hiring Managers
------------------------------------------------------------------------
 9                       Hiring Veterans: The DD-214 & Background
                          Investigations
------------------------------------------------------------------------
10                       Hiring Veterans: Understanding the Military to
                          Improve Employment Practices & Outcomes
------------------------------------------------------------------------
11                       Hiring Veterans: Recruitment Compliance
                          Strategies
------------------------------------------------------------------------
12                       Onboarding New Veteran Employees: Strategies
                          for Success
------------------------------------------------------------------------
13                       Hiring Veterans: Employer Best Practices
                          Showcase
------------------------------------------------------------------------
Retaining Veterans
------------------------------------------------------------------------
14                       Retaining Veterans and Disabled Veterans:
                          Strategies for Success
------------------------------------------------------------------------
15                       Retaining Veterans: Training Your Recruiters,
                          Hiring Managers and Key Leaders
------------------------------------------------------------------------
16                       Retaining Veterans: Employer Best Practices
                          Showcase
------------------------------------------------------------------------


                                 <F-dash>
               Prepared Statement of Kevin M. Schmiegel,
 Vice President, Veterans Employment Program, U.S. Chamber of Commerce
    Chairman Miller, Ranking Member Filner, and Members of the 
Committee, my name is Kevin Schmiegel, and I am the vice president of 
veterans' employment programs at the United States Chamber of Commerce.
    Thank you for the opportunity to appear as a witness before the 
Committee and speak to you about veterans' employment and what the U.S. 
Chamber of Commerce is doing to help our Nation's heroes find 
meaningful employment in the private 
sector.
    As you know, the U.S. Chamber of Commerce is the world's largest 
business federation representing the interests of three million members 
and organizations of every size, sector, and region.
    The reason the Chamber is interested in our Nation's veterans is 
simply that many of our members, which include thousands of small, 
medium, and large businesses, want to hire veterans. Even with high 
unemployment, we have a huge skills gap in America that is hindering 
our recovery and undermining our global competitiveness. Veterans can 
help to fill that gap, because they have unique leadership experience 
and incredible technical expertise. They are excellent problem-solvers 
and they are extremely reliable, and let's not forget that 90 percent 
of military occupations are directly transferrable to jobs in the 
private sector. The Chamber's veterans programs will help raise 
awareness across the business community of this great pool of potential 
workers who can help fill our Nation's skills gap.
    As a veteran myself, it is an honor and a privilege to be here 
today. Two years ago, I retired from the United States Marine Corps as 
a lieutenant colonel after 20 years of active duty service.
    My own transition from the military to the civilian workforce was 
full of good fortune. I was lucky to have a mentor like former National 
Security Advisor, General Jim Jones, who took a very special interest 
in my search for a second career. I was lucky to be at the right place 
at the right time. And I was lucky to be hired by an organization like 
the U.S. Chamber of Commerce whose President and CEO Tom Donohue 
understands and appreciates the value of hiring a veteran. Not every 
veteran is that lucky.
    The Bureau of Labor Statistics report on the ``Employment Situation 
of Veterans in 2010'' shows that on average there were over one million 
unemployed veterans in America during 2010. With an overall population 
of 22 million veterans and a total of just over 12 million veterans in 
the civilian work-force, veterans had a jobless rate of 8.7 percent 
last year. While this was comparable to the national average 
unemployment rate of 9.4 percent, there are some alarming trends that 
may result in higher unemployment for veterans in the short term. For 
example, the unemployment rate for post 9-11 era veterans was 11.5 
percent with younger veterans (those ages 18 to 24) suffering from an 
average unemployment rate above 20 percent in 2010. For that age 
category, the unemployment rate among veterans currently stands at a 
staggering 26.9 percent. Additionally, current or past members of the 
Reserve or National Guard had an unemployment rate of 14.0 percent in 
July 2010.
    Data for these cohorts are even more concerning given all 
additional 155,000 veterans will be leaving active duty and 100,000 
guard and reservists will be demobilized and returning to the workforce 
in 2011.
    With the potential draw down of our armed forces and significantly 
higher rates of unemployment for Iraq and Afghanistan veterans and 
returning guard and reservists on the horizon, the Chamber has started 
several initiatives that will enhance private sector job opportunities 
for veterans and their spouses.
The U.S. Chamber's Hiring our Heroes Program
    In March of 2011, the U.S. Chamber of Commerce launched its Hiring 
our Heroes program, a year-long nationwide effort to help veterans and 
their spouses find meaningful employment. The Chamber started the 
program in partnership with Mr. Ray Jefferson, the Assistant Secretary 
for the Department of Labor Veterans Employment and Training Service 
(DoL VETS) and Mr. Ron Young, Executive Director National Committee for 
Employer Support of the Guard and Reserve (ESGR), to improve public-
private sector coordination in local communities, where veterans and 
their families are returning every day.
    With our federation of business leaders, State and local chambers, 
and industry associations spanning nearly every State and city, the 
Chamber has the infrastructure to lead a nationwide campaign to connect 
veterans and military spouses with employers. Working with our 
extensive network of State and local chambers, DoL VETS, ESGR, 
veterans' services organizations, and businesses of all sizes 
representing all sectors, we are coordinating public and private 
sectors to better match veteran talent with career opportunities in 
local communities across the country.
    There are four pillars of the Chamber's Hiring our Heroes program. 
While the main focus of effort is on connecting all veterans and 
military spouses with second careers in the private sector, we have 
also created strategic partnerships in three other areas to deal with 
specific populations of veterans and their unique challenges. They 
include: a Wounded Warrior Transition Assistance Program, a Student 
Veterans Internship and Employment Program, and a Women Veteran and 
Military Spouse Employment Program. Our aggressive agenda focuses on 
one measure of success-jobs for the one million unemployed veterans in 
America.
100 Hiring Fairs for Veterans and Military Spouses
    In the coming year, the Chamber will host 100 hiring fairs with 
local chambers of commerce-across the country. The first of these 
hiring fairs took place in Chicago on March 24, 2011 and was a huge 
success with 127 employers and 1,200 veterans and their spouses 
participating. Initial feedback from the veterans and employers 
indicates that approximately 150 of the veterans and military spouses 
who attended are likely to get jobs.
    To make our hiring fairs more meaningful for veterans and military 
spouses and to gain traction in local communities, we have enlisted 
high level public and private sector speakers to keynote our hiring 
fair events and have employed an aggressive media and public relations 
campaign, which has earned the attention of news outlets across the 
country. The Chamber's Hiring our Heroes program was recently 
highlighted in several national media outlets as part of Joining 
Forces, a campaign backed by First Lady Michelle Obama, to educate, 
employ and mentor U.S. servicemembers and their families.
    We are also offering transitional workshops in conjunction with 
many of our hiring fairs and have created an information technology 
system to track a number of important metrics to include job placements 
for veterans and their spouses-an area where our Nation has fallen 
woefully short in the past. By hosting these 100 hiring fairs, we hope 
to connect 100,000 veterans and spouses with over 1,000 different 
employers over a 12-month period.
Wounded Warrior Transition Assistance Program
    Our program for Wounded Warriors is tailored to meet the unique 
challenges and demands for wounded warriors, spouses and caregivers. In 
partnership with the USA, Hire Heroes USA, and wounded warrior 
transition units in Fort Carson, Colorado and Fort Belvoir, Virginia, 
we are hosting quarterly transition workshops and career opportunity 
days with the potential to scale to several additional locations in 
2012. Our goal is to build a wounded warrior pipeline that directly 
connects these talented young men and women who have honorably served 
our country with companies that are dedicated to their successful 
transition to the private sector.
    To prepare wounded warriors for career opportunities, wounded 
warrior transitional workshops teach participants necessary skills such 
as resume writing, interviewing, goal setting and basic financial 
planning for effective job searching. Career opportunity days provide 
wounded, ill, and injured troops and their spouses with an opportunity 
to conduct mock interviews and network with prospective employers in a 
more intimate environment than traditional career fairs. We have 
established this format because wounded, ill, and injured 
servicemembers are often overwhelmed by the magnitude of career fairs 
and choose not to participate, resulting in employers losing the 
opportunity to hire these high-potential employees.
    Career opportunity days are limited to no more than 20 dedicated 
employers and 100 wounded warriors who are making the transition to a 
civilian career. Employers are connected directly with 10 prospective 
employees based on a mutual interest in either the employer's industry 
or the wounded warrior's military background.
    We have also started discussions with Mr. John Campbell, the Deputy 
Assistant Secretary of Defense for Wounded Warrior Care and Transition 
Policy, to offer innovative private sector solutions to help wounded, 
ill, injured and transitioning servicemembers transition seamlessly to 
civilian life.
Student Veterans Internship and Employment Program
    The U.S. Chamber is partnering with Student Veterans of America 
(SVA) on several new initiatives to enhance the ability of student 
veterans to find meaningful employment in the private sector upon 
graduation. Our jobs and internship program will be launched in early 
June 2011 at over 350 colleges and universities and will initially be 
available to over 40,000 student veterans seeking internships and job 
opportunities across the Nation. In addition to conducting tailored 
hiring fairs for student veterans at SVA's National Conference in 
December 2011 and their Annual Leadership Summit in 2012, we have 
elicited the support of several Fortune 100 companies to establish 
campus recruiting programs and to work with SVA chapters to develop a 
nationwide internship program for student veterans from campuses in all 
50 States.
Women Veteran and Military Spouse Employment Program
    The Chamber is working with Business and Professional Women's (BPW) 
Foundation and have started discussions with Mr. Robert Gordon, Deputy 
Assistant Secretary of Defense for Military Community and Family 
Policy, in an effort to help women veterans and military spouses find 
meaningful employment in the private sector. In addition to 
collaborating with the White House on its Joining Forces initiative and 
connecting the business community with the Department of Defense on 
nationwide efforts to employ active duty spouses in the private sector, 
we will enlist the support of American Chambers of Commerce abroad and 
global companies to help place military spouses in jobs overseas.
    While women veterans and military spouses will be the beneficiaries 
of many of our other programs, we will also host tailored events and 
champion specific forums to address some of their unique challenges in 
finding employment. One of the primary goals of this program is to 
significantly decrease women veteran and military spouse unemployment 
by establishing a network of 10,000 women mentors in the business 
community to connect with women veterans and military wives by the end 
of 2012.
Principles for Success
    Before closing I'd like to outline five fundamental principles that 
we believe are critically important to the success of our programs.
    First, local communities must be the cornerstone of any national 
program to reduce veterans' unemployment. I say this with confidence 
based on professional experience. In my final few years as a Marine, I 
served as the head of enlisted monitors managing 60 human resources 
specialists who were responsible for the assignment and retention of 
170,000 Marines worldwide. Over a 2-year period, our department 
interviewed tens of thousands of Marines about their decision to stay 
or leave active duty. Of those who were leaving the service, an 
overwhelming majority were more concerned about where they were going 
rather than what they were going to do for a second career. 
Additionally, exit surveys from all service components reinforce that 
geographic preference is an important consideration when veterans are 
entering the civilian workforce. While the U.S. Chamber can have some 
effect talking to public and private sector leaders in Washington DC, 
it pales in comparison to the impact we can have with the help of 
chambers of commerce, business leaders and government officials in 
local communities where veterans are returning every day.
    Second, we must do a better job of coordinating public and private 
sector efforts in local communities. While there are no shortages of 
hiring programs for veterans, it is clear those programs are not 
working well enough. The fact is there are hundreds and hundreds of 
private sector companies, non-profits, NGOs, veteran services 
organizations and government agencies that have individual programs to 
help veterans find jobs. However, most of these individual programs are 
not yielding results, and collectively, they are falling woefully 
short. Because they are duplicative, they compete with one another, 
they cause unnecessary confusion for veterans and their families, and 
they are not well coordinated. We believe that the U.S. and local 
chambers of commerce are uniquely positioned to better coordinate 
public and private sector efforts in hundreds of cities across America.
    Third, we must look for other innovative ways to help transitioning 
veterans, including helping them start or grow a small business; 
improving certification, licensing, and vocational education for 
veterans and their spouses; and enhancing the availability of 
internships and mentoring programs within the business community. With 
our strong federation of business leaders, State and local chambers, 
and industry associations spanning nearly every State and city, the 
Chamber can play a massive role in establishing private sector programs 
that assist military families in their transition to civilian life.
    Fourth, all programs-existing and new-should be measured against 
clear objectives and established metrics, so we can focus on what is 
working and stop funding programs that are not producing results. When 
the Chamber completes the last of our 100 hiring fairs we will host a 
summit with all of stakeholders to analyze outcomes and discuss best 
practices.
    And finally, we need to build on the incredible momentum that has 
brought veterans issues to the forefront of America's psyche and take 
advantage of what the Chairman of the Joint Chiefs of Staff, Admiral 
Mullen, has called a ``sea of goodwill.'' As Martin Luther King Jr. 
once said, ``The time is always right to do what is right.'' It is 
clear that now is the time to positively affect veterans unemployment 
and to do it right.
Conclusion
    Chairman Miller, Ranking Member Filner, and distinguished Members 
of the Committee on Veterans Affairs, the U.S. Chamber of Commerce is 
committed to helping better coordinate public and private sector 
efforts to find meaningful employment for veterans and their spouses in 
local communities where they are returning every day. Our success will 
be measured by the impact our programs have on helping our veterans 
find and keep good jobs in the private sector.
    Thank you for this Committee's unwavering commitment and support of 
veterans and their families.
    I appreciate the opportunity to testify before you today and look 
forward to answering your questions.

                                 <F-dash>
   Prepared Statement of Henry Jackson, Interim President and Chief 
        Executive Officer, Society for Human Resource Management
                           Executive Summary
    The Society for Human Resource Management (SHRM), with 260,000 
members, is the world's largest association devoted to serving the 
needs of human resource professionals and to advancing the H.R. 
profession.
    SHRM and its members have adopted the transition of military 
veterans into the civilian workforce as a key issue. With successful 
transitions, our heroes receive the welcome they deserve; employers 
gain workers legendary for their commitment to mission; and our 
Nation's productivity and status in the global marketplace is enhanced.
    Within the last 2 years, SHRM has forged partnerships with Employer 
Support for the Guard and Reserve (ESGR) and the Department of Labor's 
Veterans' Employment and Training Service (VETS). The organization is 
also about to enter a similar collaboration with the Department of 
Veterans Affairs. In all instances, the goal is to ensure that 
employers have what's needed to create a transition program, identify 
and hire veterans, and retain those veterans, including building a 
workplace supportive of our military forces.
    Ultimately, SHRM wants every one of its members--plus other H.R. 
professionals--to know who to call to find veteran talent, and who to 
call to get assistance in easing the transition of that veteran into 
the civilian workforce.
    Many of the hurdles facing employers and veterans alike can be 
described as culture clashes. Veterans need help translating their 
specialized skills, along with their respect for discipline and chain 
of command, into civilian vocabulary, and a job. They are not 
accustomed to self-promotion. Nor, given their combat experience, are 
they accustomed to a business concept of a ``life or death'' situation; 
or to ``seeking input'' from a team; or a managerial style that is not 
centered on command and control.
    On the employer side, more communication with H.R. professionals is 
needed. SHRM research (available to the Committee) found that most 
talent managers are unaware of the many resources available to them, 
from both government agencies and non-profit organizations, to assist 
them in finding, hiring, and retaining the right veterans for their 
jobs. SHRM pledges to help close that communication gap, and to help 
employers see veterans as loyal, dedicated, and highly trainable 
potential employees. Many local SHRM chapters and councils are already 
conducting employer-education programs focused on the benefits of 
hiring veterans, and on how to make their transition successful.
    The Society has dedicated a section of its Web site to the 
transition issue, and another on disability employment. It offered a 
military program at its annual conference last year and will do so 
again this month, making the educational event available to more than 
12,000 conference attendees. Similar programs are met by a receptive 
audience--SHRM describes its members as professionals who understand 
that it makes sense to hire veterans, and that it's a moral obligation 
to help those veterans after all they have sacrificed.

                               __________
Introduction
    Chairman Miller, Ranking Member Filner, and distinguished Members 
of the Committee, my name is Hank Jackson. I am the Interim President 
and Chief Executive Officer of the Society for Human Resource 
Management (SHRM). SHRM is the world's largest association devoted to 
human resource management. The Society serves the needs of H.R. 
professionals and advances the interests of the H.R. profession. 
Founded in 1948, SHRM has more than 575 affiliated chapters within the 
United States and subsidiary offices in China and India. On behalf of 
our approximately 260,000 members in over 140 countries, I thank you 
for this opportunity to appear before the Committee to discuss the 
transition of military veterans into the civilian workforce.
    Our members strongly believe that helping military servicemen and 
women transition back to the workforce benefits every party involved: 
our heroes receive the welcome they deserve through employment; 
employers gain employees who are committed to the mission; and our 
Nation's productivity and status in the global marketplace is enhanced.
    In my testimony, I will share SHRM's efforts to promote the 
recruitment and retention of veterans in the workplace, provide SHRM 
survey research on the state of veterans' employment, describe our 
concerns about why the promise of employment to many veterans remains 
unfulfilled, and offer proposals for eliminating these hurdles to 
veterans' employment.
SHRM's Efforts to Promote Veterans' Employment
    The transition of veterans into the workplace has developed into a 
key concern for SHRM and for the H.R. profession. To assist employers 
in recruiting and retaining current and former members of the military, 
SHRM has collaborated with key Federal agencies.
    First, our members appreciate that almost half of our Nation's 
military strength resides in the National Guard and Reserve. They see 
men and women leave their workplaces to do their duty, and they see 
them return from combat, sometimes struggling to reintegrate into 
civilian life. In addition, some Guard and Reserve members joined the 
military as their first real ``job,'' and now they need our members' 
help. After all those warriors have sacrificed for us, H.R. 
professionals embrace a responsibility to help our heroes reclaim their 
civilian lives and return to meaningful and productive work.
    For this reason, SHRM formed a partnership with the Department of 
Defense's Employer Support of the Guard and Reserve (ESGR) by signing a 
Statement of Support in March 2010. As the principal advocate within 
the U.S. Department of Defense, ESGR's mission is to develop and 
promote employer support for Guard and Reserve service by recognizing 
employers that offer outstanding support, increasing awareness of 
applicable laws and resolving conflict between employers and 
servicemembers.
    Through this partnership, SHRM is working with ESGR to link all 
SHRM State councils and chapters with their local ESGR office and 
encourage SHRM members to sign their own Statement of Support. More 
than 300 SHRM chapters and 31 SHRM State Councils have signed a 
Statement of Support to date.
    SHRM also serves as a member of the Secretary of Defense Employer 
Support Freedom Award National Selection Board, which selects Freedom 
Award recipients on an annual basis. The Freedom Award is the 
Department of Defense's highest recognition given to employers for 
exceptional support of their employees serving in the Guard and 
Reserve. We are pleased that several employers of SHRM members have 
been presented with the Freedom Award.
    Soon after forging our partnership with ESGR, we inaugurated a 
military hiring event as part of our 2010 annual conference and 
exposition in San Diego, California. That event, called ``Military 
Veterans: Transitioning Skills to the New Economy,'' brought together 
H.R. professionals, business leaders, Federal agencies and hundreds of 
members of the military. We showed both employers and veterans how they 
could benefit each other, focusing on the skills they each need to 
succeed as partners. During the full conference, participants also were 
addressed by Ray Jefferson, Assistant Secretary of the Department of 
Labor's Veterans' Employment and Training Service (VETS). His riveting 
remarks reminded us that there are other heroes who need and deserve 
our attention. They are the people who volunteered for active duty, 
many of them right out of school, and who now return in search of their 
first civilian job. Building on the enthusiastic response we received 
for last year's program, we're holding another veterans' employment 
event at our conference in Las Vegas later this month, offering it at 
no charge to more than 12,000 H.R. professionals. The 6-hour program 
will focus on everything needed to recruit and accommodate veterans, 
wounded warriors, and spouses. Just as important, we'll talk about 
creating an inclusive workplace that encourages veterans to stay with 
their new organization.
    SHRM has also developed a deeper relationship with VETS, to 
complement our ongoing partnership with ESGR. The core of our work with 
VETS is in helping the agency to inform employers across the Nation 
about the resources that are available to them in finding, recruiting, 
and retaining military veterans. For instance, right now, we're 
identifying States that will be pilot sites for a more cooperative 
relationship between SHRM chapters and VETS. We want our members, at 
the State and regional levels, to get to know the VETS staff, and to 
rely on them for assistance. In addition, our two organizations are 
working together to create a toolkit for employers. It will be a 
collection of practical steps and tangible tools for creating a hiring 
program, identifying and hiring veterans, and doing what it takes to 
retain those veterans, including building a workplace that's supportive 
of our military forces.
    In a related effort, the White House invited SHRM to participate in 
``Joining Forces,'' an initiative focused on the needs of military 
families led by First Lady Michelle Obama and Dr. Jill Biden. 
Addressing the goals of this effort, SHRM's educational materials will 
include resources and tips on effective practices for recruiting and 
retaining military spouses, maximizing workplace flexibility and other 
policies to support military families, and creating high-performing 
work environments for all service-connected employees.
    I'm also pleased to inform you that we're preparing to embark on a 
similar collaboration with the Department of Veterans Affairs.
    These partnerships have proved to be invaluable to SHRM and our 
members and hopefully to the agencies as well, and we are deeply 
grateful for them. Ultimately it is our hope that through all these 
efforts, we can help every SHRM member to know where to find qualified 
veteran job candidates, and where to get assistance in easing the 
transition of that veteran into the civilian workforce.
SHRM Research on Employment of Military Veterans
    SHRM features a research department that has conducted several 
survey reports on employer recruitment, hiring and retention practices 
of military servicemembers. In June 2010, SHRM published its most 
recent report in this series, titled ``Employing Military Personnel and 
Recruiting Veterans--Attitudes and Practices.''

    The survey examined two areas:

    1.  Active Duty Service Employees. The poll looked at pay and 
benefits that organizations provide to employees who have been 
mobilized to serve on active duty for an extended period of time (more 
than 2 weeks), either as a reservist or as a member of the National 
Guard. The challenges organizations face when an employee has been 
mobilized to serve on active duty and the overall familiarity that H.R. 
professionals have with the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) were also explored.
    2.  Recruiting and Hiring Veterans. The benefits and challenges of 
hiring military veterans were examined, as were the resources that 
could assist organizations in recruiting and hiring veterans.

    The survey's key findings include:

    <bullet>  The majority of employers are considering and hiring 
veterans. Fifty-three percent of respondents said that, within the 
previous 36 months, their organization had hired veterans as full-time, 
part-time or temporary/contract workers. Of those organizations that 
hired at least one veteran, 50 percent revealed that they had made a 
specific effort to recruit and hire veterans.
    <bullet>  Organizations are going beyond what is required by law to 
help employees who are returning to work after active duty service. 
Sixty-six percent provide returning employees an employee assistance 
program (EAP) to help with transitioning back to work, 58 percent 
provide catch-up skills training to help with transitioning back to 
work, and 48 percent provide flexible work arrangements during the 
transition.
    <bullet>  Organizations find that veterans make extremely positive 
contributions to the workplace. Of those organizations that had hired 
at least one veteran during those 36 months, more than 85 percent said 
the benefits of hiring employees with military experience include:

      <bullet>  ``Strong sense of responsibility''
      <bullet>  ``Ability to work under pressure''
      <bullet>  ``Ability to see a task through to completion''
      <bullet>  ``Strong leadership skills''
      <bullet>  ``High degree of professionalism''
      <bullet>  ``Strong problem-solving skills''
      <bullet>  ``Ability to multi-task''
      <bullet>  ``Ability to adapt to changing situations quickly''
      <bullet>  ``Positive impact on the image and/or credibility of 
the organization''

    <bullet>  Employers are providing generous benefits support (i.e., 
non-direct compensation) to mobilized employees and their families. 
Sixty-three percent of respondents said their organizations provide an 
extension of health insurance for the employee's family and 47 percent 
provide an extension of health insurance for the employee.
    <bullet>  Employers are seeing fewer employees mobilize to serve on 
active duty. In 2004, 51 percent of employers said that in the previous 
36 months they had experienced employees being mobilized to serve on 
active duty, either as a reservist or as a member of the National 
Guard, for an extended period of time (more than 2 weeks). In 2010, 
that figure decreased to 34 percent of 
respondents.
    <bullet>  Importantly, H.R. professionals believe transition 
assistance programs can further facilitate the hiring of veterans. When 
asked ``What programs would help your organization in efforts to 
recruit and hire military veterans,'' 72 percent responded programs to 
train veterans with additional skills for the civilian workplace; 71 
percent said programs to help veterans transition their military skills 
to the civilian workplace; and 71 percent said assistance identifying 
and reaching out to qualified veterans.\1\
---------------------------------------------------------------------------
    \1\ Society for Human Resource Management Poll (2010): ``Employing 
Military Personnel and Recruiting Veterans--Attitudes and Practices.''
---------------------------------------------------------------------------
Challenges Facing Veterans and Employers Alike
    There are a number of hurdles to be cleared in order for veterans 
and employers to achieve the goals they both seek--meaningful 
employment for the veteran and a highly skilled and engaged employee 
for the hiring organization. Some of the challenges may be more 
structural in nature; others attributable to the differences between 
military and civilian workplaces; while still others are attributable 
to a lack of access to training and education for veterans and 
employers.
    As noted above, 71 percent of H.R. professionals are unaware of, or 
unsatisfied with, programs to help them find and assimilate veterans 
into their workforces. In a separate poll, SHRM found that nearly seven 
out of 10 H.R. professionals were not at all aware of the U.S. 
Department of Labor's Local Veterans' Employment Representative 
Program, and the same numbers were completely unaware of DoL's Disabled 
Veterans' Outreach Program. As a result, SHRM sees their partnerships 
with agencies such as DoL-VETS and ESGR as extremely important in order 
to increase the awareness of available programs. Part of the confusion 
of many employers may lie in the number of Federal, as well as, State 
programs devoted to veterans' employment. While their missions may be 
distinct, it is not always clear to the employer the role each plays in 
the employment process.
    It is also clear that more communication is needed to advise H.R. 
professionals and employers of the help available to them from both 
government and non-profit organizations, largely at no cost. A follow-
up poll last fall by SHRM and the Cornell University School of 
Industrial and Labor Relations and released in January found that 87 
percent of H.R. professionals were unaware of the Tip of the Arrow 
Foundation; 73 percent were unaware of the Department of Veterans 
Affairs' VetSuccess program; and 60 percent were not aware of such 
programs, services and organizations as Wounded Warrior, Job 
Opportunities for Disabled American Veterans, and the Paralyzed 
Veterans of America.
    There are also some misunderstandings about what to expect from 
veterans with combat-related disabilities, or what must be done to 
accommodate disabilities. According to the Paralyzed Veterans of 
America, the unemployment rate for veterans with severe disabilities is 
a stunning 85 percent. For veterans with any disabilities, the hiring 
challenge is greater than for the rest of their military colleagues--
but the problem is largely one of perception. Again, better 
communications are needed to correct faulty assumptions.
    Some employers fear that making physical accommodations for a 
veteran with a disability will be expensive, but the average cost is 
$600 or less, according to the Job Accommodation Network within the 
Department of Labor's Office of Disability Employment Policy. And even 
that cost can be covered by Federal work opportunity tax credits.
    According to SHRM's own research of members, erroneous assumptions 
are also made about accommodating the nearly half of veterans who 
return to civilian life with post-traumatic stress disorder (PTSD) or 
traumatic brain injury (TBI). Lisa Rosser, author of The Value of a 
Veteran: The Guide for Human Resources Professionals in Regarding, 
Recruiting and Retaining Military Veterans, has told us that, despite 
employer fears that a veteran with PTSD will exhibit extreme behavior, 
by far the most common reaction of a PTSD sufferer to an intolerably 
stressful situation is to simply leave. And most accommodations for TBI 
are minor, plus veterans often recover completely from the injury. The 
benefit of hiring disabled veterans, she said, far outweighs the 
hassles.
    Once hired, retention of veterans is also an issue. This challenge 
may be described as a culture clash. Not many employers--or H.R. 
professionals--can identify with the experience of war, or the unique 
culture of the military.
    Adjusting to civilian workplace protocol also drives away some 
newly hired veterans. Last year, MyMilitaryTransition.com surveyed 
veterans and H.R. managers on why job retention beyond 18 months is 
often difficult. Veterans cited ``lack of cultural fit'' as the leading 
reason; H.R. managers described it as ``an inability to let go of the 
military way of doing things.''
    Finally, many returning veterans face a unique challenge in 
translating their specialized skills, along with their respect for 
discipline and chain of command, into a civilian vocabulary, and a 
civilian job. Last spring, a SHRM poll of its members found that 60 
percent of respondents said translating military skills was the biggest 
hurdle to veterans in writing resumes, interviewing, and other job-hunt 
communications. The systems used to identify specific job or job 
functions in the military--the Military Occupational Specialties (MOS) 
for the Army and Marine Corps or the Navy Enlisted Classification 
system for Navy personnel--does not easily translate veterans' skills 
to a potential civilian employer nor help the veteran clearly 
articulate what he or she did while in the service.
    The main vehicle for addressing skills translation and preparing 
transitioning servicemembers to civilian life is the Transition 
Assistance Program or TAP. TAP represents a partnership among the 
Departments of Defense, Veterans Affairs, and the U.S. Department of 
Transportation, plus VETS at Labor. As noted above, SHRM members have 
expressed a desire for improving the transition assistance provided to 
service-members, including translation of military skills, interviewing 
techniques, and job-search advice. It is our understanding that VETS is 
seeking to improve this transition assistance. SHRM believes this 
effort is a significant step in the right direction to achieve more 
uniformity and standardization in preparing transitioning 
servicemembers for employment in the civilian sector.
Challenges Can Be Overcome
    There are challenges in bringing together employers and veterans 
successfully, but those challenges are not insurmountable. Success 
demands the best tools of H.R., a community of understanding, and a 
utilization of what, thankfully, is becoming a broad network of 
resources being made available to those who have served our Nation so 
selflessly and bravely.
    With success comes benefit to both the veteran and the employer. As 
Members of this Committee know, veterans make loyal, dedicated, and 
highly trainable employees.
    When I talk of challenges faced in this hiring equation, I must 
admit that one lies squarely on my own doorstep--the need to make H.R. 
professionals more aware of the many resources available to them in 
assisting the work transition of returning veterans. It's something 
that we recognize at SHRM, and we're doing something about it.
    Having said that, however, I want to assure the members of this 
Committee that the target audience for those efforts--HR 
professionals--is an eager and willing audience. They do not have to be 
sold on our national obligation to veterans, or the practical 
advantages of adding veterans to their workforces.
    These H.R. professionals are people who understand that it makes 
sense to hire veterans, and that it's a moral obligation to help those 
veterans after all they have sacrificed. Our members, and other 
professionals like them, just need assistance in finding the 
applicants, and in building a long-term relationship with them.
    In that same vein, I can assure you that members of our chapters 
and State councils, just like those of us on staff, are fully engaged 
and supportive of this effort. Many are educating local employers about 
existing laws and regulations, and giving them tips on how to find and 
hire the right veterans for their needs. Others are working directly 
with veterans, helping them find jobs and transition into the civilian 
workforce.
    Here are just two examples. When 1,500 Vermont National Guard and 
Reserve members were deployed to Afghanistan, one of our Vermont 
chapters hosted a community town hall meeting for employers from 
businesses of any size. In partnership with ESGR, our H.R. 
professionals taught those employers about the Uniformed Services 
Employment and Reemployment Rights Act, as well as the Family and 
Medical Leave Act. They also brought in experts to guide employers 
though the steps they should follow in reintegrating employees when 
they return from combat.
    Another example comes from Texas. As Representatives Bill Flores 
(R-TX) and Silvestre Reyes (D-TX) may be aware, our SHRM Texas State 
Council and some of our local chapters have hosted several full-day 
events focusing on veterans' employment. The most recent was May 20, in 
Austin. Business leaders and staffing and recruiting professionals 
gathered to learn best practices from an array of experts on how to 
build a strategy for recruiting a veteran, military spouse, wounded 
warrior or reservist.
    They showed employers how to build recruitment and retention 
strategies for veterans, for military spouses, and for wounded 
warriors. Essentially, they talked about effective practices to attract 
these skilled workers and keep them onboard.
    Afterward, here's what one of the employers said about the program: 
``Although I've never hesitated to hire a veteran, I came away with a 
new understanding of how to proactively recruit veterans and fully 
integrate them into the workforce. I couldn't have found a better venue 
for honest and direct information on the struggles U.S. veterans face 
when entering the private sector.''
Conclusion
    Mr. Chairman and Members of the Committee, SHRM and its members 
will continue our efforts to assist employers in finding, recruiting 
and retaining military veterans.
    We will keep reaching out to all H.R. professionals, whether 
members of SHRM or not, and make them aware of the programs and 
services available to employers.
    We will continue our ongoing programs with both ESGR and VETS, and 
we will hold another military employment program for H.R. professionals 
at our annual conference in Las Vegas later this month.
    Finally, we will continue working with our councils and chapters, 
engaging them on the military transition issue, and assisting them with 
their own community-based educational programs.
    As we work together to improve employment outcomes for 
transitioning servicemembers, we suggest the following to foster 
greater employment opportunities for transitioning servicemembers:

    <bullet>  Encourage continued partnerships between the employer 
community and the relevant agencies.
    <bullet>  Clarify and educate employers about the role of the 
Federal agencies. Employers would greatly benefit from having a more 
streamlined set of resources that they can consult to find veteran 
talent, post their open positions, and find information about hiring 
veterans and other transitioning servicemembers.
    <bullet>  Improve and increase uniformity in transition assistance 
for service-members. As noted in our testimony, guidance provided to 
individuals leaving the military should prepare them for what employers 
need to hire, including translation of military skills, interviewing 
techniques, and job-search advice. Having a more uniform system 
understood by both employers and transitioning servicemembers would 
benefit them both.

    Thank you for this opportunity to come before you and assure you 
that the human resource profession does appreciate the importance of 
the challenge before us, and we look forward to partnering with you in 
achieving a smooth transition for every returning veteran.
    I welcome your questions.

                                 <F-dash>
        Prepared Statement of George Ondick, Executive Director,
             Department of Ohio, American Veterans (AMVETS)
    Chairman Miller, Ranking Member Filner and distinguished Members of 
the Committee, on behalf of the Department of Ohio AMVETS, I would like 
to extend our gratitude for being given the opportunity to share with 
you our views and recommendations regarding employment among the 
veteran population.
    AMVETS feels privileged in having been a leader, since 1944, in 
helping to preserve the freedoms secured by America's Armed Forces. 
Today our organization prides itself on the continuation of this 
tradition, as well as our undaunted dedication to ensuring that every 
past and present member of the Armed Forces receives all of their due 
entitlements. These individuals, who have devoted their entire lives to 
upholding our values and freedoms, deserve only the highest quality of 
care and programs we as a Nation can offer them.
    AMVETS was founded in order to enhance and safeguard the 
entitlements of all American veterans who have served honorably, as 
well as to improve their quality of life and that of their families and 
the communities where they live through leadership, advocacy and 
service. Today I will be discussing one of the services AMVETS has to 
offer, the AMVETS Career Center.
    The first AMVETS Career Center opened in December of 2000 and 
subsequently in 2003, AMVETS Career Centers became an IRS-approved 
501(c)(3) nonprofit charitable corporation, incorporated in Ohio to 
provide career, training and employment related services to Ohio's 
armed forces veterans.
    The AMVETS Career Center was initially funded through a $100,000 
grant from the State of Ohio. The grant was supported by the late Ohio 
State Senator Eugene Watts, a highly-decorated Vietnam veteran who saw 
the need for the program and was eager to provide this employment 
resource to Ohio veterans. The grant was used to establish the first 
AMVETS Career Center at the Department of Ohio AMVETS headquarters in 
Columbus. Further funding of the Ohio AMVETS Career Center has been 
provided through the sale of ``Charitable Instant Bingo'' tickets, 
which under State law specifies that a portion of the sales profit be 
donated to a 501(c)(3) organization, in this instance the AMVETS Career 
Center.
    The AMVETS Career Center provides free career services to men and 
women who have served their country honorably. This includes honorably 
discharged veterans, active duty military personnel and members of the 
National Guard and Reserve. No services can be provided without 
evidence of honorable military service.
    The initial concept for the AMVETS Career Center was to provide 
training and assistance to returning veterans, as they applied for 
their licenses and/or certifications for the training they had received 
in the military. We soon discovered that our veterans also needed stop 
gap training, resume development, interviewing skills, basic computer 
skills and assistance in other vital areas of the overall employment 
process.
    The AMVETS Career Center originally provided this training through 
the use of CD-based programs, which quickly proved to be cumbersome and 
inefficient. We then entered into an agreement with Mindleaders, then 
the largest provider of online courses in the United States, to provide 
the AMVETS Career Center with the necessary courses to assist our 
veterans. The AMVETS Career Center paid Mindleaders for their online 
services platform, thus resulting in our veterans having off site 
Internet access to their desired courses through the use of a Web log 
in and password to receive their desired course of study.
    Currently, the veterans utilizing the AMVETS Career Center have 
access to over 300 online Mindleaders courses. Once registered, 
students may study at a local career center or any other place that has 
broadband Internet service--including the comfort of their own homes. 
The veteran has no out-of-pocket expense for the courses we offer, 
since the AMVETS Career Center feels the veteran has already paid the 
price through service to our Nation.
    The AMVETS Career Center not only provides career services to 
veterans, but also provides free career services to the spouses and 
children of military personnel who are deployed outside of Ohio. These 
services may continue as long as the servicemember is stationed outside 
of Ohio, but must end when the servicemember returns to Ohio. Family 
members must provide evidence that the military member is currently on 
active duty outside of Ohio, which can be done through a number of 
ways.
    However, the AMVETS Career Center does not provide free career 
services to anyone who is not a veteran or is otherwise ineligible for 
services. Although some non-AMVETS, local career centers provide fee-
based services to non-veterans and the general public, veterans and 
other eligible personnel always have priority of service at all career 
center locations.
    The AMVETS Career Center is not a government program. Local career 
centers are located in AMVETS posts. There currently are 60 local 
career centers, which can be found in AMVETS posts, VA facilities, Ohio 
Department Job and Family Services (ODJFS), One Stops and in the Summit 
County Veteran Service Commission. Originally piloted by AMVETS 
Department of Ohio, AMVETS Career Centers are now located throughout 
Ohio, Illinois, New York and Tennessee.
    Since receiving the 501(c)(3) tax exemption status from the IRS, 
the AMVETS Career Center has been prohibited, by current tax law, from 
doing any sort of job placement. We had initially provided job search 
and placement assistance through the ODJFS prior to our tax status. 
ODJFS has a U.S. Department of Labor (USDoL) grant to employ Veterans' 
Representatives (Vet Reps) in order to provide employment assistance. 
However, the grant mandates that Vet Reps are to only offer their 
services to veterans who have significant barriers to employment. In 
2009, ODJFS Vet Reps provided services to approximately 5,000 of Ohio's 
100,000 unemployed veterans. Veterans who do not qualify for intensive 
services may request assistance from non-veteran representatives, but 
they often are referred to the State's online job search site and for 
the most part, are on their own.
    Unfortunately, AMVETS Career Center record keeping for job 
placement is not available since we are not permitted to do any job 
placement. However, AMVETS Career Center has served over 5,500 veterans 
in Ohio alone since our inception in 2000 and has further provided 
veterans with over 25,000 hours of online employment training. After 
getting ``job ready'' at a Career Center, many of our veterans have 
found employment on their own by doing job searches at an AMVETS Career 
Center.
    The continued constraints and problems regarding job placement, 
combined with the Ohio National Guard having a large number of 
unemployed servicemembers, gave cause for the AMVETS Career Center to 
initiate the ``Ohio Veterans Career Assistance Network,'' or ``Vets 
CAN.''
    Ohio ``Vets CAN'' is a partnership between the AMVETS Department of 
Ohio and the Ohio National Guard. Ohio ``Vets CAN'' was created as an 
online meeting place where veterans and members of the National Guard 
and Reserve can link up with employers who value and support military 
service to America. The Web address is www.ohiovetscan.com.
    Questions I am often asked are, ``So why was another Web site 
created, and why do we need AMVETS, and why don't we use something that 
already exists?'' The answers to these questions are quite easy. First, 
Major General Wayt (at that time the Adjutant General for the State of 
Ohio) asked AMVETS to create a program that would address the 
employment needs of the Ohio National Guard. Second, AMVETS Career 
Centers already provide no cost training to veterans and members of the 
National Guard and Reserve, therefore making a perfect match of meeting 
these needs. Finally, there are no employment sites that exclusively 
address the needs of veterans and members of the National Guard and 
Reserve.
    At www.ohiovetscan.com, Ohio Guard members can identify resources 
and organizations that can help improve their civilian career 
opportunities or find employment.
    Ohio ``Vets CAN'' is similar to a mini ``Monster.com'' without the 
fees. Employers can register and post for free. In doing so they can 
access the cream of the crop, potential employees who are well trained, 
accustomed to long hours, show up on time, are loyal, and are 
patriotic. Guard members and our veterans know the meaning of `an 
honest day's work' and have a track record of integrity, sincerity, 
accountability, responsibility and trustworthiness.
    There are some limitations as to who we will allow to post on this 
site. We are limiting our services to veterans and members of the 
National Guard and Reserve and the active duty component.
    On the employer side, we limit services to military-friendly 
employers. Military friendly employers are defined as employers who 
understand the commitment to military service, practice flexibility, 
and unconditionally support Guard members in the performance of 
Federal, State and community missions. Military-friendly employers 
recognize in veterans a high level of personal maturity, and understand 
veterans are men and women who often have tested their mettle in 
mission-critical situations that demand endurance, stamina and 
flexibility.
    In October 2010, the Ohio unemployment rate was 9.6 percent. The 
unemployment rate for veterans was 11.1 percent, with the rate for 
women veterans even higher at 11.9 percent. This means nearly 100,000 
of Ohio's 900,000 veterans are unemployed. For recently-separated 
veterans, even after 2 years, their unemployment rate was 16 percent, 
far higher than the overall rate. For young (18-24-year-old) veterans, 
the news is particularly grim. The Bureau of Labor Statistics (BLS) 
reported in April 2010 that the unemployment rate for young veterans 
was 30.7 percent. This presents a large number of young unemployed 
veterans in Ohio, given that over 17,000 of Ohio's National Guard and 
Reserve troops, plus 15,000 active military troops from Ohio, are 24 or 
younger.
    For the National Guard, large numbers of unemployed troops present 
operational readiness and troop safety issues. Commanders speak of 
unemployment leading to housing problems, an inability to pay bills and 
stressed relationships--all impacting a soldier's mental health and 
ability to stay focused on military tasks. Since 2001, the Ohio 
National Guard has lost more troops to suicide than to combat. National 
statistics reflect this, with the American Association of Suicidiology 
reporting that the suicide rate for the unemployed is two to three 
times higher than the rate for the general population.
    To help us address the needs of our unemployed and underemployed 
veterans, we applied for and won a State AmeriCorps grant. The manpower 
provider in the grant will assist us in reducing unemployment for 
veterans, includes helping veterans better market themselves to 
employers and eliminating what employers see as barriers to hiring 
veterans. Assisted by AMVETS Career Center (ACC) staff, AmeriCorps 
members conduct outreach and recruitment activities to help veterans 
become aware of available services. This includes outreach to ODJFS 
one-stop centers, county veterans' service commissions, Department of 
Veterans Affairs Medical Centers and homeless veteran programs.
    Recruitment is followed by pre-enrollment assessments that enable 
AmeriCorps members to evaluate veterans' skills and barriers to 
employment and assess their employability needs. Results of the 
assessment allow members to enroll veterans in ACC services or refer 
them to supportive services from other organizations.
    For veterans receiving ACC services, the assessment is followed by 
the creation of a Career Development Plan (CDP). The CDP documents the 
skills and interests of the veteran, identifies skill deficiencies and 
other barriers that prevent them from achieving desired employment and 
income needs and describes activities and follow-up needed to ensure 
the veteran achieves his/her career goal. The AmeriCorps member may 
refer the veteran directly to job development and placement services, 
where the goal is to place the veteran into employment that allows him/
her to become self-reliant. The services may involve job search 
assistance or individual job development that matches a veteran with a 
specific employer and/or job.
    The member also may encourage the veteran to participate in ACC 
core program services, such as:

    <bullet>  Formal career assessment and exploration assistance.
    <bullet>  Training that addresses vocational skills deficiencies, 
including classroom training, employer provided on the job training, 
vocational education services or apprenticeships.
    <bullet>  Credentialing assistance that helps a veteran obtain 
licenses or certifications that document work-related skills and 
abilities.
    <bullet>  Developing tools such as resumes, cover letters, job 
search techniques and interviewing skills that help veterans better 
market themselves to employers.
    <bullet>  To help overcome employer resistance to hiring veterans, 
AmeriCorps members participate in employer outreach such as workshops, 
career fairs and presentations to business groups. Information is 
provided about hiring incentives and tax credits, on-the-job training 
funding and veterans' training programs. Efforts are made to match 
veterans with specific employer needs, with particular attention paid 
to businesses that are legally required to show veterans' preference.

    Furthermore, during the first 6 months of the grant, the AMVETS 
Career Center achieved the following:

    <bullet>  Target of 250 veterans helped; actually helped 553
    <bullet>  Target of 85 veterans in case management; actually have 
115 veterans in case management
    <bullet>  Target of 25 veterans placed into employment; actually 
have placed 32 veterans
    <bullet>  Target of 50 veteran-friendly employers identified; 
actually have recruited 70 employers

    Moreover, in order to continue the work of the AMVETS Career 
Center, we have applied for a National AmeriCorps Grant that will 
provide us with additional manpower to further expand our program to 
veterans in need of our services. The grant is critical to the program, 
as this economy has caused a significant reduction in our primary 
source of funding, Charitable Instant Bingo. Also, recent changes to 
State regulations of Charitable Instant Bingo have caused a reduction 
in the available charitable dollars.
    The average cost to the State of Ohio to provide similar services 
through the USDoL grant is about $1,500 per veteran. This is in sharp 
contrast to the cost of services AMVETS Career Centers can deliver for 
only $250. We believe this is due to the broad network of volunteers 
and the partnerships and resources uniquely available to the veterans' 
service community. With all the recent discussion of fiscal 
responsibility, AMVETS Career Centers just make sense. With just a 
minimal investment, we can expand and advertise our program to help 
more veterans reenter the workforce and start to pay taxes again, 
rather than relying on government services.
    Chairman Miller and distinguished Members of the Committee, this 
concludes my testimony. I would like to again thank you for inviting me 
to participate in this very important hearing and I stand ready to 
answer any questions you may have for me.

                                 <F-dash>
      Prepared Statement of Captain Marshall Hanson, USNR (Ret.),
   Legislative Director, Reserve Officers Association of the United 
       States, and also on behalf of Reserve Enlisted Association
                           EXECUTIVE SUMMARY
    Improvements to increase employment supported by ROA and REA 
follow:
Education:

    <bullet>  Include Title 14 duty in eligibility for the Post-9/11 GI 
Bill.
    <bullet>  Exempt earned benefit from GI Bill from being consider 
income in need based aid calculations.
    <bullet>  Develop a standard nationwide payment system for private 
schools.
    <bullet>  Re-examine qualification basis for Yellow Ribbon program, 
rather than first come first served.
    <bullet>  Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent of 
MGIB-Active.
    <bullet>  Enact Uniformed Services Employment and Reemployment 
Rights Act (USERRA) and Servicemembers Civil Relief Act (SCRA) 
protections for mobilized Guard-Reserve students to adjust interest 
rates on Federal student loans of mobilized Reservists when the market 
rate drops below 6 percent.

    Employer Support:

    <bullet>  Continue to enact tax credits for health care and 
differential pay expenses for deployed Reserve Component employees.
    <bullet>  Provide tax credits to offset costs for temporary 
replacements of deployed Reserve Component employees.
    <bullet>  Support tax credits to employers who hire servicemembers 
who supported contingency operations.

Employee Support:

    <bullet>  Permit delays or exemptions while mobilized of regularly 
scheduled mandatory continuing education and licensing/certification/
promotion exams.
    <bullet>  Continue to support a law center dedicated to USERRA/SCRA 
problems of deployed Active and Reserve servicemembers.
Uniformed Services Employment and Reemployment Rights Act (USERRA)/
        Servicemembers Civil Relief Act (SCRA):
    <bullet>  Improve SCRA to protect deployed members from creditors 
that willfully violate SCRA.
    <bullet>  Fix USERRA/SCRA to protect health care coverage of 
returning servicemembers and family for pre-existing conditions, and 
continuation of prior group or individual insurance.
    <bullet>  Enact USERRA protections for employees who require 
regularly scheduled mandatory continuing education and licensing/
certification and make necessary changes to USERRA to strengthen 
employment and reemployment protections.
    <bullet>  Exempt Reserve Component members from Federal law 
enforcement retirement application age restrictions when deployment 
interferes in completing the application to buy back retirement 
eligibility.
    <bullet>  Amend SCRA to prohibit courts from modifying previous 
judgments that change the custody arrangements for a child of a 
deployed servicemember.
    <bullet>  Encourage Federal agencies to abide by USERRA/SCRA 
standards.
    <bullet>  Ensure USERRA isn't superseded by binding arbitration 
agreements between employers and Reserve Component members.
    <bullet>  Make the States' employers waive 11th Amendment immunity 
with respect to USERRA claims, as a condition of receipt of Federal 
assistance.
    <bullet>  Make the award of attorney fees mandatory rather than 
discretionary.

Veterans Affairs:

    <bullet>  Extend veterans preference to those Reserve Component 
members who have completed 20 years in good standing, or
    <bullet>  Permit any member who has served under honorable 
conditions and has received a DD-214 to qualify for veteran status.

                               __________
INTRODUCTION
    On behalf of our members, the Reserve Officers and the Reserve 
Enlisted Associations thank the Committee for the opportunity to submit 
testimony on veteran and National Guard and Reserve employment issues. 
ROA and REA applaud the ongoing efforts by Congress to address 
employment problems faced by so many veterans and servicemembers.
    As contingency operations continue with increased mobilizations and 
deployments, many of these outstanding citizen soldiers, sailors, 
airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. As we have learned, 
they share the same risks as their counterparts in the Active 
Components on the battlefield, but don't have a guarantee of a job when 
they return home. Just recently we passed the 800,000 mark for the 
number of Reserve and Guard servicemembers who have been activated 
since post-9/11. More than 275,000 have been mobilized two or more 
times. The United States is creating a new generation of combat 
veterans that come from its Reserve Components (RC). It is important, 
therefore, that we don't squander this valuable resource of experience, 
nor ignore the benefits that they are entitled to because of their 
selfless service to their country.
    The unemployment rates of veterans and Guard and Reserve have been 
increasing despite the national rate slightly declining. The Bureau of 
Labor Statistics reports that in March and April of this year about 27 
percent of veterans between 20 to 24 years of age were unemployed. 
Other sources show it to even be higher. The National Guard Bureau has 
reported numbers of unemployed returning Army National Guard units with 
unemployment rates as high as 45 percent. The significance of these 
numbers cannot go unnoticed or unanswered.
    ROA and REA would like to thank the Committee and staff for making 
improvements to the Post-9/11 GI Bill, enhancing benefits for 
caregivers, and much more.

EDUCATION
Post-9/11 GI Bill
ROA and REA are grateful for passage of the Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010.
    Education improves a veteran's chance for employment, and many 
returning combat veterans seek a change in the life paths. There is 
still room for more improvement in the Post-9/11 GI Bill that in the 
long run can make the program more effective and increase utilization. 
For example, while Title 32 AGR was included for eligibility while 
Title 14 Coast Guard Reserve was left out.
    Other issues that student veterans have raised to ROA in which we 
recommend include the following:

    <bullet>  Require timely application and submission of 
documentation by the institution to the Department of Veterans Affairs 
(VA) and vice versa.
    <bullet>  Establish dedicated and well-trained officers for student 
veterans to speak with via the call center.
    <bullet>  Better define the Yellow Ribbon Program to determine what 
`first come, first served' means in context of institutions (such as 
registration time, enrollment, and official enrollment).
    <bullet>  Allow institutions to give more funds to students with 
stronger merit and need-base under the Yellow Ribbon Program.
    <bullet>  Align the VA's work-study program for students to work as 
guidance officers at their institutions to aid other student veterans, 
to be matched up with institution's academic calendar.
    <bullet>  Safeguard and implement a long term plan for sustaining 
the Post-9/11 GI Bill.
          <bullet>  Ensure transferability benefits are protected.
          <bullet>  Guarantee that any future changes to the program 
that could have negative effects on benefits will grandfather in 
current beneficiaries.
    <bullet>  Pass legislation to disallow institutions including 
benefits in need-based aid formulations.
          <bullet>  Remove the requirement to have a parental 
signature.
          <bullet>  Establish parity between FAFSA disclosure exclusion 
over veterans' educational and non-educational benefits to CSS and all 
institutions of higher learning.

    Institutions of higher learning across the Nation that provide 
need-based aid often require students to file a Free Application for 
Federal Student Aid (FAFSA) form and a College Scholarship Service/
Financial Aid Profile (CSS) form administered by the College Board.
    If an institution abides by the Federal methodology of determining 
aid levels it uses the FAFSA form and guidelines, but an institution 
may use an institution methodology (IM) formulated by CSS. By law under 
the Higher Education Opportunity Act of 1965 (HEA), FAFSA's current 
need analysis formula, while including some sources of untaxed income, 
excludes veterans' educational benefits and welfare benefits.
    On the other hand, CSS requires military servicemembers to disclose 
their earned educational benefits for the formulation of their need-
based aid levels. That disclosure of veterans' educational benefits on 
the CSS is then often weighed by those institutions that use an IM in 
the same manner of other traditional untaxed income items such as child 
support or a contribution from a relative, in the formulation of their 
aid package.
    Disclosing these earned-benefits on the CSS profile serves to bring 
down servicemembers' financial need level, thus increasing the cost out 
of pocket, by improperly treating earned benefits as equivalent in 
nature and function as untaxed income items. Since CSS is not 
restricted from asking for disclosure of the benefits, institutions use 
the CSS to add these earned benefits into the aid formulation, shirking 
FAFSA's and the HEA's intentions.
 ROA and REA urge Congress to bar institutions of higher learning from 
        considering veterans' educational benefits in need-based aid 
        calculations and apply the Higher Education Opportunity Act to 
        all financial aid practices of institutions of higher learning.
    Also ROA and REA support Chairman Jeff Miller's bill H.R. 1383 The 
Restoring the GI Bill Fairness Act of 2011 which would grandfather in 
current students who applied for benefits of the Post-9/11 GI Bill 
under a different set of rules. While many may gain advantages under 
the changes in law, others are actually negatively affected. For 
example ROA has received concerning calls and emails from members that 
feel forsaken, as such members signed commitments based on the benefits 
which they now feel are reduced.
    One of the most significant problems that link all issues 
pertaining to the Post-9/11 GI Bill is the lack of effectively trained 
customer service representatives. One of the many examples came from 
two of our members that are married, both serving in a Reserve 
Component. They wanted to transfer their benefits to their children, 
but were told that only one parent can register the children in the 
DEERS system and therefore only one of the parents could transfer the 
benefits. After going through a couple back channels ROA found out that 
the couple needed to go to a DEERS office and request an 
`administrative' account for the purposes of transferring benefits.
    There are many stories similar to this one which cause unnecessary 
stress on the families, some of whom give in to the system and give up 
the benefit because either they are given incorrect and/or incomplete 
information or the hassles involved are not deemed worthwhile.
    It is absolutely necessary that our servicemembers, veterans and 
families have the ability to access accurate and timely information. 
ROA and REA urge Congress to enforce the VA to properly and effectively 
train their personnel.
Montgomery GI Bill
    To assist in recruiting efforts for the Marine Corps Reserve and 
the other uniformed services, ROA and REA urge Congress to reduce the 
obligation period to qualify for Montgomery ``GI'' Bill-Selected 
Reserve (MGIB-SR) (Section 1606) from 6 years in the Selected Reserve 
to 4 years in the Selected Reserve plus 4 years in the Individual Ready 
Reserve, thereby remaining a mobilization asset for 8 years.
    Because of funding constraints, no Reserve Component member will be 
guaranteed a full career without some period in a non-pay status. BRAC 
realignments are also restructuring the RC force and reducing available 
paid billets. Whether attached to a volunteer unit or as an individual 
mobilization augmentee, this status represents periods of drilling 
without pay. MGIB-SR eligibility should extend for 10 years beyond 
separation or transfer from a paid billet.

EMPLOYMENT
Employment Protections
    Veterans and servicemembers are provided protections through the 
National Committee for Employer Support of the Guard and Reserve 
(ESGR), the Uniformed Services Employment and Reemployment Rights Act 
(USERRA), and the Servicemembers' Civil Relief Act (SCRA).
    Notwithstanding the protections afforded veterans and 
servicemembers, and antidiscrimination laws, it is not unusual for 
members to lose their jobs due to time spent away while deployed. 
Sometimes this is by employers who go out of business, but more because 
it costs employers money, time, and effort to reintroduce the employee 
to the company.
    The most recent national example is the case of Straub vs. Proctor 
Hospital in which Army Reservist Vincent Straub was fired by Proctor 
Hospital of Peoria due to his service requirements. The Supreme Court 
upheld Straub's rights under USERRA.

    Employer Incentives

    Partnerships: The Army Reserve under Lieutenant General Jack Stultz 
initiated the Employer Partnership Program with civilian employers that 
is an initiative designed to formalize the relationship between the 
Reserve and the private sector, sharing common goals of strengthening 
the community, supporting RC servicemembers and families, and 
maintaining a strong economy. Over 1,000 companies are currently in 
various preliminary stages of implementing partnership programs. This 
sets a model for businesses to hire veterans. The program has its own 
Web site, http://www.employerpartnership.org/ and provides job search, 
a resume builder, professional staff support, a list of employer 
partners and career resources.
    Periodic and Predictable: Employers need increased notification 
time in order to better support their personnel. The military services 
and components should provide greater notice of deployments to RC 
members, so that they, as well as their families and their employers, 
can better prepare. Collaboration between industry and the military 
needs to occur as the military considers deployment cycle models so 
that the Nation's defense needs are met but its industrial base is not 
compromised.
    Employer care plans should be developed that will assist with 
mitigation strategies for dealing with the civilian workload during the 
absence of the servicemember employee and lay out how the employer and 
employee would remain in contact throughout the deployment.
    CNGR: The Commission on the National Guard and Reserve suggested 
key recommendations included expansion of the Employer Support of the 
Guard and Reserve (ESGR) committee to be able to work new employment as 
well as reemployment opportunities, the creation of an employer 
advisory council, and regular surveys to determine employer interests 
and concerns over reemployment of Guard and Reserve members. 
Unfortunately, the budget recommendation is to reduce ESGR's budget.
    TRICARE as an employee/employer benefit: An employer incentive is 
when an employee brings importable health care such as TRICARE, 
reducing the costs for the employer. Guard and Reserve members as well 
as military retirees should be permitted to tout the availability of 
TRICARE as an employee asset, and permit employers to provide 
alternative benefits in lieu of health care.
    Another option is to fully or partially offset employer costs for 
health care payments for Guard and Reserve members who are employed, 
especially when companies continue civilian health insurance for 
servicemembers and/or their families during a deployment. DoD should 
provide employers--especially small businesses--with incentives such as 
cash stipends to help offset the cost of health care for Reservists up 
to the amount DoD is paying for TRICARE, with the understanding that 
the stipend is tied to reemployment guarantees upon the serving 
member's return.
    Other incentives: Incentives of various types would serve to 
mitigate burdens and encourage business to both hire and retain 
Reservists and veterans. A variety of tax credits could be enacted 
providing such credit at the beginning of a period of mobilization or 
perhaps even a direct subsidy for costs related to a mobilization such 
as the hiring and training of new employees. Employers felt strongly 
that, especially for small businesses, incentives that arrive at the 
end of the tax year do not mitigate the costs incurred during the 
deployment period. Also, cross-licensing/credentialing would ease the 
burden of having to acquire new licenses/credentials in the private 
sector after having gained them during their military service, and vice 
versa.
 While not under this Committee's jurisdiction, we hope that the House 
        Veterans' Affairs Committee can support specific tax incentives 
        to hire returning veterans and Guard and Reserve members.
    ROA and REA support H.R. 743 Hire a Hero Act of 2011 introduced by 
Rep. Lynn Jenkins which would allow the work opportunity credit to 
small businesses which hire individuals who are members of the Ready 
Reserve or National Guard.
    ROA and REA support H.R. 865 Veterans Employment Transition Act of 
2011 introduced by Rep. Tim Walz that would extend work opportunity 
credit to certain recently discharged veterans.
    ROA and REA support the concept of H.R. 802 introduced by Ranking 
Member Bob Filner because it would recognize employers of veterans, but 
strongly believe that it should be amended to include employers of 
Guardsmen and Reservists.
    ROA and REA further recommend the following:
    ROA and REA encourage the implementation of certifications or a 
form that would inform employers of skills potential veteran and 
servicemember employees gained through their military service.
    ROA and REA support initiatives to provide small business owners 
with protections for their businesses to be sustained while on 
deployment, for example a potential program in which a trained 
substitute is made available to run the business while the member is 
out of country. Further SCRA protection on equipment leases should be 
included in the law.
Draft Legislation
    ROA has submitted draft legislation entitled ``Equitable Justice 
for Terminated Veterans Act of 2011'' which would direct courts to 
award reasonable litigation expenses of USERRA cases to prevailing 
veterans.
    ROA also submitted draft legislation called ``Veterans Personnel 
Protection Enhancement Act of 2011'' that would amend Title 5, section 
2303 U.S.C., to include willful violation of USERRA as a prohibited 
personnel practice.
    Note: the draft legislative pieces are attached to the end of this 
testimony, and can be found on our Web site at http://www.roa.org/
draft_legislation.
    Captain Sam Wright, JAGC, USN (Ret.), director for ROA's Service 
Members Law Center, has drafted 23 additional pages of legislative 
improvements to USERRA which will be posted in the near future. ROA is 
also available to work with individual offices.
SERVICE MEMBERS LAW CENTER
    In the summer of 2009 ROA established the Service Members Law 
Center (SMLC) as a source of excellence in the areas of employment and 
consumer law for active, Guard and reserve personnel.
    The Law Center's goals include the following:

    <bullet>  Advise Active and Reserve members who have been subject 
to legal problems that relate to their military service.
    <bullet>  Develop a network of legal scholars, law school clinics 
and private practitioners interested in legal issues of direct 
importance to servicemembers.
    <bullet>  Advance world-class continuing legal education on issues 
relating to the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) and the Servicemembers Civil Relief Act (SCRA).
    <bullet>  Broaden the existing database of USERRA and SCRA 
research.
    <bullet>  In conjunction with bar associations, develop standards 
that will help to ensure that lawyers to whom servicemembers are 
referred for legal services have the requisite expertise to represent 
them effectively.

    Recruiting and retaining members of the armed services, especially 
those in the National Guard and Reserves, depends in part on assuring 
current and future Citizen Warriors that laws and regulations are in 
place to protect them effectively from discriminatory practices.
    The Law Center is functioning at a modest but effective level. ROA 
is pursuing efforts to obtain private or public funding and to identify 
public and private entities willing to sustain this effort in order to 
expand this service to fuller capacity. This is especially needed 
following potential cuts to ESGR.
    As part of the SMLC and under director Captain Sam Wright, JAGC, 
USN (Ret.) the Law Center maintains the ``Law Review'' data base and 
indices which contain over 700 articles on USERRA and SCRA issues 
(available at www.roa.org/law_review_archive). On a monthly basis 
Captain Wright receives about 500 calls from concerned servicemembers, 
families and attorneys. In March 2011 about 80 percent of the calls 
were about USERRA.
    The Law Center's services include:

    <bullet>  Counseling: Review cases, and advise individuals and 
their lawyers as to lawfulness of actions taken against deployed active 
and reserve component members.
    <bullet>  Referral: Provide names of attorneys within a region that 
have successfully taken up USERRA, SCRA and other military-related 
issues.
    <bullet>  Promote: Publish articles encouraging law firms and 
lawyers to represent servicemembers in USERRA, SCRA and other military-
related cases.
    <bullet>  Advise: File amicus curiae, ``friend of the court'' 
briefs on servicemember protection cases.
    <bullet>  Educate: Quarterly seminars to provide attorneys a better 
understanding of USERRA, SCRA and other military-related issues.

    The Servicemembers Law Center is available at www.roa.org/
ServiceMembers_
Law_Center.
DEFENSE EDUCATION FORUM
    ROA also maintains the Defense Education Forum (DEF). DEF produces 
and sponsors a wide variety of educational events that number more than 
30 per year. Some past programs comprise employment and transition 
issues. The DEF director is Lieutenant Colonel Bob Feidler, USAR 
(Ret.).
    In fact in 2008 ROA published a report on continuum of service 
entitled ``A New Employer-Reservist Compact: Initiatives for the 
Future'' that is available upon request.
    Others events have included continuing education on USERRA, a joint 
issue event on mental health care and the Army Reserve Employer 
Partnership Program, Commission on the National Guard and Reserve and 
others. The Defense Education Forum is available at www.roa.org/
Educate.
                               CONCLUSION
    ROA and REA appreciate the opportunity to submit testimony, and we 
reiterate our profound gratitude for the progress achieved by this 
committee such as providing a GI Bill for the 21st Century and advanced 
funding for the VA.
    ROA and REA look forward to working with the House Veterans' 
Affairs Committee, where we can present solutions to these and other 
issues, and offer our support, and hope in the future of an opportunity 
to discuss these issues in person.
    ROA and REA encourage this Committee to utilize the Service Members 
Law Center and the Defense Education Forum and reports, both valuable 
assets, and to share it with your constituents and other Congressional 
Members.

                               __________
                             112th Congress
                             First Session
                         A (House/Senate) Bill
    To amend Title 38, section 4323(h)(2) United States Code, to direct 
courts to award reasonable litigation expenses in USERRA cases to 
prevailing veterans.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,
SECTION 1. SHORT TITLE: This Act may be cited as ``Equitable Justice 
        for Terminated Veterans Act of 2011.''
SECTION 2. FINDINGS.
Congress makes the following findings:
    (1)  Under USERRA, a person who leaves a civilian job for voluntary 
or involuntary service, in the Regular military or the National Guard 
or Reserve, is entitled to reemployment in the civilian job upon 
release from service.
    (2)  Currently under this section of U.S.C., a Federal court may 
award to a veteran who prevails reasonable attorney fees, expert 
witness fees, and other litigation expenses.
    (3)  U.S. Code 38 Sect. 4323(h)(2) applies to actions in Federal 
court against State and local governments, and private employers.
    (4)  Too often a veteran or reserve component member has to seek 
private sector litigation because the Department of Labor is too slow 
at processing cases and the Department of Justice can't handle all of 
the USERRA complaints that are received.
    (5)  By making the award of litigation expenses mandatory rather 
than discretionary, private sector attorneys will have increased 
incentive to undertake such cases.
SECTION 3. AMEND THE LIST OF PROHIBITED PERSONNEL PRACTICES TO MAKE 
        SPECIFIC REFERENCE TO USERRA.
        (a)  AUTHORITY--Section 4323(h)(2) of title 38, United States 
        Code, is amended by striking ``may'' and inserting ``shall.''
SECTION 4. EFFECTIVE DATE AND APPLICABILITY.
        (a)  The amendments made by this section shall take effect on 
        the date of enactment of this Act.

                               __________
                             112th Congress
                             First Session
                          A House/Senate Bill
    To amend Title 5, section 2303 United States Code, to include 
willful violation of USERRA as a prohibited personnel practice.
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,
SECTION 1. SHORT TITLE: This Act may be cited as ``Veterans Personnel 
        Protection Enhancement Act of 2011.''
SECTION 2. FINDINGS.
Congress makes the following findings:
    (1)  There are 12 enumerated ``Prohibited Personnel Practices'' 
included in Title 5, section 2303 of U.S. Code.
    (2)  A Federal employee can be disciplined by the Merit System 
Protection Board (MSPB) by committing a prohibited personnel practice.
    (3)  Number 11 on the prohibited personnel practices list is action 
that would violate a veterans' preference requirement. 5 U.S.C. 
2303(b)(11).
    (4)  The Department of Labor does not include a violation of the 
Uniform Services Employment Reemployment Rights Act (USERRA) as a 
veterans' preference issue.
    (5)  Violation of USERRA would include discharge of a veteran, 
National Guard or Reserve member because of prior or pending service. A 
denial of a promotion, bonus, or merit pay could be another violation.
SECTION 3. AMEND THE LIST OF PROHIBITED PERSONNEL PRACTICES TO MAKE 
        SPECIFIC REFERENCE TO USERRA.
        (a)  AUTHORITY--Section 2303(b)(11) of title 10, United States 
        Code, is amended by inserting after ``a veterans' preference 
        requirement'' the following:
    (1)  ``or the Uniformed Services Employment and Reemployment Act'' 
to the end of this subsection.
SECTION 4. EFFECTIVE DATE AND APPLICABILITY.
    The amendments made by this section shall--
    (1)  take effect on the date of enactment of this Act.

                                 <F-dash>
     Prepared Statement of Heather L. Ansley, Esq., MSW, Co-Chair,
     Veterans Task Force, Consortium for Citizens with Disabilities
    On behalf of: Brain Injury Association of America; Easter Seals;
Goodwill Industries International, Inc.; Inter-National Association of 
                 Business, Industry and Rehabilitation;
            Lutheran Services in America Disability Network;
Mental Health America; National Association of County Behavioral Health 
   and Developmental Disability Directors; National Disability Rights
  Network; National Industries for the Blind; National Rehabilitation
Association; NISH; Paralyzed Veterans of America; VetsFirst, a Program 
       of United Spinal Association; Vietnam Veterans of America
                           Executive Summary
    The Consortium for Citizens with Disabilities Veterans Task Force 
believes that meaningful employment represents one of the best 
opportunities for veterans with significant disabilities to reintegrate 
successfully into their communities. In the most recent survey by the 
U.S. Bureau of Labor Statistics on employment for veterans with 
service-connected disabilities, 114,000 veterans of the wars in Iraq 
and Afghanistan reported having a service-connected disability rated at 
60 percent or higher. Unfortunately, 41,000 of these veterans are not 
participating in the labor force. Among veterans of all eras with a 
service-connected disability rated at least 60 percent, workforce 
participation was 27.9 percent.
    Typically, discussions about veterans' employment center on 
veteran-specific programs operated by the Department of Veterans 
Affairs (VA), Small Business Administration, or Department of Labor 
(DoL). Veterans with disabilities, as people with disabilities, who 
need employment assistance, are also able to turn to programs 
authorized under the Workforce Investment Act (WIA), or, in the case of 
veterans with significant disabilities, State vocational rehabilitation 
agencies (VRAs) and Ticket to Work Employment Networks (ENs) under 
Social Security.
    Veterans with the highest service-connected ratings and veterans on 
VA disability pension will likely qualify for State vocational 
rehabilitation services. Strengthening the connection between VR&E and 
State VRAs through the Department of Education's Rehabilitation 
Services Administration is critical to ensuring that veterans with 
disabilities receive the services they need to help them return to or 
remain in the workforce.
    Veterans with significant disabilities are often beneficiaries of 
Social Security disability insurance (SSDI). As SSDI beneficiaries, 
veterans are able to participate in Social Security employment programs 
such as Ticket to Work, which allows beneficiaries to purchase 
vocational rehabilitation services from an array of providers called 
ENs. Some veterans are dually eligible for SSDI and VA pension. If 
these individuals attempt to use SSA's work incentives to increase 
their income, however, not only will their SSDI benefit be terminated 
but their VA pension benefits are reduced dollar for dollar.
    WIA covers most of the Nation's major employment and training 
programs operated through DoL. Several sections of WIA incorporate 
veterans' employment into its overall mission. WIA has been slated for 
reauthorization since 2003. While progress has been made, additional 
changes are needed to focus on the performance of the entire workforce 
system.
    Although many veterans with disabilities have the skills needed to 
qualify for employment opportunities and advance in their careers, 
barriers to employment continue to prevent these veterans from 
receiving opportunities. These barriers must be addressed. Otherwise, 
training opportunities alone will not address the needs of those 
veterans who have the most significant disabilities to allow them to 
reintegrate into the workforce and contribute to their communities.

                               __________
    Chairman Miller, Ranking Member Filner, and other distinguished 
Members of the Committee, thank you for the opportunity to testify 
regarding how to improve employment opportunities for veterans who are 
severely disabled.
    I am Heather Ansley, Director of Veterans Policy for VetsFirst, a 
program of United Spinal Association. Today, I am here in my capacity 
as a Co-Chair of the Consortium for Citizens with Disabilities (CCD) 
Veterans Task Force.
    CCD is a coalition of over 100 national consumer, service provider, 
and professional organizations which advocates on behalf of people with 
disabilities and chronic conditions and their families. The CCD 
Veterans Task Force works to bring the disability and veterans 
communities together to address issues that affect veterans with 
disabilities as people with disabilities. Veterans Task Force members 
include veterans service organizations and broad based disability 
organizations, including organizations that represent consumers and 
service providers.
    Over the years, we have reached out to both veterans and military 
service organizations to allow for cross collaboration and the 
application of lessons learned to new populations of people with 
disabilities. Because of the intersection of the disability and 
veterans communities that occurs when a veteran acquires a significant 
disability, the CCD Veterans Task Force is uniquely suited to bring 
both perspectives to issues that cut across programmatic and policy 
lines.
    The CCD Veterans Task Force believes that meaningful employment 
represents one of the best opportunities for veterans with significant 
disabilities to reintegrate successfully into their communities. 
Unfortunately, for veterans with disabilities, like their civilian 
brothers and sisters with disabilities, the employment picture is not 
very positive.
    The most recent statistics available from the U.S. Bureau of Labor 
Statistics addressing the cross section of veterans with service-
connected disabilities illustrate the connection between disability and 
veteran status on employment.\1\ In July 2010, approximately 13 percent 
of veterans reported having a service-connected disability. Of those 
veterans, 729,000 reported having a service-connected disability rating 
of 60 percent or greater. Workforce participation for these veterans 
was 27.9 percent compared to 53.2 percent for veterans with no 
disability.
---------------------------------------------------------------------------
    \1\ News Release, U.S. Bureau of Labor Statistics, Employment 
Situation of Veterans--2010 (Mar. 11, 2011) www.bls.gov/news.release/
vet.nr0.htm.
---------------------------------------------------------------------------
    Among veterans of the wars in Iraq and Afghanistan, nearly 25 
percent reported having a disability related to their service. Of those 
veterans, 114,000 reported having a disability rated at 60 percent or 
greater. The workforce participation rate was 63.7 percent compared to 
86.2 percent for veterans without a service-connected disability. Thus, 
41,000 veterans of the current conflicts reporting a service-connected 
disability rated at 60 percent or higher are not even in the labor 
force.
Veterans with Disabilities and Federal Employment Programs
    Typically, discussions about veterans' employment center on 
veteran-specific programs operated by the Department of Veterans 
Affairs (VA), Small Business Administration (SBA), or Department of 
Labor (DoL). The VA's Vocational Rehabilitation and Employment (VR&E) 
program is generally available to veterans with service-connected 
disabilities who have an employment handicap. DoL offers programs and 
services through its Veterans' Employment and Training Service (VETS) 
and SBA hosts a number of programs tailored to veteran small business 
owners and service-disabled veteran small business owners.
    Veterans with disabilities, as people with disabilities, who need 
employment assistance, are also able to turn to programs authorized 
under the Workforce Investment Act (WIA), or, in the case of veterans 
with significant disabilities, State vocational rehabilitation agencies 
(VRAs) and Ticket to Work Employment Networks (ENs) under Social 
Security. These programs are particularly critical for veterans who do 
not qualify for VA's VR&E program.
State Vocational Rehabilitation Agencies and Veterans
    VRAs operate under the Rehabilitation Act to assist individuals 
with significant disabilities in obtaining or regaining employment. 
Data from the Department of Education's Rehabilitation Services 
Administration (RSA) indicate that State VRAs served over 63,000 
veterans from FY 2006 through FY 2010 with overall successful 
employment rates of approximately 50 percent.
    Many VRAs have memoranda of understanding with their State 
department of veterans affairs to coordinate services to veterans with 
disabilities. Some State agencies have identified counselors with 
military backgrounds to serve as liaisons with VA and veterans groups. 
In addition, VA is increasingly engaged with State VRAs in outreach to 
the business community to promote veterans with disabilities as a 
valuable talent pool. Indeed, VA's own Strategic Plan for FY 2006--2011 
indicated plans to use non-VA providers to supplement and complement 
services provided by VR&E staff.
    There are many more State vocational rehabilitation counselors than 
there are VR&E counselors around the Nation. These numbers of 
vocational experts can amplify the assistance available to veterans 
with disabilities if appropriate outreach and partnerships are 
established and training is provided to improve cross-agency 
coordination.
    Most veterans with ratings at 40 percent and below are unlikely to 
qualify for State vocational rehabilitation services. However, those 
with the highest service-connected ratings and veterans on VA 
disability pension will likely qualify for State vocational 
rehabilitation services. Veterans rated between 50 percent and 70 
percent might qualify depending on an appropriate evaluation of the 
veteran's functional capacity.\2\
---------------------------------------------------------------------------
    \2\ Proceedings of the 34th Institute on Rehabilitation Issues, 
U.S. Department of Education Rehabilitation Services Administration, 
May 5-6, 2008.
---------------------------------------------------------------------------
    Participants at a May 2008 Department of Education symposium on 
vocational rehabilitation and returning veterans suggested that the 
potential exists for veterans in some States to be bounced between 
State VRAs & VR&E. One way to address this concern would be for VA to 
work with RSA to ensure accuracy in VRAs' acceptance of veterans with 
service-connected disability ratings. It is our understanding that VR&E 
is finalizing a Memorandum of Understanding (MOU) with RSA. Formalizing 
the connection between VR&E and State VRAs through RSA is critical to 
ensuring that veterans with disabilities receive the services they need 
to help them return to or remain in the workforce.
Veterans and AbilityOne
    The AbilityOne Program is a Federal initiative to help people who 
are blind or have significant disabilities, including wounded veterans, 
find employment by working for nonprofit agencies (NPAs) that provide 
products and/or services to the U.S. government. With a national 
network of 600 NPAs, which work through NISH and the National 
Industries for the Blind, and AbilityOne projects in every State of 
the Nation, the AbilityOne Program is the largest single source of 
employment for people who are blind or have other significant 
disabilities in the United States. The Committee for Purchase From 
People Who Are Blind or Severely Disabled is the Federal agency 
authorized to administer the AbilityOne Program.
    In 2010, the AbilityOne Program employed nearly 48,000 people who 
were blind or had significant disabilities, of which 1,700 were 
veterans with disabilities. National Industries for the Blind, NISH, 
and AbilityOne participating NPAs also employed thousands of veterans 
outside of their AbilityOne workforce. Through research and 
development activities, specific programs are in development to address 
veterans with traumatic brain injury, post-traumatic stress disorder, 
and major depression, as well as long-term employment support models. 
The AbilityOne Program offers career transition support, exploration, 
and development for veterans in transition along with grants to prepare 
these veterans for management opportunities. Additionally, the revenue 
raised through AbilityOne contracts and sales is reinvested in 
rehabilitation programs across the country, which help thousands more 
of individuals (including veterans) with disabilities find employment.
    The AbilityOne Program has partnered with the National 
Organization on Disability, which has extensive experience and access 
to wounded servicemembers in the Army Wounded Warrior Program to 
conduct employment based research with veterans with disabilities. This 
project includes collaboration with the Department of Defense to match 
employment requirements to the research-identified career interests and 
abilities of Operation Iraqi Freedom/Operation Enduring Freedom 
veterans with disabilities.
    In 2003, VA's Compensated Work Therapy Program (CWT) signed an MOU 
within the AbilityOneProgram as the referral conduit between VA CWT 
and the AbilityOneNPAs to collaborate with VA beneficiaries who have a 
disability. Approximately 2,100 veterans with disabilities have been 
employed since the partnership's inception. The partnership agreement 
promotes local relationships between NPAs and VA CWT offices. This 
allows VA to pre-screen veterans to match AbilityOne job requirements 
and to refer qualified veterans with significant disabilities to 
participate in AbilityOne job coaching programs.
    TheAbilityOneProgram represents one of many programs supporting 
veterans and is just one example of how the members of the CCD Veterans 
Task Force help to increase employment opportunities for veterans with 
significant disabilities.
Veterans and Social Security Work Incentives Programs
    Veterans with significant disabilities are very often beneficiaries 
of Social Security disability insurance (SSDI). Veterans have earned 
the right to Social Security retirement, disability, and survivor's 
benefits since 1957 when military service was covered under Social 
Security.
    According to the March 2010 Current Population Survey, there were 
649,000 veterans under age 61 receiving Social Security benefits. 
Roughly 3 percent--about 19,000--of disabled veteran Social Security 
beneficiaries are younger than age 40 and 15.4 percent are younger than 
age 50. Older data from Social Security Administration's (SSA) 2007 
Annual Statistical Supplement indicated there were 434,000 Social 
Security beneficiaries who were service-connected disabled veterans 
rated 70-100 percent under age 65. Another 153,000 beneficiaries of 
Social Security were non-service-connected disabled veterans under age 
65.
    As SSDI beneficiaries, veterans are able to participate in Social 
Security employment programs such as Ticket to Work. Ticket to Work was 
created in 1999 by the Ticket to Work and Work Incentives Improvement 
Act. Under the Ticket program, SSDI recipients are able to purchase 
vocational rehabilitation services from an array of providers called 
Employment Networks (ENs). In return for assisting a beneficiary in 
going to work and off of SSDI benefits, ENs receive payment from Social 
Security for up to 60 months.
    Three years ago, the vocational rehabilitation program created by 
Paralyzed Veterans of America (PVA) became an employment network under 
the Social Security Ticket to Work program in recognition of the fact 
that most of the veterans PVA was serving are on SSDI. PVA's vocational 
rehabilitation program is predicated on assertive outreach to veterans 
with disabilities early in their medical rehabilitation process, rapid 
deployment of counseling and job search assistance, lengthy follow up 
services, and leveraging of existing public programs and private 
resources to support its efforts. Since starting its vocational 
rehabilitation program, PVA has served over 800 veterans, with over 126 
veterans returning to work at an average salary of $39,200.
    Among the veterans PVA has served as an EN is ``JM'', a 34-year old 
Gulf War I veteran who acquired a non-service-connected spinal cord 
injury after his discharge from the Army. On SSDI, he had been living 
with his father and had not worked in 2 years when a PVA vocational 
rehabilitation counselor met him at the San Diego VA Spinal Cord Injury 
Center during hospital rounds. Within 8 months of entering the program, 
``JM'' was working for a technology company as a repair technician II 
at a salary of $41,600. Fifty veterans have been helped thus far using 
Ticket to Work and PVA has received $40,737 in outcome payments from 
Social Security.
Social Security Work Incentives and VA Pension ``Cash Cliff''
    Some veterans and their spouses are dually eligible for SSDI and VA 
pension. These individuals may have had low paying jobs during their 
work life or not have had an extensive earnings history. As a result, 
they have a small SSDI benefit based on that work record. These 
benefits will offset any VA pension payments up to the allowed pension 
level. This dual eligibility can have ramifications for those who want 
to work.
    VA pension is often likened to Social Security's Supplemental 
Security Income (SSI) program, a means-tested income support program. 
SSI work incentives allow beneficiaries to work while gradually phasing 
out their benefits as their earnings rise. Unlike SSI, though, VA 
pensioners face a ``cash cliff'' similar to that experienced by 
beneficiaries on SSDI in which benefits are terminated once an 
individual crosses an established earnings limit. If these individuals 
attempt to use SSA's work incentives to increase their income, not only 
will their SSDI benefit be terminated but their VA pension benefits are 
reduced dollar for dollar by their earnings.
    Over 20 years ago, under P.L. 98-543, Congress authorized VA to 
undertake a 4 year pilot program of vocational training for veterans 
awarded VA pension. Modeled on SSA's trial work period, veterans in the 
pilot were allowed to retain eligibility for pension up to 12 months 
after obtaining employment. In addition, they remained eligible for VA 
health care up to 3 years after their pension terminated because of 
employment. Running from 1985 to 1989, this pilot program achieved some 
modest success. However, it was discontinued because, prior to VA 
eligibility reform, most catastrophically disabled veterans were 
reluctant to risk their access to VA health care by working.
    The VA Office of Policy, Planning and Preparedness examined the VA 
pension program in 2002 and, though small in number, 7 percent of 
unemployed veterans on pension and 9 percent of veteran spouses on 
pension cited the dollar-for-dollar reduction in VA pension benefits as 
a disincentive to work.\3\ Now that veterans with catastrophic non-
service-connected disabilities retain access to VA health care, work 
incentives for the VA pension program should be re-examined and 
policies toward earnings should be changed to parallel those in the SSI 
program.
---------------------------------------------------------------------------
    \3\ ORC Macro, Economic Systems Inc., and Hay Group, Evaluation of 
VA Pension and Parents' DIC Programs: VA Pension Program Final Report 
(2004), http://www.va.gov/op3/docs/ProgramEvaluations/Pension.pdf.
---------------------------------------------------------------------------
Workforce Investment Act
    The Workforce Investment Act (WIA) covers most of the Nation's 
major employment and training programs operated through DoL. DoL's VETS 
is known as the primary veterans program within the workforce system. 
Several sections of WIA seek to incorporate veterans' employment 
concerns into its overall mission as the engine for this Nation's 
workforce development system. VETS is a mandatory partner in State 
workforce systems under the Act and Section 168 of WIA established the 
Veterans' Workforce Investment Program (VWIP) which was intended to 
amplify workforce activities to veterans that were not adequately 
provided through public providers. Subtitle B--Linkages to Other 
Programs, Section 322, requires the Secretary of Veterans Affairs to 
coordinate with DoL in implementing various provisions of WIA. Numerous 
references to veterans throughout WIA indicate Congressional intent 
that the workforce system account for the employment success of 
veterans and veterans with disabilities.
    An MOU signed in 2005 by VA and DoL aimed to foster better 
coordination of services between the two agencies in serving veterans. 
At a hearing before the Economic Opportunity Subcommittee in 2009, John 
McWilliam, Deputy Assistant Secretary for VETS, outlined the work of a 
Joint Workgroup established after the 2005 MOU with VA. The objective 
of this workgroup was to develop performance measures for the VETS and 
VA partnership and to engage in joint data collection, analysis, and 
reports of progress. Statistics from 2008 highlighted in his testimony 
indicated that there were over 7,000 veterans referred from VR&E to 
State workforce agencies, a little over 6,000 were registered by the 
State workforce agency and some 3,500 entered employment at an average 
entry wage of $16 an hour.
    Such coordination between VA and DoL in addressing the employment 
needs of veterans with disabilities is commendable. However, further 
analysis should have been carried out to determine what happened to the 
1,000 veterans who dropped out somewhere between the VA and the State 
workforce system or why only a little over half of the veterans 
referred by VA to a State agency entered employment. Moreover, these 
figures only relate to veterans deemed eligible for VR&E. How many 
veterans with non-service-connected disabilities or those with service-
connected disabilities ineligible for VR&E have been served by State 
workforce systems and placed into employment? These veterans have 
served their Nation honorably but their employment successes and 
challenges do not always receive as much attention.
    Another example of increased collaboration between DoL workforce 
programs for people with disabilities and those serving veterans 
involved the Disability Program Navigators (DPN) and local VETS staff 
in Idaho. This project was highlighted in a Promising Practices series 
published in 2009 by DoL's DPN initiative. DPNs are staff located in 
WIA One Stop Career Centers tasked with helping customers with 
disabilities traverse the array of job training and placement services 
available, evaluate Social Security benefits and work incentives 
programs, obtain assistive technology and workplace accommodations, and 
connect with private disability provider and advocacy groups.
    Effective January 19, 2009, VETS issued a final rule on priority of 
service for veterans in DoL job training programs. Priority of service 
was established in the 2002 Jobs for Veterans Act (JVA) and provides 
that veterans and eligible spouses are entitled to priority over non-
covered persons for receipt of employment, training and placement 
services under new or existing qualified job training programs funded 
by DoL.
    To fully implement priority of service, DPNs in the Idaho One Stop 
Career Centers worked with their partner Disabled Veteran Outreach 
Program (DVOP) and Local Veterans Employment Representative (LVER) 
staff to meet with disabled veterans and their families to identify the 
array of benefits and services available to them and to support job 
seekers' employment goals. As a result of this partnership, DVOPs and 
LVERs added to their knowledge of public and private agency services 
for people with disabilities and the DPNs obtained valuable information 
about veterans' resources that could be used to assist future clients.
    Unfortunately, this example of a positive working relationship 
between components of the workforce system is at risk due to current 
budget dynamics. Because States have considerable flexibility in the 
implementation of DVOP and LVER services, these staff are often 
diverted to other duties unrelated to serving veterans and veterans 
with disabilities or may only be available at One Stops on certain days 
of the week. If veterans with disabilities are to be served by the 
workforce system as intended by law, then resources will be needed to 
make sure appropriate employment personnel are available whenever 
needed.
    Furthermore, according to figures compiled from the DoL participant 
reporting system, the numbers of veterans served under priority of 
service has actually declined since JVA passed. Statistics for 
individual States indicate low rates of exit from WIA intensive 
training services for veterans with service-connected disabilities. We 
are particularly concerned over what this decline may represent in 
numbers of non-service-connected disabled veterans going unserved by 
the workforce system. Veterans whose disabilities occurred outside of 
military service are among those who must rely on the WIA workforce 
system for assistance. Veterans priority of service appropriately 
applied would go a long way in assuring these veterans receive the help 
they deserve.
    WIA has been slated for reauthorization since 2003. Many proposals 
for improving workforce system services for people with disabilities 
have been made over the years. Relevant to this hearing is a document 
that explores some of the connections between VA's VR&E and State 
vocational rehabilitation systems.\4\ In its summary, the report 
outlines suggestions for improvements that could apply to all facets of 
the workforce development system including veterans, their family 
members, and businesses that recruit and hire veterans. Among their 
recommendations:
---------------------------------------------------------------------------
    \4\ 34th Institute on Rehabilitation Issues, When Johnny (or 
Jeannie) Comes Marching Home . . . and Back to Work: Linking Veterans 
Affairs and State Vocational Rehabilitation Services for Servicemen and 
Women (2009), http://iriforum.org/download/34IRI.pdf.

    <bullet>  Enhance outreach efforts to veterans with disabilities so 
that they are more aware of needed services and how to access them.
    <bullet>  Begin to retool existing Federal, State, and nonprofit 
systems or programs to better address the needs of veterans. Build and 
maintain a comprehensive national and State directory of these programs 
and identify their purpose, the service they offer, and how to find 
them.
    <bullet>  Create ``crosswalks'' for transferable skills from 
military occupational specialties to civilian jobs and create 
certifications of skills acquired in the military that can be 
transferred for college credit/certification.
    <bullet>  Recognize the important role families play in assisting 
veterans in activities such as accessing needed services for their 
disability, identifying symptoms of undiagnosed disabilities and 
coordinating needed services.
    <bullet>  Assist businesses with education about veterans, their 
disabilities, available resources, and points of contact when 
assistance is needed.
    <bullet>  Streamline services to veterans, reducing redundancy in 
areas such as plan development, implementation of planned services, 
contacts with potential employers, and linkages to needed resources and 
contacts while providing a more ``rapid response'' based on the needs 
of the veteran and minimizing the number of people and programs the 
veteran must deal with.
    <bullet>  Press service providers to become more knowledgeable 
about other programs and their services and points of contact at the 
local level to ensure more comprehensive access to needed services by 
veterans and their family members.
    <bullet>  Improve post-employment outreach to businesses that 
employ veterans or assist them in returning to work after becoming 
disabled, realizing that it is the business that may first notice 
undiagnosed conditions.
    <bullet>  For those who have not served in the military, expand an 
understanding of military culture.
    <bullet>  Create ``top-down'' support among State vocational 
rehabilitation programs, VA VR&E, and DoL VETS programs through 
collaborative meetings and more formal initiatives such as: national 
and State workgroups, national and State MOUs, interagency training and 
education, and ongoing program evaluation and improvement.

An Example of a Disability Organization Expanding Its Mission To Serve 
        Veterans
    Many general disability organizations have historically reached out 
to and served veterans with disabilities. For example, Easter Seals, a 
national service provider and advocate for people with disabilities, 
expanded its mission following World War II to include adults with 
disabilities specifically to assist servicemembers returning home with 
disabilities. Recently, Easter Seals was selected by VA to administer 
its new National Veteran Caregiver Training Program that provides 
training for family caregivers of seriously-injured Post 9/11 veterans 
who choose to receive care in their homes.
    Today, Easter Seals works with employers to help increase 
employment opportunities for veterans. Easter Seals developed an 
online, interactive training program for human resources and hiring 
personnel called Operation Employ Veterans that highlights the benefit 
of hiring veterans and strategies for successful integration.
    Easter Seals also works directly with veterans to provide them with 
the tools, resources and information they need to help find and 
maintain employment in their communities. Easter Seals' headquarters in 
Chicago helps veterans and their families connect to services and 
reintegration resources through its Community OneSource program. At the 
local level, Easter Seals affiliates provide job training, assistive 
technology assessment, job placement and follow-up employment supports 
to veterans and wounded warriors.
    The CCD Veterans Task Force commends VA's Non-Governmental 
Organization (NGO) Gateway Initiative aimed at helping qualified non-
profits who are interested in assisting VA in employment and other 
service areas. Despite this NGO outreach effort, however, VA excludes 
NGOs and non-profits from competing for certain service opportunities 
and makes it difficult for other NGOs to serve veterans due to its 
overly bureaucratic National Acquisition Strategy. For example, several 
regional services areas within the recent VR&E VetSuccess Program 
competition were not open to non-profits. In order to benefit from the 
knowledge of other communities that serve veterans, VA should expand 
opportunities to NGOs as appropriate.
Veterans With Disabilities as People With Disabilities
    Many veterans with disabilities have the skills needed to qualify 
for employment opportunities and advance in their careers. However, 
barriers continue to prevent these veterans from receiving employment 
opportunities. Unless these barriers are eliminated, training 
opportunities alone will not address the needs of those veterans who 
have the most significant disabilities to allow them to reintegrate 
into the workforce and contribute to their communities.
    Although veterans with disabilities are like their non-veteran 
counterparts in their employment disadvantages, there are differences 
as well. Barriers that prevent people with significant disabilities 
from being able to work include lack of access to Medicaid funded 
health care and long-term services and supports and loss of Social 
Security benefits. Although there are programs that allow people with 
disabilities to transition to employment, many are fearful of 
participating in these programs due to concerns about the loss of 
critical benefits or the inability to find employment providing 
sufficient resources to replace those provided under Medicaid.
    Veterans who have disabilities that allow them to receive health 
care and service-connected disability benefits through VA retain these 
benefits even if they return to work because eligibility is not income 
dependent. VA disability compensation is intended to do more than 
offset the economic loss created by a veteran's inability to obtain 
gainful employment. It also takes into consideration a lifetime of 
living with a disability and the everyday challenges associated with 
that disability. It reflects the fact that even if a veteran is 
employed, when he or she goes home at the end of the day, that veteran 
does not leave the disability at the office.
    Although ability to retain VA benefits may lessen the barriers to 
employment for some veterans who have significant disabilities, it is 
important to remember that many of these veterans may also be eligible 
for Social Security disability benefits. These benefits, which may 
include their own cash assistance plus family benefits, are lost if the 
veteran returns to work. Other veterans who acquire severe disabilities 
outside of military service may not be eligible for VA benefits and are 
thus subject to work disincentives in other Federal programs.
    Veterans with disabilities, like other people with disabilities, 
face other barriers to employment that include misinformation about 
disability and misperceptions about required accommodations. The 
Department of Labor's Office of Disability Employment Policy (ODEP) has 
developed a list of myths and facts that addresses some of the concerns 
that employers may have regarding hiring a person with a disability. 
Some of the most prominent myths include concerns that the Americans 
with Disabilities Act (ADA) requires employers to hire unqualified 
applicants with disabilities and prevents employers from firing 
employees with disabilities even if the reason for termination is not 
related to the disability. Both of these myths are false.
    Other myths that cause concern for employers relate to the 
provision of accommodation for employees with disabilities. Employers 
may believe that providing accommodations is costly and that this 
burden is particularly heavy for small businesses. However, many people 
with disabilities do not require accommodations to perform their jobs. 
The Job Accommodation Network, which is a program of ODEP, reports that 
of those individuals who require accommodations, two-thirds can be 
successfully accommodated at a cost of less than $500.
    Consequently, programs that assist veterans and people with 
disabilities must work together to ensure that all facets of the 
individual's disability are adequately addressed to allow the veteran 
to return to employment. Veterans not only need programs that provide 
them with the skills that allow them to succeed but they also need 
placement specialists who can help potential employers to overcome 
concerns about hiring a person with a disability.
    Thank you for the opportunity to testify regarding the views of the 
CCD Veterans Task Force concerning employment opportunities for 
severely disabled veterans. There are many other veterans employment 
programs and initiatives being undertaken by the public sector, private 
companies, and nonprofit organizations that we could have highlighted. 
Our aim today is to convey to the Committee a sense of the many 
employment programs that can assist veterans with disabilities beyond 
the traditional VA avenues.
    We encourage the Committee to continue its exploration of this 
topic and salute your leadership on behalf of our Nation's veterans 
with disabilities. The CCD Veterans Task Force is ready to work in 
partnership to ensure that all veterans are able to reintegrate into 
their communities and remain valued, contributing members of society.
                                 <F-dash>
        Prepared Statement of Major General James D. Tyre, ARNG
        Assistant Adjutant General, Florida Army National Guard,
                   United States Army National Guard
                           Executive Summary
    Overview: The Florida National Guard (FLNG) remains challenged with 
unemployment among its 12,000 servicemembers. Through the support of 
legislators, a number of programs have been made available to assist 
transitioning servicemembers find employment. While the FLNG has 
experienced some improvements, the need exists to explore options to 
enhance and expand current processes, with an emphasis on follow-up in 
the 6-24 months after separation.

    <bullet>  FLNG Employment. The 53rd Infantry Brigade Combat Team 
redeployed in December 2010 and reported a 30 percent unemployment rate 
among its members. A FLNG survey conducted in January 2011 indicated a 
17 percent rate among soldiers of the Florida Army National Guard. A 
decline in available jobs and a steadily growing population of veterans 
contributes to the unemployment issue.
    <bullet>  What We Are Doing Now. FLNG has long-standing 
partnerships with several State and Federal agencies, as well as a 
number of private and non-profit organizations. The FLNG Adjutant 
General established the Florida Guard Family Career Connection (FGFCC) 
in the fall of 2010 to link servicemembers with the Employer 
Partnership for Armed Services and Florida's Agency for Workforce 
Innovation. This program also assisted servicemembers with employment-
seeking skills and job placement.
    <bullet>  What Else Can Be Done. Several agencies focus on 
assisting servicemembers with employment challenges, and most military 
installations provide transition services to separating servicemembers. 
Guardsmen lack the facility-based programs that are traditionally 
provided to the active component. The FLNG vision, properly resourced, 
is to establish a local, accessible source in our communities that 
integrates services and programs, and links Guardsmen to employers.
    <bullet>  Importance of Employing National Guard Soldiers. 
Employers who hire National Guard servicemembers enjoy economic and 
other intangible advantages. A Guardsman is a worker that is already 
trained at the journeyman-level, and who has access to medical benefits 
outside of the workplace. Further, a Guardsman is a disciplined, drug-
free, physically-fit leader and role model for other employees.
    <bullet>  Building Resiliency. Service and family member well-being 
remains a top priority for the FLNG. Unemployment is just one factor of 
several that contributes to an elevated rate of divorce, suicide and 
other challenges for members of all military services and components. 
The FLNG is committed to mitigating these issues in order to maintain a 
ready and reliable force for the Nation.

                               __________
1. Opening Remarks
    Chairman Miller, Ranking Member Filner, distinguished Members of 
the Committee; I am honored to appear before you today, on behalf of 
the Adjutant General of Florida, Major General Emmett Titshaw and the 
12,000 members of the Florida National Guard.
    I welcome the opportunity to illustrate, through our story, a 
picture that is likely common across all of our States and territories. 
Over the last 6 months, our units have returned home after the largest 
mobilization of the Florida National Guard since World War II. We have 
served our Nation in Afghanistan, Iraq, Kuwait, Qatar, Saudi Arabia, 
and the Horn of Africa, as well as here in the National Capital Region 
and other regions of the globe. Guardsmen have proudly answered the 
call when needed but have returned home to face a different threat; 
unemployment. Closing businesses, fewer jobs and an overall economic 
decline have contributed to the struggle associated with redeployment 
of our forces. A number of great Federal, State and private programs 
exist to assist Guardsmen transitioning back to civilian life. The 
challenge that remains is finding or creating a link that joins our 
unemployed Guardsmen with existing resources or programs that result in 
a viable career. Through various testimonies over the past several 
months, the National Guard has presented evidence of our enduring value 
to the Nation, through our contributions to the Nation's defense at 
home and abroad, and by way of a ready and an accessible force. To 
maintain this cost-efficient resource, we must ensure our National 
Guard members are able to sustain and support their families with 
reliable, quality employment.
2. FLNG Employment Circumstances
    Historically, unemployment ranges from roughly 14-38 percent across 
redeploying units of the Florida National Guard. In January 2011, the 
Florida National Guard initiated a statewide assessment of the 
unemployment rate among our units. To date, our surveys identified over 
1,700 soldiers who responded that they are unemployed. This represents 
17 percent of our Army National Guard force. The majority of these 
Guardsmen have been redeployed since July 2010. The 533rd Infantry 
Brigade Combat Team has been our largest redeploying unit with 
locations from Miami to Panama City. This unit returned this past 
December with more than 30 percent expressing civilian employment 
challenges.
    Though our detailed assessment of causes continues, the reasons are 
varied and include business closures, downsizing, and other economic 
factors that have impacted the entire Nation. Further, we have 
identified the greatest challenges to employment emerge months or years 
after the servicemember returns home. Currently there is no enduring 
program at the local level to address this need. During this economic 
downturn Florida has lost more than 900,000 nonagricultural jobs. 
According to the Office of Actuary, Department of the Veterans 
Administration, Florida has the fastest growing veterans' population in 
the Nation, with almost 1.7 million veterans. There are more than 
139,000 active, reserve and National Guard servicemembers who claim 
Florida as their home State of residence. The combination of decreasing 
jobs and a growing population of veterans contributes to the 
unemployment issue.
3. What We Are Doing Now
    The Florida National Guard has successfully partnered on employment 
issues for many years with corporations such as Home Depot, CSX, and 
Lowes. Employer Support of the Guard and Reserve, Troops to Teachers, 
Helmets to Hard Hats and the Agency for Workforce Innovation, are some 
public and private organizations and programs that have also partnered 
with the Florida National Guard through our reintegration events which 
evolved into the Yellow Ribbon Program.
    In the fall of 2010, with the return of a large number of Florida 
National Guard units, the Adjutant General of Florida established the 
Florida Guard Family Career Connection (FGFCC), which joined with the 
Employer Partnership for Armed Services and Florida's Agency for 
Workforce Innovation, to assist our soldiers and Airmen. These 
organizations registered approximately 450 returning Infantry Brigade 
soldiers with their respective employment agencies and also provided 
resume and cover letter writing classes so soldiers could immediately 
post their resumes for any open position they found. The soldiers also 
had access to a consolidated employment Web site and were able to add 
their resumes to well known employment search engines. Despite these 
efforts, our Guardsmen continue to experience employment challenges, 
and we have discovered that many of these actually begin to materialize 
6-24 months after redeployment.
    The Florida National Guard is authorized one uniformed and two 
contract employees working in the capacity of Transition Assistance 
Advisors (TAA). These individuals have the responsibility to ensure the 
12,000 servicemembers are aware of the different benefits available 
after a deployment, and are challenged by these large numbers. In 
addition to the TAA, the Florida Employer Support of the Guard and 
Reserve Committee is responsible for gaining and maintaining employer 
support for Guard and Reserve. Through their Ombudsman, they work on 
the Uniformed Services Employment and Reemployment Rights Act (USERRA) 
issue resolution with Florida employers. Since October 2010 the ESGR 
has successfully resolved 77 USERRA cases. We currently have 3 cases 
pending resolution.
4. What Else Can Be Done
    We're proud of the progress we have made in engaging our 
servicemembers and linking them to employers through the resources that 
I just highlighted. We believe, however, that there are still some 
measures that can be taken to enhance our ability to foster these 
relationships.
    Developing incentives for employers to seek out and hire National 
Guardsmen would begin to address the needs of the businesses that do 
support the National Guard, and encourage those that would like to 
support, but cannot afford to during these tough economic times. While 
a servicemember is deployed many businesses must hire a temporary 
employee to take the servicemember's civilian job. This creates a 
dilemma for the employer who must compensate for the loss of this 
highly skilled employee. Perhaps something can be done for these 
employers to reduce this burden. Due to recurring deployments this 
incentive should be perpetual.
    We are watching with interest several individual State programs 
that have already demonstrated value, but may be at risk of future 
funding. Identifying and adequately resourcing the successful ones is 
vital. One program, the Job Connection Education Program (JCEP) is 
funded through the Army National Guard, and piloted in the State of 
Texas. Since its establishment in March 2010, over 350 soldiers have 
been placed in jobs directly through the services of JCEP, and on 
average, are earning twice the wages of other veterans placed by the 
Texas Workforce Commission. Focusing on identifying and translating 
military experience into civilian job skills, many beneficiaries of 
this program have transitioned to careers as journeymen, rather than 
low-wage jobs as entry-level employees. This program is an adaptive 
process, continuously analyzing and discarding those activities that 
are ineffective, and enhancing those that work. It has progressed from 
placing just 4 veterans per month, to most recently over 50 per month 
into valuable careers.
    The Washington State National Guard instituted a similar full-time 
employment transition initiative to help link various programs for 
transitioning servicemembers. In 6 months, this program helped to 
employ 583 Guardsmen. Other examples of employment resources such as 
Direct Employers, the Employer Partnership of the Armed Forces and Save 
Our Veterans are available online and are tailored to assist veterans 
with translating military experience into civilian skill sets and 
connecting servicemembers to employers.
    However; without sustained resourcing, centralized planning, 
decentralized delivery and an individually-tailored plan, 
servicemembers may miss opportunities just for lack of knowing ``where 
to go.''
    For Florida National Guardsmen, we envision a one-stop shop that 
integrates complementary systems and locally ties them to employers. 
This program would provide an attractive menu of available skill sets 
to employers and convey the benefits of hiring Guardsmen. It would 
enable them to fill vacant positions and potentially create growth by 
presenting options to expand with more affordable costs. Additionally, 
this program would provide transition services to Guardsmen in an 
environment that eases the navigation through the numerous resources 
that are already available. Our armories and facilities, if properly 
resourced, are well-suited to house this type of enterprise because of 
their local ties to communities.
5. Importance of Employing National Guard Soldiers
    The programs I've highlighted are just a few, and obviously require 
appropriate resourcing, but in the end, will pay dividends through 
other metrics.
    Reserve Component servicemembers who are employed are easier to 
retain in their respective services. We are at our peak of readiness, 
and the cost to replace and train even one servicemember is 
immeasurable. The institutional knowledge and experience that these 
combat-tested leaders possess cannot be learned overnight or even over 
several years. We cannot afford to lose this generation of soldiers and 
Airmen, as the negative consequences will impact the readiness that 
we've worked over a decade to achieve.
    Employers of National Guardsmen enjoy several economic benefits. 
Guardsmen arrive with trained skill sets, ranging from administrative, 
logistical, organizational, and maintenance to engineering, health 
services, and information technology. Often, their military-acquired 
skills exceed those of their civilian counterparts. Additionally, many 
transition with the Veterans' Administration or other military health 
entitlements that may reduce the cost of employer provided health 
insurance.
    In addition to the financial advantages of hiring Guardsmen, 
employers profit from the intangible qualities these employees bring to 
the workforce. They are disciplined, motivated, physically fit, and 
drug-free leaders. They are viewed as trusted role-models in their 
communities, and help bring credibility to any organization.
    Employed National Guardsmen are active in both their unit and their 
community. In this dual role they contribute to the economic growth of 
society. In Florida, more than $472 million is injected annually into 
the local communities by the presence of the National Guard.
6. Building Resiliency
    Addressing issues of unemployment is just one means to tackle what 
has become an issue of resiliency, not just for the National Guard, but 
also for other components and services. Throughout the National Guard 
we have experienced elevated numbers of suicide, divorce and other 
issues associated with physical and mental health. Sadly, these 
problems have multiple components, become ``migratory,'' and ultimately 
affect whole families, schools, and communities. As servicemembers 
redeploy and transition to civilian life, hometown communities want to 
embrace them and provide a support network for full assimilation. A 
locally embedded resource that is postured to integrate employers, 
Guardsmen and other available resources to eliminate unemployment among 
our servicemembers is critical.
7. Closing Remarks
    On behalf of Major General Emmett Titshaw and the 12,000 soldiers 
and Airmen of the Florida National Guard, the civilian workforce, and 
their families, I would like to thank you for your service to this 
great Nation. It has been an honor to be with you today and I am 
grateful that I have had the opportunity to speak on this important 
issue. I look forward to your questions.

                                 <F-dash>
            Prepared Statement of Ruth A. Fanning, Director,
  Vocational Rehabilitation and Employment Service, Veterans Benefits 
          Administration, U.S. Department of Veterans Affairs
    Chairman Miller, Ranking Member Filner, and Members of the 
Committee, thank you for inviting me to appear before you today to 
discuss the Department of Veterans Affairs (VA) Vocational 
Rehabilitation and Employment (VR&E) program. I am pleased to appear 
before you to discuss the vitally important topic of veterans' 
employment. We look forward to continuing our strong collaboration with 
this Committee and the entire Congress as we work together to enhance 
the delivery of services and benefits for veterans with disabilities 
seeking to live independent and productive lives through successful 
careers.
Overview of the VR&E Program
    The VR&E program is designed to assist disabled servicemembers in 
their transition to civilian life and suitable employment and careers. 
Our primary mission is to assist veterans with service-connected 
disabilities through our VetSuccess program to prepare for and obtain 
suitable and sustainable employment through the provision of services 
individually tailored to each veteran's needs.
    VetSuccess Program: VR&E VetSuccess services begin with a 
comprehensive evaluation to help veterans identify and understand their 
interests, aptitudes, and transferable skills. Next, vocational 
exploration focuses veterans' potential career goals in line with 
labor-market demands. This allows veterans to participate as partners 
with their counselors in the development of a rehabilitation plan that 
builds on their transferable skills and ultimately assists them in 
achieving their career goals. To help veterans accomplish their 
rehabilitation goals, VR&E provides a broad range of employment 
services including:

    <bullet>  Translation of military experience to civilian skill 
sets;
    <bullet>  Direct job-placement services;
    <bullet>  Short-term training to augment existing skills to 
increase employability (e.g., certification preparation tests and 
sponsorship of certification);
    <bullet>  Long-term training including on-the-job training, 
apprenticeships, college training, or services that support self-
employment;
    <bullet>  Independent living services for those veterans so 
severely disabled they may not currently be able to work, with the goal 
of exploring vocational options when each individual is ready; and
    <bullet>  On-going case-management assistance throughout their 
rehabilitation programs to assist with any needs that would interfere 
with retention and completion to the point of employment.

    Coming Home to Work (CHTW) Program: To maximize early intervention 
to assist transitioning servicemembers to achieve suitable careers, 
prevent underemployment, and mitigate risks of homelessness, VR&E 
provides extensive outreach and early intervention services through our 
CHTW program. Under this program, full-time VR&E rehabilitation 
counselors are assigned to 13 military treatment facilities to assist 
disabled servicemembers in planning for their next careers. We also 
have CHTW coordinators in every regional office working with Department 
of Defense (DoD) Warrior Transition Units and programs, coming home 
events, Guard and Reserve Yellow Ribbon events, and Post Deployment 
Health Reassessments, with the goal of encouraging members and new 
veterans to enter programs of services that will assist them in 
achieving their individual career goals.
    The FY 2012 budget request includes an increase of 132 direct FTE 
to support additional outreach and early intervention programs, 
including:

    <bullet>  110 employees are requested to increase VR&E's early 
intervention and outreach program in the joint VA/DoD Integrated 
Disability Evaluation System (IDES). VR&E rehabilitation counselors at 
the selected IDES sites will provide separating servicemembers with a 
mandatory initial counseling session, followed by continued vocational 
services for eligible servicemembers who elect to participate in the 
VR&E program. Initial meetings will inform servicemembers of the 
availability of benefits and services through VR&E and other VA 
education programs. In many cases, this will allow training and 
preparatory services to begin while the servicemember is still in the 
IDES process.
    <bullet>  Nine additional FTE are requested to expand VA's 
VetSuccess on Campus initiative. This program, already in place at 
eight campuses, supports veteran-students in completing college 
educational benefits, such as the Post-9/11 GI Bill, to assist them to 
complete college and enter fulfilling careers. VR&E rehabilitation 
counselors and Vet Center counselors provide strong on-campus support 
systems that include counseling services, assistance in accessing VA 
benefits, help in overcoming barriers that may include physical or 
mental health issues, assistance in connecting with other veteran-
students, and assistance with employment.

    In addition, VR&E is in the process of modernizing the Disabled 
Transition Assistance Program (DTAP). Program content will be 
specifically tailored to servicemember and veteran audiences, and DTAP 
will be deployed in multiple channels, including the traditional on-
location base sessions, the web, and portable media. This new multi-
media-channel approach will make DTAP available to veterans and family 
members on a ``just-in-time'' basis. In addition, enhanced content will 
make information comprehensive and more easily understood.
Transforming VR&E to a 21st Century Program
    VR&E Service recently launched a transformation project geared to 
make our program the premier 21st century vocational rehabilitation and 
employment program. VR&E's transformation effort focuses on modernizing 
and streamlining services using a veteran-centric approach.
    VR&E's transformative changes include allowing veterans more choice 
in their appointment scheduling through automated scheduling, and 
expediting veterans' entry into a rehabilitation program by 
streamlining and expediting the evaluation and planning process through 
reduction of required processes and paperwork performed by VR&E 
counselors. The VR&E program plans to release a knowledge management 
portal to simplify counselors' access to regulations, guidance, and 
other policy information needed to perform their jobs. VR&E is also 
developing methods and business rules to move to a paperless processing 
model that incorporates self-service. All of these initiatives focus on 
simplifying processes and streamlining the program so that veterans may 
more quickly and easily access services resulting in employment.
    Working in collaboration with VA's Innovation Initiative (VAi2), 
VR&E Service is engaged in innovative initiatives to build self-
employment incubators and tools, leading to more veteran-owned 
businesses and self-management that will allow the most seriously 
disabled veterans to work in the career of their choosing and live as 
independently as possible. We are also conducting a VA employee 
innovation competition to allow the staff working every day with our 
veterans to identify additional program enhancements. Important 
partners in the self-employment innovation have included the Small 
Business Administration and VA's Office of Small and Disadvantaged 
Business Utilization.
Employment Initiatives
    As illustrated in my testimony thus far, veteran employment is the 
fundamental mission of the VR&E VetSuccess program. Success relies on 
early intervention, smart processes, productive partnerships, good 
rehabilitation planning, and retention to the point that each veteran 
is job-ready. Although all of these areas are vitally important, the 
most important are those services that assist job-ready veterans to 
cross the finish line and land the career that they have prepared for 
throughout their civilian and military experiences.
    In FY 2010, out of the 10,038 veterans that were successfully 
rehabilitated from the program, 51 percent were hired in the private 
sector, 33 percent were hired with the Federal Government, 12 percent 
were hired with State and local government, and 4 percent were hired 
with faith-based and community organizations. Of note, 79 percent of 
veterans were employed in professional, technical, or managerial 
careers, earning an average starting salary of $38,734 annually.
    I would like to highlight some specific VetSuccess initiatives 
focused on assisting veterans to obtain and maintain suitable 
employment consistent with their potential and interests.

    <bullet>  Employer Education: VR&E staff work with all employment 
sectors to help them understand the smart business decision that hiring 
a veteran represents. Veterans bring with them a high degree of 
discipline, an understanding of both leadership and teamwork, a drive 
to achieve the mission, and a work ethic and maturity that are 
difficult to rival.
    <bullet>  Executive Order 13518: VR&E is working aggressively with 
government agencies and departments to implement the Executive Order to 
hire veterans. VR&E is assisting these government employers in 
understanding special veteran and VR&E program hiring authorities and 
promoting their utilization of the VR&E Non-paid Work Experience (NPWE) 
Program--an internship program that allows a government entity to ``try 
out'' a veteran for a job at no cost. We are also encouraging them to 
take advantage of recruitment opportunities through VetSuccess.gov, a 
Web site designed by VR&E for veterans seeking employment and employers 
seeking veteran-employees.
    <bullet>  Private-Sector Employers: VR&E works with the private 
sector to understand tax credits, special employer incentives, and on-
the-job training programs available when hiring veterans, as well as 
the VetSuccess.gov program.
    <bullet>  Career Fairs: VR&E participates in live and virtual 
career fairs. These fairs allow veterans to meet large numbers of 
employers in one location, whether in their community or via the 
internet; view and apply for jobs; chat live with recruiters; and 
participate in job interviews on the spot or via internet chat. VR&E is 
actively marketing these job fairs through multiple venues. VR&E 
partners are also linking to the VetSuccess Web site. Recently, on a 
Jumbo Tron in Times Square, New York, a partner advertised VetSuccess 
in conjunction with an upcoming career fair.
    <bullet>  Troops to Counselors: VR&E developed the Troops to 
Counselors Initiative to increase the number of veterans hired as 
Vocational Rehabilitation Counselors within VBA. This initiative 
introduces veterans with bachelors degrees in human services, and those 
interested in the human services field, to the field of rehabilitation 
counseling, one of the top 10 growth industries. It will also fast 
track employment since students may be hired as administrative staff 
using the Student Career Experience Program (SCEP) at any point during 
their bachelors and graduate programs, and hired as counselor interns 
once they enter the internship portion of their graduate programs. 
Participation in SCEP allows VBA to hire graduates noncompetitively. 
VR&E has set a goal that 60 percent of new vocational rehabilitation 
counselor hires in 2014 and beyond will be veterans.
    <bullet>  VetSuccess.gov: The VetSuccess.gov Web site has been 
enhanced to provide a one-stop resource for both disabled and able-
bodied veterans and family members to access services during 
transition, campus life, job search, and career attainment. The program 
also assists veterans with disabilities to maximize independence in 
their homes and communities. The Web site includes a job board for 
employers desiring to hire veterans; resume builders and upload tools 
that allow veterans to utilize resumes already developed; a military-
to-civilian jobs translator; aggregator tools for employers seeking 
certain skill sets and for veterans seeking specific jobs; and a 
feedback mechanism to self-report employment gained through the site. 
The job-board feature of VetSuccess.gov currently connects over 68,000 
veterans with over 1,500 employers. Veterans also have access through 
the Direct Employers Job Central career board to over 4 million jobs, 
with additional links to other popular and highly populated job boards. 
Other enhancements to the site include self-assessment tools and 
interactive maps that drill down to resources in the veteran's 
community. Future enhancements will include self-assessment tools, an 
enhanced military-to-civilian-jobs translator, and linkage to E-
Benefits effective next month, allowing self-service features such as 
checking the status of a specific employment application.
    <bullet>  Stakeholder Relationships: Relationships with 
stakeholders including DoD, the Department of Labor (DoL), the 
Department of Education's Rehabilitation Services Administration (RSA), 
private and public sector employers, and non-profit organizations are 
vital to the success of the VR&E program. Key stakeholders such as RSA 
and DoL play significant roles in working with VR&E toward the ultimate 
goal of suitable employment of veterans.
          <bullet>  Rehabilitation Services Administration (RSA): VR&E 
has several MOAs in place with local State Vocational Rehabilitation 
programs and is in the process of finalizing a national MOA with RSA. 
Our Employment Coordinators join the Council of State Administrators of 
Vocational Rehabilitation ``NET'', or national employment team, opening 
up a larger number of employer contacts and employment opportunities 
for veterans. In addition, shared training has helped to build skill 
sets, share best practices, and build networks important to success in 
job placement.
          <bullet>  Department of Labor (DoL): DoL is a key partner in 
the placement of veterans with disabilities. DoL's grant-funded 
Disabled Veterans' Outreach Program (DVOP) specialists, and Local 
Veterans' Employment Representatives' (LVERs') primary roles are to 
assist job-ready veterans with disabilities to obtain and sustain 
employment. In addition, these staff members assist able-bodied 
veterans in their job searches. VA and DoL have an ongoing joint work 
group, along with State Workforce Agencies, which developed and rolled 
out a best-practice model and standard operating procedures, and 
provided training to staff from all organizations. In addition DoL 
worked with VR&E and the State Workforce Agencies to co-locate a DVOP 
specialist or LVER at each of the 57 VR&E regional office locations. 
The joint work group monitors and measures progress and successes and 
provides assistance to offices as needed.

Conclusion
    VA continues to seek new and innovative ways to assist veterans in 
achieving their goals for full, productive, and meaningful lives and 
careers. Our focus is on helping veterans build upon the excellent 
skills gained through their military service, providing streamlined 
services resulting in career employment. VA will continue to work with 
all sectors of Government and private and public employment communities 
to assist veterans in reaching their highest potential in this 
challenging 
economy.

    Chairman Miller, Ranking Member Filner, and Members of the 
Committee, this concludes my statement. Thank you again for the 
opportunity to testify. I will be happy to respond to any questions.
                                 <F-dash>
            Prepared Statement of Hon. Raymond M. Jefferson,
    Assistant Secretary, Veterans' Employment and Training Service,
                        U.S. Department of Labor
    Chairman Miller, Ranking Member Filner, and Members of the 
Committee:

    Thank you for the opportunity to appear as a witness before the 
Committee and speak to you on Putting America's Veterans Back to Work.
    The Veterans' Employment and Training Service (VETS) proudly serves 
veterans and transitioning servicemembers by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights. We do that through programs that are an integral part of 
Secretary Solis's vision of ``Good Jobs for Everyone.''
    For the purposes of this hearing today, I would like to elaborate 
on our programs and initiatives that assist America's Veterans in 
getting to or back to work.
Putting Veterans Back to Work--the Jobs for Veterans State Grants 
        Program
    The first program that I would like to highlight for you is the 
Department's Jobs for Veterans State Grants (JVSG) Program. Under this 
grant program, the Department offers employment and training services 
to eligible veterans by allocating funds to State Workforce Agencies in 
direct proportion to the number of veterans seeking employment within 
their State. The grants support two distinct JVSG programs: (1) the 
Disabled Veterans' Outreach Program (DVOP) and (2) the Local Veterans' 
Employment Representatives (LVER) program.
    I am pleased to see that the National Association of State 
Workforce Agencies is testifying today. Their members are core partners 
in the public workforce system that operates the One-Stop Career 
Centers where the DVOPs and LVERs provide services to veterans.
    In the Department's first JVSG program, DVOP specialists provide 
intensive employment services and assistance to meet the employment 
needs of eligible veterans. DVOPs do this primarily at the Nation's 
One-Stop Career Centers funded through the Workforce Investment Act. 
Our specialists also provide recovery and employment assistance to 
wounded and injured servicemembers receiving care at Department of 
Defense military treatment facilities, the Army's Warrior Transition 
Units, the Navy Safe Harbor Program, the Air Force Wounded Warrior 
Program and the Marine Corps Wounded Warrior Regiments through the 
Recovery & Employment Assistance Lifelines (REALifelines) program.
    In the Department's second JVSG program, LVER staff reach out to 
employers and engage in advocacy efforts with hiring executives to 
increase employment opportunities for veterans, encourage the hiring of 
disabled veterans, and generally assist veterans to gain and retain 
employment. They are often members of One-Stop Career Center business 
development teams. LVERs also conduct seminars for employers and job 
search workshops for veterans seeking employment, and facilitate the 
provision of employment, training, and placement services to veterans 
by all staff of the employment service delivery system.
    Last year, the JVSG provided services to nearly 589,000 veterans, 
and 201,000 veterans found jobs.
Putting Disabled Veterans to Work--Vocational Rehabilitation
    VETS also collaborates with the Department of Veterans Affairs to 
support disabled veterans in the Vocational Rehabilitation and 
Employment (VR&E) program. DVOPs are outstationed at VR&E offices to 
provide employment information to VR&E participants during their 
rehabilitation program, and refer them at the end of the program to 
DVOPs at One-Stop Career Centers. The DVOPs at One-Stop Career Centers 
then provide intensive services to referred participants to assist them 
in obtaining employment.
    Besides working with job-ready veterans, the outstationed DVOP is 
involved at the front end of the VR&E process to help veterans 
determine local labor market information. This interaction facilitates 
the rehabilitation planning process by providing the veteran and the 
VR&E counselor with current data on salary and job outlook as well as 
increasing understanding of working conditions for specific 
occupations.
    There is currently either a DVOP specialist or LVER outstationed at 
least half-time in 48 of the VA Regional Offices and in 19 satellite 
offices. In FY 2010, 4,989 disabled veterans who completed VR&E were 
referred to the State Workforce Agencies for intensive employment 
services. Of these, 1,764 were placed into employment.
Putting Homeless Veterans Back to Work--the Homeless Veterans' 
        Reintegration Program
    The Homeless Veterans' Reintegration Program (HVRP) is another 
initiative to assist America's veterans in getting back to work. 
Through HVRP, the Department provides competitive grants to State and 
local workforce investment boards, State agencies, local public 
agencies, and private non-profit organizations, including faith-based 
organizations and neighborhood partnerships. HVRP grantees provide an 
array of services utilizing a holistic case management approach that 
directly assists homeless veterans and provides training services to 
help them to successfully transition into the labor force.
    In Program Year (PY) 2009, over 14,000 homeless veterans 
participated in this program through 96 grants, and 8,470 were placed 
into employment.
Putting Veterans Back to Work--Training with the Job Corps
    In June of 2010, VETS and the Employment and Training 
Administration's (ETA's) Job Corps program developed a demonstration 
project to help younger veterans get back to work. Through this 
demonstration project, VETS and Job Corps offer additional educational 
and career technical training at one of three specific Job Corps 
centers to eligible veterans and transitioning servicemembers who are 
24 years old or younger. Participants will receive free transportation 
to and from the Job Corps center, housing, meals, basic medical 
services, and academic and career technical training. When veterans are 
ready to start looking for a job, staff will work with them to find job 
openings and submit resumes. Job Corps will help graduates for up to 21 
months after graduation to connect with housing, transportation, and 
other support services.
    We have worked with Job Corps to streamline the program so that it 
recognizes the maturity and life experience that our veterans have 
gained from their military experience. Job Corps employs a 
comprehensive career development training approach that teaches 
academic, career technical, employability skills, and social 
competencies in an integrated manner through a combination of 
classroom, practical and work-based learning experiences to prepare 
participants for stable, long-term employment in high-demand jobs. Job 
Corps graduates have the opportunity to earn an industry-recognized 
certification or credential that supports the skills and knowledge 
gained through career training.
Putting Veterans Back to Work--the Veterans' Workforce Investment 
        Program
    Yet another way the Department is working to help veterans get back 
to work is through the Veterans' Workforce Investment Program (VWIP). 
Through VWIP, the Department awards competitive grants geared toward 
focused training, re-training and employment opportunities for recently 
separated veterans, veterans with service-connected disabilities, 
veterans with significant barriers to employment and veterans who 
served on active duty during expeditions or campaigns for which 
specific badges were awarded. These grants are awarded to meet the 
needs of employers for qualified workers in high demand industries, 
particularly those occupations requiring a license or certification.
    In FY 2009, VWIP was refocused to provide training and employment 
services in green energy occupations as envisioned in the Green Jobs 
Act of 2007. There are currently 22 grants serving 4,600 veterans.
Putting Transitioning Servicemembers to Work--the Transition Assistance 
        Program
    Our primary program for assisting individuals with their transition 
from the military to the civilian workforce is the Transition 
Assistance Program (TAP). TAP is an interagency program delivered via a 
partnership involving the Department of Defense, DoL VETS, the 
Department of Veterans Affairs, and the Department of Homeland 
Security. VETS provides an employment workshop that is a comprehensive 
two-and-a-half-day program during which participants are provided 
relevant skills and information, such as job search techniques, career 
decision-making processes, and current labor market conditions.
    Currently, VETS uses a mix of contractors, VETS Federal staff, 
Disabled Veterans' Outreach Program specialists, and Local Veterans' 
Employment Representatives as TAP facilitators. In the future, however, 
VETS will transition to all skilled contract facilitators with DVOPs 
continuing their involvement in the workshops as subject matter 
advisors.
    VETS is taking the unprecedented step of completely redesigning and 
transforming the TAP employment workshop. We are creating experiential, 
effective, and enduring solutions for a successful transition from 
military to civilian life and employment. The new TAP will be based on 
established best practices in career transition. The request for 
proposals was issued on April 15, 2011. Our goal is to have the new 
workshop implemented by Veterans' Day 2011.
    Last year, nearly 130,000 transitioning servicemembers and spouses 
attended a TAP employment workshop given at one of 272 locations world-
wide.
Putting Veterans Back to Work--Employer Partnerships
    I am pleased to see that the U.S. Chamber of Commerce and the 
Society for Human Resource Management (SHRM) are testifying today. VETS 
created, and is implementing, a new approach to employer outreach that 
involves pilot programs and partnerships with both these organizations. 
These partnerships are giving us much broader access to employers so 
that we can communicate the value of hiring a veteran and how to access 
this extraordinary source of talent. It also allows us to educate 
employers about the unique skills veterans bring with them based on 
their military experience. Connecting the talent pool with the many 
companies looking to hire veterans allows for a more efficient hiring 
process for many veterans and employers.
    The Chamber is working to identify 100 hiring fairs exclusively for 
veterans, transitioning servicemembers and their spouses. In the 
partnership, the U.S. Chamber and its affiliates focus primarily on 
securing the participation of employers while the VETS team focuses on 
obtaining participation by veterans, transitioning servicemembers and 
their spouses. The larger hiring fairs are titled ``Mega-Hiring 
Fairs.'' An example was the hiring fair in Chicago on March 24, 2011 
that connected over 100 employers with over 1,000 veterans, 
transitioning servicemembers, and spouses.
    VETS is working with SHRM to identify opportunities for VETS State 
managers to meet with local SHRM chapters to connect veterans seeking 
employment with companies who are hiring. For VETS this is an effective 
and efficient way to connect employers and veterans. We are also 
working with SHRM in the development of an H.R. Toolkit that will 
provide employers with the methods and procedures to establish a 
veteran hiring program and to hire veterans.
Demographics of Veterans Placed into Employment by VETS Programs
    In your letter of invitation, you requested specific demographic 
information. Unfortunately, our reporting systems do not provide much 
of the information that you requested. However, I am able to provide 
the following:

          In FY 2010, for the VETS' JVSG program, 13 percent of all 
        participants were recently separated veterans, meaning they had 
        left the service within 3 years.
          In PY2009 in the HVRP program, 6.1 percent of the veterans 
        had been out of the service 3 years or less, 6.0 percent had 
        been out 4-7 years, 4.9 percent were out of the service 8-11 
        years, 5.6 percent had been out of the service 12-15 years, 
        11.3 percent were out 16-19 years, and 66.1 percent were out 20 
        or more years.
          In PY2009 under the VWIP program, 22.4 percent of the 
        participants had been out of the service 3 years or less, 9.4 
        percent had been out 4-7 years, 5.6 percent were out of the 
        service 8-11 years, 6.0 percent had been out of the service 12-
        15 years, 9.3 percent were out 16-19 years, and 47.3 percent 
        were out 20 or more years.
          The average salary 6 months after placement for veterans in 
        the JVSG program (FY 2010) was $30,804. We do not collect 
        information at other periods of time in the JVSG program.
          In the HVRP and VWIP programs we collect salary data at three 
        intervals. All salaries provided are for PY2009.
          The average initial salary for veterans in the HVRP program 
        was $21,133 and the average initial salary for veterans in the 
        VWIP program was $31,533.
          The average salary between 6 months and a year after 
        placement for those veterans in the HVRP program was $22,818 
        and in the VWIP program it was $33,446.
          You also asked for the status of the contract for the 
        National Veterans' Training Institute (NVTI). The request for 
        proposals closed on April 21, 2011, and we are currently 
        evaluating the submitted proposals. We plan to make an award by 
        mid-June 2011.

    This concludes my statement and I would be happy to respond to any 
questions.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011

Richard A. Hobbie
Executive Director
National Association of State Workforce Agencies
444 North Capitol Street, NW, Suite 142
Washington, DC 20001

Dear Richard:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds

                               __________

                   National Association of State Workforce Agencies
                                                    Washington, DC.
                                                     August 3, 2011
Honorable Bob Filner
Ranking Democratic Member
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Attention Debbie Smith:
    I am pleased to submit responses to questions raised as a result of 
my testimony before the Committee at the hearing entitled, ``Putting 
America's Veterans Back to Work'' which took place on June 1, 2011.
    Please let me know if you would like further information.

            Sincerely,

                                                     Richard Hobbie
                                                 Executive Director
Attachment

                               __________

    Question 1: How can we help employers understand the qualifications 
veterans and servicemembers have to offer?

    Answer: With limited resources, State Workforce Agencies (SWA) 
attempt to make labor exchange services as efficient as possible. SWAs 
and local one-stop career centers work closely with unemployed veterans 
to gain a sense of their skills, and they assist them either to apply 
directly for available jobs, or if needed, they offer intensive 
services up to and including training.
    The SWAs have used web services, such as the National Labor 
Exchange (NLX) and the MOS crosswalk page at O*Net, where employers and 
veterans can relate the Military Occupational Classification with the 
private sector Occupations. Today much of the interaction between job 
seekers and employers occur thru Web sites.
    The Transition Assistance Program (TAP) can help veterans learn how 
to communicate with employers in ways employers understand, and make 
connections for potential employment. Requiring all of the armed 
services to mandate transitioning members to attend TAP would help 
prepare them for connecting with employers.
    Promotional efforts to demonstrate the value of hiring a veteran 
and to better define the qualifications of a veteran or servicemember 
need to be increased. Congressional support for such efforts would help 
to maintain this as a priority.
    The employer tool kit developed by the U.S. Department of Labor 
Veterans Employment and Training Service (VETS) is an excellent start, 
but may need to be marketed better to employers. The link is in a 
prominent spot on the VETS Web site, but could be identified better 
with an icon or something to attract attention. VETS could promote the 
tool kit more directly with employer groups and associations. The tool 
kit is available at: (http://www.americasheroesatwork.gov/forEmployers/
HiringToolkit). Many other groups and agencies also have developed 
employer tool kits.

    Question 2: Do you think that employers are looking for a labor 
pool of applicants with marketable and transferable job skill that 
veteran's lack?

    Question 2(a): What types of jobs are most veterans likely to 
qualify for and do those jobs exist or are there enough of those jobs?

    Answer: To answer this question with any specificity we would need 
to discuss the skills of specific categories of veterans. For example, 
if we look at the education levels of veterans, we find veterans have a 
wide range of educational backgrounds. In the four categories shown in 
Appendix A, veterans have an education distribution equal to or better 
than the general population.
    We do not have data on unsuccessful matches between the veteran job 
seeker and available jobs; real-time labor market information and 
analysis may help, but the ability to do this is just now emerging 
among States.
    We have information on veterans who get training under the 
Workforce Investment Act. The data show more than 28,000 veterans 
received services in program year 2010, including training, to help 
them gain skills needed to obtain new jobs.

    Question 3: What grade would you give employers for understanding 
the Uniformed Services Employment and Reemployment Rights Act (USERRA)?

    Question 3(a): What grade would you give to employers for USERRA 
compliance?

    Answer: NASWA and the SWAs are not involved directly with USERRA. 
VETS, especially the State Directors for Veterans Employment and 
Training (DVETs), have the primary responsibility for the USERRA 
program. Also, representatives for the Employer Support for the Guard 
and Reserve (ESGR) assist in processing initial USERRA questions and 
complaints. Workforce system staff members, especially DVOPs and LVERs, 
are knowledgeable about the basic criteria under USERRA, and refer 
veterans to the DVET in their State, or to ESGR representatives.
    NASWA does not have specific data on program understanding by 
employers; anecdotal evidence would indicate a good deal of 
understanding. The Society of Human Resource Managers (SHRM) conducted 
a survey in 2010; the results are shown in Appendix B.
    Although the SHRM survey is based on a relatively small sample of 
employers, it demonstrates a need to improve education of employers 
about their responsibilities under USERRA. There is heavy employer 
involvement in membership in DirectEmployers, which partners with NASWA 
to run the National Labor Exchange and VetCentral.
    There is evidence from VETS that the number of official complaints 
filed against employers has remained relatively constant for the last 5 
years, which may indicate at least there is not a growing problem. In 
2010, there were 1,438 new USERRA cases, plus 244 carry over cases. 
This compares with the following caseloads:

    2005--1,252 cases
    2006--1,434 cases
    2007--1,365 cases
    2008--1,426 cases
    2009--1,431 cases

    According to VETS, approximately one third of the meritorious cases 
each year are resolved, one third of the cases are not supported by 
evidence, and one third of the cases are withdrawn or were not eligible 
under USERRA.
Appendix A

                                    Educational Attainment by Veteran Status
----------------------------------------------------------------------------------------------------------------
                                              Percent distribution
-----------------------------------------------------------------------------------------------------------------
                                                                                            Some
                                                              Less than a  High school   college or    College
                       Veteran status                         high school   graduate,    associate     graduate
                                                                diploma     no college     degree
----------------------------------------------------------------------------------------------------------------
Nonveterans                                                          14.3         30.8         27.6         27.2
----------------------------------------------------------------------------------------------------------------
Veterans                                                              7.4         32.7         32.8         27.1
----------------------------------------------------------------------------------------------------------------
Gulf War-era II veterans                                              1.5         29.2         45.9         23.4
----------------------------------------------------------------------------------------------------------------
Gulf War-era I veterans                                               1.5         28.0         41.4         29.1
----------------------------------------------------------------------------------------------------------------
WWII, Korean War and Vietnam-era veterans                            10.2         32.3         28.9         28.6
----------------------------------------------------------------------------------------------------------------
Source: Bureau of Labor Statistics, Current Population Survey, annual averages 2009, at: www.bls.gov/spotlight/
  2010/veterans


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011

Jolene Jefferies
Vice President, Strategic Initiatives
DirectEmployers Association
9002 North Purdue Road
Quad III; Suite 100
Indianapolis, IN 46268

Dear Jolene:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds

                                 ______
                                 
                             June 29, 2011
To:     The Honorable Bob Filner, Ranking Democratic Member House 
        Committee on Veterans' Affairs
From:  Jolene Jefferies, VP Strategic Initiatives DirectEmployers 
        Association
Re:     Response to Your Letter of June 22, 2011

Mr. Filner, my answers to your questions are noted below:
   Committee on Veterans' Affairs U.S. House of Representatives Post-
   Hearing Questions for Ms. Jolene Jefferies From the Honorable Bob 
                                 Filner
          Putting America's Veterans Back to Work June 1, 2011
    Question 1: Are contractors aware of Federal Contractor Job 
Listings?

    Response: Yes, employers who are Federal contractors are aware of 
Federal Contractor Job Listings requirements. The affirmative action 
provisions of VEVRAA require covered contractors and subcontractors to 
take affirmative action to employ and advance in employment qualified 
covered veterans (38 U.S.C. 4212(a)). To implement the affirmative 
action requirement, VEVRAA and its implementing regulations found at 41 
CFR Parts 60-250 and 60-300, require contractors and subcontractors to 
list most employment openings with an appropriate employment service 
delivery system and each such employment service delivery system is to 
provide protected veterans priority referrals to such openings.
    Positions that will be filled from within the contractor's 
organization and positions lasting 3 days or less are exempt from this 
mandatory job-listing requirement. Listing employment openings with the 
State workforce agency job bank or with the local employment service 
delivery system where the opening occurs will satisfy the requirement 
to list jobs with the local employment service delivery system. The 
Office of Federal Contract Compliance Programs (OFCCP) is responsible 
for ensuring compliance with requirements in VEVRAA that contractors 
list their employment openings with the appropriate employment service 
delivery system. Employers know they can find additional information 
regarding compliance with the job listing requirement on the OFCCP Web 
site in the form of FAQs http://www.dol.gov/ofccp/regs/compliance/faqs/
jvafaqs.htm.
    DirectEmployers Association, in partnership with the National 
Association of State Workforce Agencies (NASWA), operates the 
JobCentral National Labor Exchange (NLX) (http://www.jobcentral.com/). 
The NLX (http://www.directemployers.org/about/national-labor-exchange/) 
was selected by NASWA in March, 2007, to provide job seekers, employers 
and State workforce agencies a cost-effective transition from America's 
Job Bank (AJB) when it was discontinued by the U.S. Department of Labor 
in June, 2007.
    The NLX provides a wide range of employment services to 
participating State workforce agencies, from job listing distribution 
to and from State employment Web sites, web traffic and search engine 
optimization (SEO) services and much more--all at no cost. The 
comprehensive NLX network of 50 individual State sites is powered by 
DirectEmployers' Employment Search Engine. The site uses advanced 
search technology to index (``spider'') jobs from thousands of 
individual employer sites. When job seekers click on a job title on the 
search results page they are linked directly to the job on the 
company's Web site or a State job bank's site, depending on the origin 
of the job posting.
    As a parallel service of the NLX, DirectEmployers also created 
VetCentral (www.jobcentral.com/vetcentral/). VetCentral is designed to 
assist our member companies, most of whom are Federal Government 
contractors, to comply with the mandatory job listing requirements of 
VEVRAA, amended by the Jobs for Veterans Act (JVA).
    VetCentral distributes the new job openings each day to some 3,000 
One-Stop Career Centers putting these jobs directly into the hands of 
staff (e.g., the Local Veteran Employment Representatives and the 
Disabled Veteran Outreach Program Coordinators) dedicated to helping 
veterans find jobs. The job listings are sent directly to the Center 
nearest the job location.
    While the member companies of DirectEmployers Association are large 
and often distribute hundreds of jobs each week, we have created a tool 
within VetCentral to allow small companies to post jobs one at a time 
and have them distributed directly to the nearest One Stop Center and 
veteran employment staff at the Center. The cost of this service is 
underwritten by our members so it is free to the small companies and 
costs the taxpayers nothing.
    For a more detailed description about the JobCentral National Labor 
Exchange (NLX) (http://www.directemployers.org/about/national-labor-
exchange/) and the accomplishments of the NLX, please see Attachment 1.
    Question 2: Why is there no official list of Federal Contractors?
    Response: The OFCCP does not appear to have an effective way within 
their own organization to track Federal contractors and the contact 
names and information of each contractor's CEO, the company's chief 
hiring official, the company's Equal Employment/Affirmative Action 
compliance officer, and each State workforce agency's contact person 
for affirmative action compliance. The OFCCP needs this information for 
assessing contractor compliance with Section 4212 and their employment 
of veterans. To reduce administrative burden, employers prefer 
providing the OFCCP with the chief hiring official's contact 
information rather than each local hiring manager's name and/or a 
company contact name on each individual job posting. Similarly, State 
workforce agencies prefer that the OFCCP work through a single point of 
contact from each State agency, such as an administrator or State 
manager, rather than working with a local DVOP or LVER when a question 
about a Federal contractor's compliance audit regarding Federal 
contractor job listings may arise.
    The Office of Management and Budget (OMB) has a Web site to track 
and publish the names of Federal contractors (see Attachment 2 about 
USASpending.gov), but it doesn't appear that this Web site or database 
is adequately and appropriately utilized across Federal agencies, such 
as the OFCCP. Rather than creating their own separate system to track 
much of the same information that the OMB is currently tracking on 
Federal contractors, the OFCCP should leverage the use of OMB's 
database to track and access the contact names and contact information 
for each Federal contractor and each State workforce agency to ensure 
the right individuals from these organizations receive data and 
information from Federal agencies when communications deal with, or are 
about, the employment and retention of veterans or a compliance audit.
    Thank you for the opportunity to respond to these additional 
questions. Please let me know if I may be of further assistance.

            Respectfully submitted,

                                                   Jolene Jefferies
                                           VP Strategic Initiatives

Attachments:
1--Description of the NLX and its Accomplishments
2--OMB Tracks Federal Contractors

                                 ______
                                 
      Attachment 1: Description of the NLX and its Accomplishments
                JOBCENTRAL NATIONAL LABOR EXCHANGE (NLX)
What is the NLX?
    The JobCentral National Labor Exchange (NLX) is a sophisticated 
electronic labor exchange solution. This online network connects 
businesses and State workforce agencies in their mission to create a 
cost-effective system that improves labor market efficiency and 
reflects our Nation's diverse workforce.
    The NLX network connects over 5,000 large employers and their job 
opportunities with the publicly operated State job banks--vastly 
expanding the number of searchable job opportunities for jobseekers and 
providing employers the ability to meet hiring goals. Further, NLX 
allows State operated job banks to seamlessly exchange job opportunity 
content collected through the activities of State workforce agencies 
business representatives.
How does it work?
    In an automated and cost effective fashion, the NLX gathers 
currently available and unduplicated job opportunities from verified 
employers and pushes that content into State workforce agency sites to 
reach a maximum number of jobseekers. The NLX is not a destination 
point where you apply for a position, but rather a jobs content 
provider directing jobseekers back to the where the job opportunity 
originated (e.g., the job may have been originally posted on a State 
job bank or an employer's corporate Web site).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



Who are the NLX Principals?
    This unique public-private venture is the result of an alliance 
between NASWA, an association representing State workforce agencies, 
and DirectEmployers Association, an organization representing primarily 
Fortune 500 companies. NLX leverages private, non-profit-owned 
technology with existing State workforce agency resources and combines 
the agility and innovation of the private sector with the public 
sector's ability to offer information and services in a trusted 
environment.
How does the NLX help employers?
    The NLX plays an important role in helping employers build their 
workforce and comply with State and Federal regulations by serving as 
our Nation's only online cross-state labor exchange and distributing 
job listings to the State and local level. It also helps employers meet 
Federal job posting requirements for Affirmative Action Plans, Vietnam 
Era Veterans' Readjustment Assistance Act (VEVRAA), and Jobs for 
Veterans Act (JVA) compliance.
    By making their jobs available on the NLX, employers increase their 
recruiting reach and extend diversity initiatives with a consistent and 
aggressive program to make employment opportunities available to 
individuals from all cultures and population segments.
                      NLX Accomplishments to Date
    Created in March 2007, the NLX has brought substantive value to 
jobseekers, employers and participating State workforce agencies.
    Jobseekers have access to a quick and easy platform that gives them 
free access to more, currently available jobs, from verified employers.
    Employers can reduce hiring and resource costs, meet and exceed 
affirmative action objectives, achieve JVA compliance, get free 
nationwide exposure, and have access to a much larger pool of job 
applicants.
    State Workforce Agencies have embraced the NLX with a total of 
forty-eight (48) States, plus the District of Columbia signing 
participation agreements. Under the oversight of the Operations 
Committee--a group comprised of State and employer representatives, the 
NLX partnership has embraced the principles of transparency and 
flexibility.
    Over the last 3 years the NLX has:

      1.  Delivered 8 million job openings into State job banks. State 
officials can access a Job Counter and view how many jobs the NLX 
contains in their State at any given day at http://
stateadmin.jobcentral.org/statistics.aspx

           <bullet>  This number reflects unduplicated and available 
        jobs (not expired job orders).
           <bullet>  This number does not include job orders 
        originating from State workforce agency job banks.
           <bullet>  This number includes 3 million Federal contractor 
        jobs reportable under the Federal Contractor Job Listing (FCJL) 
        program requirements.
           <bullet>  These job orders are free of advertising of any 
        kind.

      2.  Provided an electronic bridge for State job banks to share 
job orders with one another. State workforce agencies can take a feed 
of job orders from neighboring States and State workforce agencies' job 
banks.

      3.  Offered State job banks downloads of job orders coded by 
O*NET. This affords State workforce agencies greater ease in pursing 
future job-matching reemployment efforts.

      4.  Offered State job banks free job order indexing as a service 
States can offer to their business customers. As a true national labor 
exchange, the NLX indexes a total of 5,000 employers who are not DE 
members. State workforce agencies do not need to purchase costly 
spidering packages, but can identify ``indexable'' business, notify the 
NLX, and download that file.

      5.  Completed development of an Analytics dashboard tool enabling 
State workforce agencies to view transactional data about jobseeker 
searches. The tool captures: (1) the flow of jobseeker traffic into 
State job banks from the NLX, and the (2) flow of jobseekers from State 
job banks to jobs originating from employers' Web sites. O*NET coding 
of job orders allows for in-depth use of data and the production of 
different reports.

         Of critical importance is the ability for State workforce 
agencies to demonstrate to specific employers that a State job bank is 
sending traffic to an employers' Web site. Because DE can now show an 
employer the jobseeker traffic coming from a specific State job bank, 
the employer is able to better track applicant referral source 
information. This offers both employers and State workforce agencies 
tangible information about the value of the National Labor Exchange and 
its online self-services.

         The dashboard is now available to State workforce agencies at 
no cost.

      6.  Provided free hosting of State Job Banks. The NLX provides a 
free labor exchange solution, skinned to the preferences of a State 
workforce agency. The job bank available offers flexibility in look and 
feel and can be easily administered by State workforce agency staff. In 
addition to cost savings, this option offers hosted States the full 
breadth of JobCentral services, such as free integrated extended 
searches*. Currently, Connecticut, New Jersey, New York and Nevada are 
being fully hosted by the NLX.

         *Extended search--a jobseeker's search criteria on the NLX are 
run invisibly to him/her against other search engines. Results from 
those searches are offered in a sidebar option to the jobseeker and not 
comingled with the NLX results.

      7.  Built and Administered VetCentral Services: Under Federal 
law, contractors receiving over $100K of Federal funds, must list their 
positions with either the State workforce agency job bank or with the 
appropriate local employment service delivery office. Since not all 
States are in the position of taking an NLX electronic download and 
since even those that do download cannot keep an electronic copy of all 
job postings, the VetCentral service was designed to facilitate the 
situation.

         VetCentral is that part of the NLX that emails all Federal 
Contractor Job Listings (FCJL) jobs to the appropriate State staff at 
the appropriate local employment centers (where Wagner-Peyser funding 
exists). This functionality allows employers to generate a report they 
may provide to the Office of Federal Contractor Compliance. Most 
importantly, it allows States to put more jobs in the hands of local 
staff and provide greater opportunities to veterans, while at the same 
time helping the workforce system meets its own priority of service 
requirements.

         The NLX has maintained a robust list of the appropriate local 
One-Stop employment center addresses and contact information. In 
addition, the NLX partners provided countless educational discussions 
with interested stakeholders, many times conducting research on behalf 
of Federal employers and State workforce agencies engaged in an OFCCP 
audit. Finally, the NLX has provided thousands of copies of VetCentral 
materials to field staff.

      8.  Partnered with the U.S. Army Reserve and Army National Guard. 
Since October 2008, JobCentral, the job search platform powering the 
NLX, has also served as the job search engine powering the Armed Forces 
Employer Partnership initiative created and directed by Lieutenant 
General Jack C. Stultz of the U.S Army Reserve. The initiative, which 
is in the process of expanding to include all branches of the Guard and 
Reserve, aims at outreaching to employers and bringing employment 
opportunities to servicemembers before they separate from service. NLX 
has become the primary employment search engine for this initiative and 
is provided to at no cost to the Department of Defense or the U.S. Army 
Reserve.

         You may view the site at: http://www.employerpartnership.org.

         This partnership has allowed servicemembers to connect with 
the workforce system before separation, which can bring a potential 
applicant pool of over one million servicemembers to State job banks.

      9.  USAJOBs.gov: Since late September 2008, the JobCentral NLX is 
also receiving a download of jobs from USAJOBs. Sponsored by the 
Federal Office of Personnel Management, USAJOBs is a job bank 
containing Federal Government positions. This download of Federal job 
openings is available to States for inclusion in their own States job-
banks. To date, the following States have requested the USAJOBs be fed 
into their own job bank: Alabama, Arkansas, Connecticut, Delaware, 
Delaware, Florida, Hawaii, Iowa, Kansas, Kentucky, Minnesota, Missouri, 
Nevada, New York, Oklahoma, South Carolina, Tennessee, Texas, Utah, 
Vermont, Washington, and Wisconsin. States interested in receiving this 
download may request it from NASWA.

    10.  MySkillsMyFuture.org DoL ETA Partnership. On September 7, 
2010, in a press release (http://www.dol.gov/opa/media/press/eta/
eta20101216.htm) the Department of Labor announced the launch of a web 
portal to help job seekers called ``mySkills myFuture.'' 
DirectEmployers Association is proud to be the provider of jobs data to 
this valuable tool from the U.S. Department of Labor's Employment and 
Training Administration. The new tool, www.MySkillsMyFuture.org, is 
designed to connect workers with high quality training and local 
employment opportunities. DirectEmployers Association's jobs are now in 
both the U.S. Department of Labor's www.MySkillsMyFuture.org and 
www.CareerOneStop.org career sites.
              Attachment 2: OMB Tracks Federal Contractors
Obama Administration begins publishing names of Federal subcontractors 
        on Web
By Carol D. Leonnig
Washington Post Staff Writer
Wednesday, December 1, 2010; 10:41 PM

    The U.S. government is giving the public new details about how it 
is spending taxpayer money on government business.
    Starting Wednesday, the Obama administration began publicizing the 
names of subcontractors--the companies that get the majority of Federal 
contracts--along with the dollar amounts they receive. For years, the 
government reported only the companies that won major, or prime, 
government contracts--even if those companies then hired subcontractors 
to do most of the job. Now taxpayers can follow more accurately where 
their dollars are going, tracing public money to the specific companies 
and communities that share in multimillion-and billion-dollar Federal 
work. The previous dearth of information about government subcontracts 
led to incomplete and sometimes misleading conclusions about Uncle 
Sam's impact on communities.
    For example, an agency may have boasted of awarding a $100 million 
prime contract for debris removal after Hurricane Katrina to a 
homegrown Louisiana company. But that company may have lacked the 
equipment to tackle the work, and then hired two hauling companies 
based in Virginia and Texas to do most of the job.
    The new subcontractor details are available on the Office of 
Management and Budget's Web site, USASpending.gov. Recipients of all 
Federal contracts and grants larger than $25,000 will be required to 
report the names of companies they hire.
    The subcontractors' names are being made public as required by the 
Federal Funding Accountability and Transparency Act, which became law 
in 2006 under President George W. Bush. The information's' release is 2 
years behind schedule. A smaller portion of subcontractor information--
for contracts larger than $20 million--was made public in October. Both 
the Bush and Obama administrations faulted technical obstacles for 
preventing accurate reporting and Web site publication of subcontractor 
information. After the Obama administration spent tens of millions of 
dollars in 2009 to create a public Web site, FederalReporting.gov, to 
track money spent on stimulus projects--including subcontractor 
details--it cleared the way for the same information to be published on 
standard government contracts.
    Moira Mack, an OMB spokeswoman, said resources also factored into 
the delay. Contracting spending dramatically increased under the Bush 
administration but the number of contracting employees remained 
stagnant, Mack said.
    Because of the law, the public will now learn if a huge contract 
won by a fledgling minority-or female-owned company helped that firm or 
instead flowed to a well-heeled contracting firm founded and run by a 
white man. The records also would reveal whether defense work that was 
meant to help shore up an electronics company in recession-plagued 
rural Pennsylvania was instead largely being done by a powerful defense 
giant in Arlington County. Craig Jennings, director of Federal fiscal 
policy at OMB Watch, an advocate for government transparency, said the 
public may learn good and bad news about government spending with the 
new initiative.
    ''You really have to follow the chain [of a contract] to the end, 
or you just don't know where the dollars are going,'' Jennings said. 
``Before this, sometimes a city is listed as the primary recipient of a 
grant or contract. We wouldn't know prior to this that the brother-in-
law of the mayor is receiving those subcontracts.''
    In an April letter setting reporting deadlines for senior Federal 
managers, Jeffrey Zients, then the acting OMB director, stressed the 
importance of the transparency effort. ``Full and easy access to 
information on government spending promotes accountability by allowing 
. . . both the public and public officials to gauge the effectiveness 
of expenditures,'' he wrote. ``Transparency also gives the public 
confidence that we are properly managing its funds.'' One day after 
being sworn into office, President Obama pledged that his 
administration would be the most open in history--a vow made in the 
wake of steady complaints that the Bush administration was too 
secretive. Although the current administration has made significant 
progress in releasing public information, it has faced its share of 
criticism that--like the previous White House--it has been loath to 
release public information that may cast its team in an unflattering 
light or hamper its agenda.
    Jennings said taxpayers could end up feeling more comfortable about 
government contracts when they know the nitty-gritty details. Instead 
of reading on a government Web site about a vague $14 million 
transportation grant given to a State government, taxpayers now can see 
how the State split those funds among 20 different road and bridge 
projects in different locations, and which subcontractors did the jobs.
    ``All we hear about is stupid, wasteful government spending,'' he 
said. ``But this will likely show us how the money is actually coming 
to your city, even your neighborhood.''

                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011

Kevin M. Schmiegel
Vice President
Veterans Employment Program
U.S. Chamber of Commerce
1615 H Street, NW
Washington, DC 20062-2000

Dear Kevin:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds

                               __________
                        U.S. Chamber of Commerce
          Responses to Questions for the June 1, 2011, hearing
    Question 1: You state that the U.S. Chamber and local chambers are 
uniquely positioned to coordinate public and private sector efforts 
across America. What is preventing you from starting the coordination.

    Response:: The Chamber has been coordinating public and private 
sector efforts across America since we launched the Hiring our Heroes 
program in March of 2011. Our coordination efforts include engagement 
with the White House, State and local chambers, the Departments of 
Defense, Labor and Veterans Affairs, State workforce agencies, veteran 
services organizations, and several non-profit organizations. Since the 
launch of Hiring our Heroes at end of March 2011, the Chamber has 
conducted 16 hiring fairs and connected over 16,000 veterans and 
military spouses with over 800 different employers in 13 States. 
Detailed coordination was required for all of those hiring fairs. 
Working with the local chambers, DoL VETS, and ESGR, the Chamber held 
its largest hiring fairs in Chicago on March 24, New York City in June, 
and Los Angeles in July. In Chicago, we connected 127 employers with 
1200 veterans and military spouses--over 200 of them got jobs. In New 
York City, there were 106 employers and over 1500 veterans and military 
spouses. And in Los Angeles, there were 160 employers and over 1600 
veterans and military spouses in attendance.

    Question 2: Since licensure and certification is more of a State 
issue how can the U.S. Chamber of Commerce help with this very 
difficult issue?

    Response: In addition to our substantive efforts to conduct hiring 
fairs for veterans and military spouses, the U.S. Chamber can call on 
its federation of 2,500 State and local chambers and industry 
associations and more than 3 million businesses to deal with issues 
that negatively affect employment of veterans to include licensing and 
certification.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011

George Ondick
Executive Director, Department of Ohio
AMVETS
4647 Forbes Boulevard
Lanham, MD 20607

Dear George:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds

                               __________
                                          AMVETS Department of Ohio
                                                      Columbus, OH.

Bob Filner, Ranking Member
Committee on Veterans Affairs
U.S. House of Representatives

Honorable Bob Filner:

In response to your letter of June 22, 2011 whereas you asked if:

    1.  Do Federal employers know and understand hiring authorities?

    I am sure some do understand hiring authorities. However, in my 
opinion the majority of Federal Employers do not. That is why we the 
Ohio AMVETS are attempting to establish a Summit meeting. This day long 
Summit will address the problems related to complying with Federal 
requirement on hiring veterans. We wish to invite representatives from 
OFCCP, ESGR, ODJFS, ONG, Federal Contractors, and any other 
stakeholders who may wish to participate. At the Summit we will look at 
the barriers to compliance, how Federal contractors skirt the 
requirement, how to be in compliance and most importantly how to find 
veterans to fill the positions within the company.

    2.  In your opinion, do you think the current unemployment rate for 
younger veterans tends to be higher because they are taking time off 
after deployment(s) before obtaining employment or may be attending 
school?

    First of all I believe that veterans who are attending school are 
not considered in the ranks of the unemployed therefore those attending 
school would not skew the unemployment figures. That being said the 
members of the National Guard are also not considered in the ranks of 
the unemployed because they are in the Guard. This really skews the 
unemployment figures giving us a lower reading on the unemployment 
numbers for veterans than what is actually happening in the real world.
    Yes some returning veterans may take some well deserved time off, 
but it is not going to be an exorbitant amount of time that would 
impact unemployment stats. Most of our returning veterans, by necessity 
are eager to return to the workforce. However barriers to employment 
keep them in the ranks of the unemployed. One of the barriers is 
letting the unemployed veterans know about veteran friendly employers 
and visa versa. That is where the Ohio Veterans Career Assistance 
Network (Ohio Vets Can) is able to make the employer-employee link up. 
A product of the Ohio AMVETS Career Center this Web site makes the 
connection between the veteran and the employer. By making that 
connection it also aids in compliance with the Federal mandates to hire 
veterans and does so at no cost to either the veteran or the employer.
                                                      George Ondick
                                                 Executive Director
                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011
Cpt. Marshall Hanson, USNR (Ret.)
Director, Legislative and Military Policy
Reserve Officers Association
One Constitution Ave., NE
Washington, DC 20002

Dear Captain Hanson:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax your responses to Debbie at 202-225-2034. If you 
have any questions, please call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds

                               __________
                     Committee on Veterans' Affairs
                     U.S. House of Representatives
           Post-Hearing Questions for Captain Marshall Hanson
                     From the Honorable Bob Filner
                Putting America's Veterans Back to Work
                              June 1, 2011
    Question 1: What more can we do to help Reserve members with their 
employment needs?

    Response: Veterans are returning from war to an increasingly tough 
job market, with National Guard and Reserve members facing additional 
problems. The military paid $882 million in unemployment benefits in 
2010.
    We are now seeing unprecedented levels of returning servicemember 
unemployment and under-employment. Eventually, this trend in 
unemployment could have negative impacts on force readiness with 
National Guard and Reserve members leaving the military to stabilize 
their civilian employment.
    The relationship between civilian employers and their employees or 
potential employees that also serve in the Guard and Reserve is 
extremely important. Many employers view USERRA as a negative 
incentive, and ask the Reserve Officers Association for positive 
reinforcements.
    Improvements can be made to help veteran/Reserve Component hiring:

      <bullet>  Implement DoD documentation that would inform employers 
of skills potential veteran hirees gained through their military 
service.
      <bullet>  Support employer tax incentives specific to the hiring 
of returning veterans and reserve component members.
      <bullet>  Explore grants for related costs caused by mobilization 
such as the hiring and training of new temporary employees.
      <bullet>  Simplify cross-licensing/credentialing of military 
skills easing the burden of having to acquire new training and time 
with equipment to earn private sector licenses/credentials.
      <bullet>  Oversee implementation of OPM and VA veterans' 
recruitment and employment strategic plans.
      <bullet>  Improve communications to field on improvements in 
veteran preference hiring programs.
      <bullet>  Support incentives permitting deployed small business 
owners to keep their businesses.
      <bullet>  Better educate separating servicemembers on their 
employment and reemployment rights (USERRA) including corrective 
actions that can be taken.

    Employer care plans should be developed that will assist with 
mitigation strategies for dealing with the civilian workload during the 
absence of the servicemember employee and lay out how the employer and 
employee would remain in contact throughout the deployment. Employers 
need increased notification time in order to better support their 
personnel.

    Question 2: Do you think that some employers are concerned about 
hiring a veteran with mental health issues?

    Response: Yes. The impact of the publicity campaigns about Post-
Traumatic Stress Disorder and Traumatic Brain Injury paint veterans in 
a negative light; affecting their ability to be hired.

    Published Department of Labor statements aren't helping:

      <bullet>  Nearly one in five veterans of the Iraq and Afghanistan 
wars is currently suffering from depression or stress disorder. 
Estimates range up to 300,000 with PTSD.
      <bullet>  PTSD among returning servicemembers will cost the 
Nation as much as $6.2 billion in the 2 years following deployment--an 
amount that includes both direct medical care and costs for lost 
productivity.
      <bullet>  When the Society for Human Resource Management surveyed 
its members (June 2010), 46 percent said they believed post-traumatic 
stress and other mental health issues posed a hiring challenge.
      <bullet>  Although media attention has helped make the diagnosis 
and treatment of PTSD and traumatic brain injury a government priority, 
veterans say it has also contributed to the stigma associated with 
these wounds.
      <bullet>  TBI/PTSD-related stigma exists among many employers--
employers are unaware of the resources that exist to help them provide 
appropriate workplace accommodations.

    TBI/PTSD stigma exists in the very Federal agencies that are 
supposed to be assisting veterans, by portraying the returning veteran 
as disabled. The experiences taught by working with severely physically 
wounded warriors is that most don't feel themselves as handicapped, but 
want to be self-reliant.
    Every treatment should be made available and assistance should be 
provided, but the veteran shouldn't be labeled. The goal should be to 
help our veterans return to a normal life.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                      June 22, 2011

The Honorable Raymond M. Jefferson
Assistant Secretary, Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled ``Putting 
America's Veterans Back to Work,'' that took place on June 1, 2011, I 
would appreciate it if you could answer the enclosed hearing questions 
by the close of business on August 5, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Debbie Smith by fax at 202-225-2034. If you have any questions, please 
call 202-225-9756.

            Sincerely,

                                                         BOB FILNER
                                          Ranking Democratic Member
JL:ds
                               __________
                     Committee on Veterans' Affairs
                     U.S. House of Representatives
          Post-Hearing Questions from the Honorable Bob Filner
                Putting America's Veterans Back to Work
                              June 1, 2011
    1.   Which groups of veterans are struggling the most with 
employment?

    Veterans of all ages and periods of service are struggling at this 
time and deserve the attention of the Veterans' Employment and Training 
Service (VETS). This fact is illustrated by the rise in the veteran 
unemployment rate from 3.2 percent in September 2007 to 8.1 percent as 
of September 2011. Currently, there are nearly one million unemployed 
veterans of all ages. Based on Bureau of Labor Statistics (BLS) 
measures of unemployment rates, younger veterans appear to experience 
the highest incidence of unemployment. Because of this, VETS conducts 
increased outreach to younger veterans to ensure that they are aware of 
the employment and training services that are available to them.
    VETS strives, consistent with its mission, to provide services to 
all veterans, based on individual need. Therefore, we have included 
employment data on both veterans and non-veterans. VETS believes this 
data should provide the Committee with some insight into the struggles 
facing the men and women who served this country.
    Below please find the September 2011 U.S. Bureau of Labor 
Statistics, Economic News Release, table ``A-5-Employment status of the 
civilian population 18 years and over by veteran status, period of 
service, and sex, not seasonally adjusted,'' which provides a snapshot 
of the employment status from the previous month. Updated information 
can be found on the VETS Web site http://www.dol.gov/vets/ under 
``Veterans Employment--Current Monthly Data.''
    It is clear from table A-5 that veterans have much lower labor 
force participation rates than non-veterans, 52.5 percent vs. 67.1 
percent in September 2011. Female veterans have a higher labor force 
participation rate (61.5 percent) than do male veterans (51.7 percent), 
because female veterans as a group are younger on average than the male 
veteran group, on average. Similarly, employment-to-population ratios 
of male and female veterans were 47.6 and 55.5 compared to 70.2 and 
54.4 for male and female non-veterans in September 2011.
    On the other hand, overall unemployment rates are lower for 
veterans than non-veterans, in part due to the fact that veterans are 
concentrated in the 45-65 year old range, as pointed out below. 
However, recent veterans have unemployment in the double digits 
compared to non-veterans. The unemployment rates were 11.1 percent and 
14.7 percent for male and female Gulf War-era II veterans in September 
2011 compared to 8.7 percent for male non-veterans and 8.6 percent for 
female non-veterans. This may be partly due to the fact that Gulf War-
era II veterans tend to be younger, and younger individuals, whether 
veteran or not, tend to have higher unemployment rates.

                                                 HOUSEHOLD DATA
 Table A-5. Employment status of the civilian population 18 years and over by veteran status, period of service,
                                        and sex, not seasonally adjusted
                                             [Numbers in thousands]
----------------------------------------------------------------------------------------------------------------
                                                             Total                Men                Women
  Employment status, veteran status, and period of   -----------------------------------------------------------
                       service                          Sept.     Sept.     Sept.     Sept.     Sept.     Sept.
                                                        2010      2011      2010      2011      2010      2011
----------------------------------------------------------------------------------------------------------------

VETERANS, 18 years and over-------------------------------------------------------  ----------------------------
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                    21,933    21,528    20,142    19,724     1,791     1,804
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                    11,683    11,310    10,590    10,200     1,093     1,109
----------------------------------------------------------------------------------------------------------------
Participation rate                                        53.3      52.5      52.6      51.7      61.0      61.5
----------------------------------------------------------------------------------------------------------------
Employed                                                10,746    10,394     9,743     9,393     1,003     1,002
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               49.0      48.3      48.4      47.6      56.0      55.5
----------------------------------------------------------------------------------------------------------------
Unemployed                                                 937       916       847       808        90       108
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                          8.0       8.1       8.0       7.9       8.2       9.7
----------------------------------------------------------------------------------------------------------------
Not in labor force                                      10,250    10,218     9,552     9,524       698       695
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Gulf War-era II veterans
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                     2,228     2,451     1,828     2,042       399       409
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                     1,857     2,017     1,575     1,712       282       305
----------------------------------------------------------------------------------------------------------------
Participation rate                                        83.3      82.3      86.1      83.8      70.6      74.7
----------------------------------------------------------------------------------------------------------------
Employed                                                 1,666     1,781     1,411     1,521       256       260
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               74.8      72.7      77.1      74.5      64.1      63.7
----------------------------------------------------------------------------------------------------------------
Unemployed                                                 190       235       164       191        26        45
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                         10.2      11.7      10.4      11.1       9.2      14.7
----------------------------------------------------------------------------------------------------------------
Not in labor force                                         371       434       254       330       117       104
----------------------------------------------------------------------------------------------------------------
 ...............................................................................................................
----------------------------------------------------------------------------------------------------------------
Gulf War-era I veterans
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                     2,966     2,980     2,525     2,520       441       460
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                     2,515     2,474     2,199     2,147       316       327
----------------------------------------------------------------------------------------------------------------
Participation rate                                        84.8      83.0      87.1      85.2      71.7      71.1
----------------------------------------------------------------------------------------------------------------
Employed                                                 2,347     2,295     2,057     1,987       289       308
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               79.1      77.0      81.5      78.9      65.6      67.0
----------------------------------------------------------------------------------------------------------------
Unemployed                                                 169       179       142       160        27        19
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                          6.7       7.2       6.4       7.4       8.6       5.7
----------------------------------------------------------------------------------------------------------------
Not in labor force                                         451       506       326       373       125       133
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
World War II, Korean War, and Vietnam-era veterans
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                    10,911    10,346    10,547    10,016       364       331
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                     3,984     3,491     3,870     3,405       115        86
----------------------------------------------------------------------------------------------------------------
Participation rate                                        36.5      33.7      36.7      34.0      31.5      26.0
----------------------------------------------------------------------------------------------------------------
Employed                                                 3,649     3,256     3,545     3,177       104        79
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               33.4      31.5      33.6      31.7      28.6      23.9
----------------------------------------------------------------------------------------------------------------
Unemployed                                                 336       235       325       229        10         7
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                          8.4       6.7       8.4       6.7       9.1       8.0
----------------------------------------------------------------------------------------------------------------
Not in labor force                                       6,927     6,855     6,677     6,610       250       245
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Veterans of other service periods
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                     5,828     5,751     5,241     5,146       587       605
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                     3,326     3,328     2,946     2,936       380       392
----------------------------------------------------------------------------------------------------------------
Participation rate                                        57.1      57.9      56.2      57.1      64.8      64.7
----------------------------------------------------------------------------------------------------------------
Employed                                                 3,084     3,062     2,730     2,707       354       354
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               52.9      53.2      52.1      52.6      60.4      58.6
----------------------------------------------------------------------------------------------------------------
Unemployed                                                 242       266       216       229        26        37
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                          7.3       8.0       7.3       7.8       6.9       9.5
----------------------------------------------------------------------------------------------------------------
Not in labor force                                       2,502     2,423     2,295     2,210       207       213
----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
NONVETERANS, 18 years and over
----------------------------------------------------------------------------------------------------------------
Civilian noninstitutional population                   207,224   209,678    90,661    92,251   116,563   117,427
----------------------------------------------------------------------------------------------------------------
Civilian labor force                                   140,190   140,784    70,272    70,876    69,918    69,908
----------------------------------------------------------------------------------------------------------------
Participation rate                                        67.7      67.1      77.5      76.8      60.0      59.5
----------------------------------------------------------------------------------------------------------------
Employed                                               127,552   128,657    63,543    64,737    64,009    63,920
----------------------------------------------------------------------------------------------------------------
Employment-population ratio                               61.6      61.4      70.1      70.2      54.9      54.4
----------------------------------------------------------------------------------------------------------------
Unemployed                                              12,638    12,127     6,728     6,139     5,909     5,988
----------------------------------------------------------------------------------------------------------------
Unemployment rate                                          9.0       8.6       9.6       8.7       8.5       8.6
----------------------------------------------------------------------------------------------------------------
Not in labor force                                      67,034    68,894    20,390    21,375    46,645    47,519
----------------------------------------------------------------------------------------------------------------
NOTE: Veterans served on active duty in the U.S. Armed Forces and were not on active duty at the time of the
  survey. Nonveterans never served on active duty in the U.S. Armed Forces. Veterans could have served anywhere
  in the world during these periods of service: Gulf War era II (September 2001-present), Gulf War era I (August
  1990-August 2001), Vietnam era (August 1964-April 1975), Korean War (July 1950-January 1955), World War II
  (December 1941-December 1946), and other service periods (all other time periods). Veterans who served in more
  than one wartime period are classified only in the most recent one. Veterans who served during one of the
  selected wartime periods and another period are classified only in the wartime period. Updated population
  controls are introduced annually with the release of January data.

    Also, the Bureau of Labor Statistics (BLS) published a more 
detailed News Release in March 2011 summarizing the annual unemployment 
statistics for veterans in the same four categories of service, along 
with data from a July 2010 special supplement to the Current Population 
Survey on veterans with service-connected disabilities. A copy of the 
News Release is attached and can also be found at: http://www.bls.gov/
news.release/pdf/vet.pdf.
    In addition, the three tables below present some aspects of the BLS 
data on veterans' and non-veterans' unemployment in 2010. The first 
table: (a) identifies the proportion of unemployed veterans in each of 
eleven specific age groups that BLS applies in tabulating veteran and 
non-veteran unemployment; and, (b) aggregates the proportions within 
those specific age groups into three more general age groups.


----------------------------------------------------------------------------------------------------------------
                                            Unemployed Veterans by Specific   Unemployed Veterans by General Age
                                                      Age Groups                            Groups
                Age Group                -----------------------------------------------------------------------
                                                              Proportion of
                                               Number             Total            Number        Percentage Rate
----------------------------------------------------------------------------------------------------------------
18-19                                               2,000              0.2%
------------------------------------------------------------------------------
20-24                                              44,000              4.3%

                                                                                      215,000             21.1%
------------------------------------------------------------------------------
25-29                                              92,000              9.0%
------------------------------------------------------------------------------
30-34                                              77,000              7.5%
----------------------------------------------------------------------------------------------------------------
35-39                                              73,000              7.2%
------------------------------------------------------------------------------
40-44                                              86,000              8.4%
------------------------------------------------------------------------------
45-49                                             127,000             12.5%           536,000             52.5%
------------------------------------------------------------------------------
50-54                                             132,000             12.9%
------------------------------------------------------------------------------
55-59                                             118,000             11.6%
----------------------------------------------------------------------------------------------------------------
60-64                                             151,000             14.8%
------------------------------------------------------------------------------
                                                                                      270,000             26.5%
65 +                                              119,000             11.7%
----------------------------------------------------------------------------------------------------------------
Total                                          1,020,000*             100%*        1,020,000*              100%
----------------------------------------------------------------------------------------------------------------
<bullet> Group figures do not add to totals due to rounding.
<bullet> Source: Current Population Survey tables, available upon request from BLS.


    The second table presents the differences between the veteran and 
non-veteran unemployment rates within the eleven specific age groups. 
Note that when the veterans and non-veterans in the civilian labor 
force are standardized according to their specific age groups, the 
veteran unemployment rates are higher for nine of the eleven age 
groups.


----------------------------------------------------------------------------------------------------------------
                                                                           Unemployment Rate
                      Age Group                      -----------------------------------------------------------
                                                            Veteran           Non-Veteran         Difference
----------------------------------------------------------------------------------------------------------------
18-19...............................................              29.4%               24.2%               +5.2%
----------------------------------------------------------------------------------------------------------------
20-24...............................................              20.6%               15.4%               +5.2%
----------------------------------------------------------------------------------------------------------------
25-29...............................................              14.9%               10.7%               +4.2%
----------------------------------------------------------------------------------------------------------------
30-34...............................................              10.5%                9.1%               +1.4%
----------------------------------------------------------------------------------------------------------------
35-39...............................................               8.0%                8.1%               -0.1%
----------------------------------------------------------------------------------------------------------------
40-44...............................................               6.7%                8.2%               -1.5%
----------------------------------------------------------------------------------------------------------------
45-49...............................................               8.3%                7.8%               +0.5%
----------------------------------------------------------------------------------------------------------------
50-54...............................................               8.4%                7.5%               +0.9%
----------------------------------------------------------------------------------------------------------------
55-59...............................................               8.5%                6.9%               +1.6%
----------------------------------------------------------------------------------------------------------------
60-64...............................................               8.0%                7.1%               +0.9%
----------------------------------------------------------------------------------------------------------------
65..................................................              +7.2%                6.5%               +0.7%
----------------------------------------------------------------------------------------------------------------

    The third table illustrates why the overall veteran unemployment 
rate is lower than the non-veteran rate, despite the higher veteran 
unemployment rates in nine of eleven age groups. Specifically, the 
veterans in the civilian labor force are concentrated in the 45-65 age 
range, with an average unemployment rate of 8.1 percent, while the non-
veterans are concentrated in the 18-44 age range with an average 
unemployment rate of 10.9 percent. In light of the difference in the 
age structure of the veterans and non-veterans in the civilian labor 
force and the differences in unemployment rates by age, the overall 
lower average unemployment rate for veterans reflects a comparison 
between two groups that are not truly comparable. Therefore, the 
overall averages are somewhat deceptive.


----------------------------------------------------------------------------------------------------------------
                                              Veteran (Ages 18 and over)        Non-Veteran (Ages 18 and over)
                                         -----------------------------------------------------------------------
                Age Group                    Percent of                          Percent of
                                           Civilian Labor     Unemployment     Civilian Labor     Unemployment
                                                Force             Rate              Force             Rate
----------------------------------------------------------------------------------------------------------------
18-44                                                 32%             10.0%               59%             10.9%
----------------------------------------------------------------------------------------------------------------
45-65                                                +68%              8.1%               41%              7.3%
----------------------------------------------------------------------------------------------------------------
Total                                                100%              8.7%              100%              9.4%
----------------------------------------------------------------------------------------------------------------


    2.   What are some of the unique employment needs of homeless 
veterans?

    Among their other unique needs, many homeless veterans require 
stable housing and health care before they can be considered job-ready. 
Similar to veterans in other DoL grant programs, each homeless veteran 
needs to be assessed for transferable skills and skill development 
prior to seeking employment. These individual assessments are conducted 
by Homeless Veterans Reintegration Program (HVRP) grantees and form the 
basis of a veteran's Individual Employment Plan (IEP), which addresses 
his or her particularized employment needs, including:

    1.  job search workshops
    2.  job counseling
    3.  resume writing techniques
    4.  interviewing skills
    5.  on the job training
    6.  job development services
    7.  competitive job placement
    8.  job retention services
    9.  soft skills training, such as how to present oneself (i.e., 
dress, network)

    Some homeless veterans may also have suffered an injury or illness 
while on active duty, which can result in a serious reduction in their 
employability. When this happens, the HVRP grantee must then secure 
appropriate services in the local community to help the veteran 
overcome the barriers incurred as a result of the injury or illness. 
For example, a veteran suffering from Post-Traumatic Stress Disorder 
(PTSD) may participate in prescribed therapy to stabilize his or her 
condition. After the treating physician determines that the veteran's 
condition is stable enough for him or her to seek employment, the 
service provider then works to place the veteran with an appropriate 
employer. As part of these placement efforts, the service provider 
typically follows up with the veteran and the employer frequently in 
the first weeks of employment, and gradually reduces assistance until 
the veteran is fully independent. Service providers refer to this type 
of assistance as ``supported employment.''
    Veterans who have suffered physical disabilities--such as 
amputations--need a rehabilitation technology assessment to determine 
if the physical disability can be overcome so that they can 
successfully enter the workforce. In this situation, service providers 
refer veterans to the Veteran Affairs (VA) Health Care system for these 
assessments, including training on needed technology to help veterans 
overcome the challenges presented by their physical difficulties in the 
workplace. When the assessment and training are complete, the service 
provider works to place the veteran with a suitable employer in a 
position that does not further aggravate the disability. Some service 
providers may also request reasonable accommodations on the job site. 
Skilled job placement specialists are able to properly educate 
employers on the need for reasonable accommodations while still being 
sensitive to imposing undue burdens on the employer.
    Another employment-related need common to the homeless veteran 
population is reliable transportation. Transportation is especially 
deficient in rural areas of the country where many homeless veterans 
live. Service providers are required to link with local resources to 
try and overcome transportation barriers to employment.
    Perhaps the most difficult barrier for the provider of employment 
services to homeless veterans to overcome is mental illness. In this 
situation, service providers refer veterans to the VA Compensated Work 
Therapy (CWT) program to help overcome this barrier. CWT is a VA 
vocational rehabilitation program that endeavors to match and support 
work ready veterans in competitive jobs, and to consult with business 
and industry regarding their specific employment needs. In addition, 
some service providers utilize on-the-job training as a trial work 
experience to determine whether the veteran's skills match the 
employer's needs. Other HVRP grantee service providers utilize the 
``job carving'' technique, where job developers examine the employer's 
needs and carve out specific duties within a veteran's ability despite 
the presence of mental illness. The service provider then offers 
supported employment, as discussed above, to the employer and veteran 
as a means of ensuring job retention.
    Two other issues impacting a significant number of homeless 
veterans are substance abuse disorders and legal problems, such as 
child support delinquencies and ``failure to appear'' warrants for 
minor citations, which mostly result from their homelessness. These 
obstacles are most effectively addressed when the veteran participates 
in a transitional program that offers residential stability, employment 
support and legal assistance, with the provider serving as the 
veteran's advocate. Participation in a structured, supervised program 
demonstrates the veteran's commitment to correcting past indiscretions 
and opens up opportunities that might otherwise be denied.
    Homeless female veterans and homeless veterans with families also 
face unique challenges such as the need for reliable child care. 
Moreover, many of these veterans may not come forward and seek the help 
available to them for fear that their children may be placed into 
foster care if they disclose their status as a homeless individual to a 
service provider or other government entity. Unfortunately, this fear 
of coming forward only exacerbates an already precarious situation.

    3.   There is a need to ensure that veterans are getting trained 
and afforded ample opportunities to succeed. What kind of training 
should combat arms veterans receive versus a non-combat arms veteran to 
succeed in the job market?

    The reality is that when it comes to employment training, all 
veterans need a solid set of skills to be competitive. A veteran's 
military experience makes him or her competitive in the job market; 
each possesses critical ``soft skills'' such as leadership, strategic 
planning, risk assessment, and management. However, some employers may 
view PTSD or TBI as barriers for many young veterans being competitive. 
Additionally, VETS believes that younger veterans experience some 
difficulty translating their knowledge, skills, and abilities into 
compelling language that employers understand. For these reasons, it is 
important that every veteran be able to fully articulate his or her 
personal story, experiences, skills, and value that he or she can 
provide to a prospective employer. Thus, while the opportunity for 
Federally supported training, available resources, and course content 
should be uniform for both combat and non-combat veterans, their 
individual stories, experiences, and employment needs will necessarily 
differ.

                                 <all>

</pre></body></html>
